<html>
<title> - S. Hrg. 107-1108 RAILROAD SAFETY</title>
<body><pre>[Senate Hearing 107-1108]
[From the U.S. Government Printing Office]


 




                                                       S. Hrg. 107-1108

                            RAILROAD SAFETY

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
92-206 PDF                 WASHINGTON : 2005


_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

       Subcommittee on Surface Transportation and Merchant Marine

                  JOHN B. BREAUX, Louisiana, Chairman
DANIEL K. INOUYE, Hawaii             GORDON SMITH, Oregon
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
RON WYDEN, Oregon                    OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JEAN CARNAHAN, Missouri              JOHN ENSIGN, Nevada
JOHN EDWARDS, North Carolina
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held July 10, 2002.......................................     1
Statement of Senator Breaux......................................     1
Statement of Senator Hollings....................................     2
Statement of Senator McCain......................................     4
    Prepared statement...........................................     6

                               Witnesses

Blakey, Hon. Marion C., Chairman, National Transportation Safety 
  Board..........................................................     7
    Prepared statement...........................................    10
Gunn, David, President and CEO, National Railroad Passenger 
  Corporation....................................................    39
    Prepared statement...........................................    42
Hahs, Don M., International President, Brotherhood of 
  Locomotive Engineers...........................................    55
    Prepared statement...........................................    57
Hamberger, Edward, President and CEO, Association of American 
  Railroads; accompanied by: C.E. Dettmann, Senior Executive Vice 
  President for Safety and Operations............................    44
    Prepared statement...........................................    45
Rutter, Hon. Allan, Administrator, Federal Railroad 
  Administration.................................................    13
    Prepared statement...........................................    14

                                Appendix

Cleland, Hon. Max, U.S. Senator from Georgia, prepared statement.    71
Response to written questions submitted by Hon. John McCain to:
    Marion C. Blakey.............................................    73
    Don M. Hahs..................................................    87
    Edward Hamberger.............................................    71
    Allan Rutter.................................................    75

 
                            RAILROAD SAFETY

                              ----------                              


                       WEDNESDAY, JULY 10, 2002,

                                       U.S. Senate,
Subcommittee on Surface Transportation and Merchant Marine,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John B. 
Breaux, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. The Subcommittee will come to order. Good 
morning everyone. Thanks to our witnesses for being with us. I 
am very pleased that we could assemble here this morning for 
this hearing on the issue of the safety of the Nation's 
railroads. We have called this hearing because of a rash of 
severe train accidents over the past several months. It seemed 
that we were becoming frequent witnesses to these accidents on 
the rails where they involve a freight train, Amtrak passenger 
train, like the Auto Train, or a commuter train like the 
Metrolink in Los Angeles. We also offer our condolences to the 
accident victims and their families that have been affected by 
these tragedies.
    We all know the railroad industry provides a vital 
transportation service in the United States. Our freight 
railroad system plays a significant role in our economy by 
efficiently moving goods around the country. Our national 
passenger rail system provides a vital link for passengers and 
serves as a foundation for the expansion of the high speed rail 
service across the entire country. Its importance is clearly 
deserving of attention, and to that end I am very pleased to be 
a cosponsor of S. 1991, legislation by our distinguished 
Chairman which provides long term solutions for Amtrak and also 
develops our passenger rail infrastructure.
    With the sprawling network of infrastructure, railroads 
operate, of course, in every State. This presents challenges 
for addressing safety risks. My state of Louisiana, this year 
alone through April, has seen 24 reportable train accidents 
involving over $1 million in damages, two injuries, and a total 
of 63 cars carrying hazardous material and 18 of these derailed 
or were damaged.
    Luckily, none of these accidents resulted in fatalities or 
the release of any hazardous materials. Louisiana has seen its 
share over the years of severe rail accidents. In May of the 
year 2000 in Eunice, Louisiana, a Union Pacific freight train 
derailed causing explosions, fire, the release of hazardous 
materials, evacuation of about 3,500 families, people, from the 
surrounding area and over $35 million in damages.
    NTSB found that the accident was caused because of the UP's 
ineffective track inspection procedures and inadequate 
management oversight, but other recent incidents have involved 
even more tragic loss of life and raised even more persistent 
and widespread safety issues. Today we seek not answers, 
necessarily, to any one of these tragic accidents, but what can 
be done to prevent tragedies in the future as we in the 
Congress consider a greater role for passenger rail in our 
transportation system.
    I have every confidence that the causes of these 
unfortunate events will be uncovered and corrective actions 
taken. I wish to further explore what is being done to solve 
any underlying safety issues, and what can be done by federal 
and state authorities and the private sector to increase the 
safety of all of our Nation's rail carriers.
    Specifically today the witnesses will address the 
technologies and practices available now, and in the near 
future, to improve rail safety. For example, I understand that 
rail projects involving positive train control technology are 
developing. I would like to hear a progress report on this 
effort. In addition, the Committee should hear the witness' 
views on whether the President's safety measures are adequate 
to ensure rail safety, especially where both passenger and 
freight trains share the same track.
    I also look forward to the testimony of Hon. Allan Rutter, 
the Federal Railroad Administrator, and Hon. Marion Blakey, who 
is chairman of the National Transportation Safety Board. I hope 
they will enlighten us on the status of several of the rail 
safety rulemakings that may prevent some of these accidents and 
limit fatalities in others.
    Finally, we will listen with interest to representatives 
from the industry, what are the views of the American 
Association of Railroads, the Brotherhood of Locomotive 
Engineers, and Amtrak on current track inspection requirements 
and practices. How do these groups view the promise for 
existing technology, like the positive train controls to 
prevent accidents.
    All of these witnesses today have the knowledge and 
experience about the industry and about these safety efforts, 
so we look forward to hearing from our distinguished witnesses, 
and we recognize the distinguished Chairman of the full 
Committee, Senator Hollings, for any comments he may have.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. Mr. Chairman, thank you very much for this 
very important hearing on safety. Number 1, I noted that my 
counterpart, the distinguished Chairman on the House side, Don 
Young, has a letter to the editor in the morning Washington 
Post asking for reforms and a complete cleaning out of Amtrak. 
I do not mind cleaning out all except the Chairman himself, or 
whatever his title is, Mr. Gunn. David Gunn is the best reform 
we have had in my 31 years around here.
    With respect to Amtrak, if they needed any cleaning out, we 
ought to clean out ourselves. What we have done is played games 
for the last 31 years. The best example is already this year we 
have appropriated $28.5 billion for airlines alone, and in the 
entire 31 years we never have appropriated $28 billion for rail 
service, and particularly passenger service, so it brings into 
focus exactly what we have been doing. We do not mind spending 
$400 billion for highways, or $28\1/2\ billion in this 
particular year that we have appropriated for the airlines. Now 
we are going to have auditing, we have got to have consultants 
to find out where we are going to have savings, we have got to 
do this.
    We have got to look at ourselves and realize that you have 
got to make a command decision as to whether or not you want a 
passenger rail service in this country, and this Committee by a 
vote of 20 to 3, Mr. Chairman, has voted categorically in a 
bipartisan fashion to have in the United States a modern high 
speed rail service, and along that line we have got to go 
immediately to the tinkering again by the administration which, 
kicking and screaming, has yet to come into the room of 
passenger rail service in this country.
    Specifically on safety, only 9 months after 9/11, we 
appropriated some moneys for safety, and just for the tunnels 
going in to New York. They only gave us the money last week, 9 
months later. Otherwise, on the loans, they are playing a game. 
They are trying to dismantle long term, long haul service, 
passenger service, which is needed, as conditions for the 
loans, plus a bunch of other silly conditions. Like they are 
really concerned that this thing is being operated right. What 
they are trying to do is put it out of business.
    They have yet to come up with a long term Amtrak bill, or 
passenger service bill to submit to the Congress. We have been 
talking and talking. We have had three hearings, we have had a 
vote in this Committee, and we continue to work on it then 
along comes the Secretary of Transportation like the perils of 
Pauline, like they are saving it. They are going to give them a 
$100 million loan, they are going to keep them alive.
    Well, the Congress is going to keep them alive. They are 
going to have to veto it, because we are going to put the money 
in it. We are putting the money in there, and we are going for 
this 12/21, our bill on high speed long term passenger service 
in the United States. If anyone has any criticisms I wish they 
would give them to us, because it is not supposed to be a 
perfect bill, but it does include the reforms.
    It is not that we had not thought this Committee studied 
and we put in the provisions with respect to financing. We 
require a 5-year financial plan. We put in the independent 
auditor that they are trying to get down to corporate America. 
We put that in our particular bill, S. 1991. Otherwise we put 
in a $1-1/2 billion for the high speed corridor development.
    I ask unanimous consent that we include this sort of cheat 
sheet that summarizes all the reforms. The administration would 
give to the American public the idea that we have got an 
indolent Congress that has not thought of reforming Amtrak. We 
have thought of all the reforms. We have taken the best advice 
from the witnesses here appearing this morning. We determined 
to move forward at some time this year and not save Amtrak, but 
by gosh, institute a passenger service in this United States of 
America.
    Like I say, by way of emphasis, I think the best reform 
that we have had so far, Mr. Chairman, is Mr. David Gunn, the 
newly appointed head of Amtrak. I think he knows way more about 
all of this train operation, and he is not going to be fudging 
like all the other particular executives we have had over the 
30-years that yeah, we can get by, yeah, we're going to do it. 
They knew that it was impossible, but politically they did not 
want to tell us, and they did not tell us, and that is why we 
are to blame as much as Amtrak is to blame. The Congress on 
both sides of the aisle, and that has got to stop. We have got 
to go to work.
    Thank you.
    Senator Breaux. Thank you, Mr. Chairman. For equal time, 
Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. If blame is to be 
apportioned, the record is very clear on my continued 
skepticism about the previous Amtrak presidents, the skepticism 
about and even strong disagreements with the statements that 
were made before this committee by Mr. Worthington, and my 
predictions that proved out to be exactly true that, despite 
our, quote, bail-outs, close quotes, that Amtrak would be back 
again in deep financial trouble, so there is blame to be 
apportioned.
    I will let the record show that this Member--this Member 
was very clear as to the difficulties that Amtrak was 
suffering, and the delusions and illusions that were 
perpetrated on a glidepath. Just a few months ago, the Amtrak 
executives assured this committee they were on the glidepath to 
financial stability. This statement demonstrates one of the 
most outrageous lacks of candor that I have observed in 20 
years here in the Congress.
    I hope that Mr. Rutter and Amtrak's new president, Mr. 
Gunn, will discuss Amtrak's current financial situation. Prior 
to the 4th of July recess there was an uproar over whether 
Amtrak would have been shut down by now. The administration 
provided a $100 million loan and is expected to seek additional 
assistance from Congress to keep Amtrak running through 
September. I hope Administrator Rutter will be able to tell us 
specifically what the administration is requesting of Congress. 
That was very unclear in the last hearing appearance by 
Secretary of Transportation Mineta.
    I hope that he and Mr. Gunn will also further explain to us 
what the emergency financial needs are, and how they define 
what needs were an emergency. I am also interested in knowing 
what additional reforms the administration recommends to be 
required as a condition of Amtrak receiving additional 
financial assistance.
    There is no question in my mind that Amtrak will get the 
money it needs to keep operating. After 31 years of subsidies 
that were to have ended by 1973, there is no reason to think 
Amtrak will not get what it is seeking, but why Amtrak waited 
until the eleventh hour to notify Congress of its desperate 
financial situation is beyond me. I can understand how Mr. Gunn 
could not have known much sooner, because he had only recently 
joined Amtrak, but what about the rest of Amtrak's management 
and, more importantly, what about Amtrak's board of directors?
    I believe an important first step toward reform is to call 
for the resignation of the members of the Amtrak reform board 
who were appointed to oversee Amtrak and meet the directives of 
the Amtrak Reform and Accountability Act. After all, these 
individuals are responsible for Amtrak's repeated claims that 
it was on a glide path to self-sufficiency, claims that, 
according to Mr. Gunn, were fictional.
    It is the same board that paid a high-powered consulting 
firm over $10 million for an analysis of where Amtrak should be 
headed, and how Amtrak could cut expenses. That report never 
saw the light of day, probably because the consultant 
recommended that Amtrak become a private company, and prepare 
for competition, similar to the recommendations made by the 
bipartisan Amtrak Reform Council.
    Another point here. The Amtrak Reform Council made 
recommendations. None of those recommendations that I know of 
were included in the legislation that passed through this 
Committee. I will attempt on the floor to get some of those 
recommendations of the Amtrak Reform Council incorporated in 
any further bail-out. Considering the attention being paid to 
actions taken by the boards of directors of private 
corporations, we should be especially concerned about the 
Amtrak board, whose decisions affect a corporation that 
receives millions of dollars annually from the American 
taxpayer. I believe these board members have failed to fulfill 
their fiduciary obligation and should be asked to step down, 
just as those overseeing private corporations have recently 
been asked to do.
    On June 28, I joined 13 other members in writing President 
Bush to recommend five short-term reforms as a condition of any 
additional Amtrak funding. I will be interested in hearing both 
Administrator Rutter's and Mr. Gunn's views on these modest 
proposals, which include:
    Transmitting all funds to the Department of Transportation 
to administer and distribute to Amtrak only under formal grant 
agreements. Such agreements tighten the purse strings and 
ensure that funds are spent as intended.
    Prohibiting Amtrak from incurring any new debt obligations 
unless approved by the DOT Secretary or the Director of the 
Office of Management and Budget.
    Directing Amtrak to prepare a contingency plan approved by 
DOT to ensure that commuter and freight operations on the 
Northeast Corridor as well as commuter service operated by 
Amtrak under contract continue, even if Amtrak ceases intercity 
operations.
    Directing DOT to establish a commission similar in 
structure to a Base Realignment and Closure Commission to 
evaluate Amtrak's route structure and develop standards to 
determine what routes should be operated, and requiring Amtrak 
in an effort to protect the investment of the American 
taxpayers to provide to the Federal Government any available 
non-leveraged collateral in exchange for Federal assistance.
    If Amtrak's latest financial crisis is not a wake-up call 
for reform, I do not know what it is. It is truly a sad 
commentary on Amtrak's management and board that during the 5 
years and $6.2 billion in Federal and State subsidies Amtrak 
has received since its last reauthorization, the company is 
once again on the verge of bankruptcy, despite repeated 
assurances that it would be free of operating subsidies once 
that authorization period ended.
    One additional point. The money that we use to subsidize 
the airlines and highways come directly from user fees, from 
those that use the airlines and highways. Rail passenger uses 
comprises 1/2 of 1 percent of all traffic passengers in 
America. We are asking this money for Amtrak to be taken out of 
general revenues. I think it is a significantly different 
situation. I am `convinced that without major reform in another 
5 years or even sooner, we are certain to face yet another 
Amtrak bail-out. I will not give up hope that Congress will 
embrace real change for our Nation's national passenger rail 
service.
    Thank you, Mr. Chairman.
    [The prepared statement of Sen. McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Thank you, Mr. Chairman. This hearing is certainly timely. In a 
span of less than 3 months, there have been 13 serious rail accidents 
involving Amtrak, commuter authorities, and several freight railroads, 
which have resulted in eight fatalities, over 500 injuries, and the 
evacuation of all 2,200 residents of Potterville, Michigan. In addition 
to these accidents, there was a hazardous materials release last 
January in Minot, North Dakota, that killed one and seriously injured 
13 others. And it was just a year ago that a CSX train derailed in the 
Howard Street Tunnel in Baltimore, leaking hydrochloric acid, lighting 
several carloads of paper on fire and disrupting the city for several 
days.
    While the recent spate of accidents is alarming, statistically, 
rail safety has made great progress. Historically, there appears to 
have been a fairly strong correlation between safety in the freight 
rail industry and the industry's financial stability. Since the 
Staggers Rail Act of 1980 partially deregulated the railroads, the rate 
of train accidents has declined 64%, the rate of employee injuries and 
fatalities has fallen 57%, and grade crossing fatalities have been 
reduced by 50%. I am concerned that the recent accidents could be a 
sign of the end to these positive trends.
    I am interested in hearing from today's witnesses and learning 
their views on what needs to be done to better protect the safety and 
security of the both rail employees and passengers, as well as the 
general public. I also recognize that yesterday, the Administration 
submitted its proposal to reauthorize our federal rail safety programs 
and hope that our Committee will be able to work together to move this 
important reauthorization during the limited time remaining this 
session.
    In addition to focusing our attention on railroad safety, today's 
hearing also provides us the opportunity to question Administrator 
Rutter and Amtrak's new president, David Gunn, about Amtrak's current 
financial situation--an opportunity we would not otherwise have been 
given. Prior to the July 4th recess, there was an uproar over whether 
Amtrak would have been shut down by now. The Administration provided a 
$100 million loan and is expected to seek additional assistance from 
Congress to keep Amtrak running through September.
    I hope Administrator Rutter will be able to tell us specifically 
what the Administration is requesting of Congress. I also hope he and 
Mr. Gunn will further explain to us what the emergency financial needs 
are, and how they defined what needs were an emergency. I am also 
interested in knowing what additional reforms the Administration 
recommends be required as a condition of Amtrak receiving additional 
financial assistance.
    There is no question in my mind that Amtrak will get the money it 
needs to keep operating. Certainly after 31 years of subsidies that 
were to have ended by 1973, there is no reason to think Amtrak won't 
get what it is seeking. But why Amtrak waited until the 11th hour to 
notify Congress of its desperate financial situation is beyond me. I 
can understand how Mr. Gunn couldn't have known much sooner because he 
had only recently joined Amtrak. But what about the rest of Amtrak's 
management and, more importantly, what about the Amtrak Board of 
Directors?
    I believe an important first step toward reform is to call for the 
resignation of the members of the Amtrak Reform Board who were 
appointed to oversee Amtrak and meet the directives of the Amtrak 
Reform and Accountability Act. After all, these individuals are 
responsible for Amtrak's repeated claims that it was on a glidepath to 
self-sufficiency--claims that, according to Mr. Gunn, were 
``fictional.'' It is the same Board that paid a high-powered consulting 
firm over $10 million for an analysis of where Amtrak should be headed 
and how Amtrak could cut expenses. Yet, that report never saw the light 
of day, probably because the consultant recommended that Amtrak become 
a private company and prepare for competition, similar to the 
recommendations made by the bipartisan Amtrak Reform Council.
    Considering the attention being paid to actions taken by the boards 
of directors of private corporations, we should be especially concerned 
about the Amtrak Board whose decisions affect a corporation that 
receives millions of dollars annually from the American taxpayers. 
Again, I believe these Board members have failed to fulfill their 
fiduciary obligations and should be asked to step down, just as those 
overseeing private corporations have recently been asked to do.
    On June 28, I joined with 13 other members in writing President 
Bush to recommend five short-term reforms as a condition of any 
additional Amtrak funding. I will be interested in hearing both 
Administrator Rutter's and Mr. Gunn's views on these modest proposals, 
which include:

  <bullet>  Transmitting all funds to the Department of Transportation 
        (DOT) to administer and distribute to Amtrak only under formal 
        grant agreements. Such agreements tighten the purse strings and 
        ensure that funds are spent as intended;

  <bullet>  Prohibiting Amtrak from incurring any new debt obligations 
        unless approved by the DOT Secretary or the Director of the 
        Office of Management and Budget;

  <bullet>  Directing Amtrak to prepare a contingency plan, approved by 
        DOT, to ensure that commuter and freight operations on the 
        Northeast Corridor, as well as commuter services operated by 
        Amtrak under contract, continue even if Amtrak ceases intercity 
        operations;

  <bullet>  Directing DOT to establish a commission, similar in 
        structure to a Base Realignment and Closure Commission, to 
        evaluate Amtrak's route structure and develop standards to 
        determine what routes should be operated; and,

  <bullet>  Requiring Amtrak, in an effort to protect the investment of 
        the American taxpayers, to provide to the federal government 
        any available non-leveraged collateral in exchange for federal 
        assistance.

    If Amtrak's latest financial crisis isn't a wake-up call for 
reform, I don't know what is. It is truly a sad commentary on Amtrak's 
management and Board that during the five years and $6.2 billion in 
federal and state subsidies Amtrak has received since its last 
reauthorization, the company is once again on the verge of bankruptcy 
despite repeated assurances that it would be free of operating 
subsidies once that authorization period ended.
    I am convinced that without major reform, in another five years--or 
even sooner--we are certain to face yet another Amtrak bailout. I will 
not give up hope that Congress will embrace real change for our 
nation's passenger rail system.

    Senator Breaux. Thank you very much, Senator McCain.
    Welcome to both of our witnesses, Ms. Blakey and Mr. 
Rutter. We have your prepared statements, and Mr. Rutter, I 
notice you have a 39-minute statement. Ms. Blakey, yours is 
shorter, but nevertheless we would like you to try and 
summarize your statement so we can proceed to questions.
    Ms. Blakey, welcome.

    STATEMENT OF HON. MARION C. BLAKEY, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Blakey. Thank you very much, and I am delighted to be 
here.
    Chairman Breaux, Senator Hollings, Senator McCain, it is a 
pleasure to appear before you. As you know, the National 
Transportation Safety Board's most important products are our 
safety recommendations. It is a proven fact that our safety 
recommendations do save lives but unfortunately many of the 
recommendations we have made in the rail area have yet to be 
implemented. For this reason, I recently began meeting with all 
of the administrators of the Department of Transportation, 
Administrator Rutter included. Our goal has been to close 
satisfactorily many of the open recommendations from the NTSB, 
including as many as possible of those on our most wanted list 
of safety recommendations.
    As many of you know, the most wanted list contains those 
issues that we believe are most urgent and have the greatest 
potential to advance safety. Over the last few weeks, I have 
had what I consider to be very successful meetings with a 
number of the administrators. We are coming to look at the 
recommendations in two groups, those that we can close 
satisfactorily immediately, based upon progress to date, and 
those that may take 2 years. When you look back over this list 
of recommendations, many of them have been open for a decade, 
and so what we are trying to do is speed up this progress.
    Today, I would like to talk with you, therefore, about two 
specific areas in the rail arena that we think are most 
critical from the standpoint of safety improvements. These are, 
in addition to grade crossings, which I will touch on, but in 
the interest of brevity I will go to those two specifics. We 
think these are the ones that have the greatest potential to 
save lives. Here we are talking about one that I know you are 
familiar with, positive train control, and here we have 
important recommendations on the books which we would like to 
ask for your support to achieve those goals.
    Positive train control has been on our most wanted list of 
safety improvements since 1990. As you know, PTC systems, as 
they are known, prevent train collisions by automatically 
stopping a train when the engineer does not comply with a 
missed signal. Simply put, they have the ability to eliminate 
almost all rail collisions.
    Let me tell you briefly about a recent collision that could 
have been prevented had PTC been in place. This is one I am 
personally very familiar with, because it is one that I was the 
Board Member on the scene of the accident. As you all may 
recall, on April 23, in Placentia, California, Burlington 
Northern's Santa Fe freight train collided head on with a 
Metrolink commuter train. It resulted in the deaths of two 
Metrolink commuters.
    The NTSB learned that the BNSF train had failed to comply 
with two signals, first a yellow, then a red. The train was 
traveling between 40 and 50 miles an hour when it passed the 
red signal very fast, and it was not until the engineer saw the 
Metrolink train ahead that he actually applied the emergency 
brakes.
    Sadly, this kind of accident, and this accident 
specifically, could have been prevented with PTC. A PTC system 
would have stopped the train after it passed the yellow signal. 
It would have definitely had the train completely braked by the 
time it reached that red signal.
    This is not to say that progress has not been made. Since 
the mid-1990's, more than $267 million has been spent on PTC 
systems by both industry and Government, and we are encouraged 
by the efforts of some of the railroads to implement these 
systems. In addition, we recognize that the FRA has a 
commitment and a real support of the goal of implementing PTC 
as soon as possible. In fact, in 2001 the FRA published an NPRM 
to facilitate the development and implementation of the 
national differential global positioning satellite system, 
which is critical in making the system possible, and this is 
real progress.
    Mr. Chairman, the Safety Board recognizes the complexities 
and the costs that are involved in implementing positive train 
control. We are sensitive to these issues, but we genuinely 
believe much more can be done, and it can be done more quickly. 
We have got to increase the current pace of development. After 
12 years, it is still on the most wanted list, and there is no 
industry-wide plan for the integration of these kinds of 
systems. In fact, the rail lines that primarily serve freight 
carriers remain largely unprotected. We ask for your support, 
therefore, to help us encourage industry to speed up this pace.
    The other important issue I wanted to touch on briefly is 
track safety. Over the years, the Board has issued numerous 
recommendations to address track safety. In fact, according to 
the FRA, of the 2,962 reported train accidents in 2001, 1,115 
were track-related. Two recent track-related accidents being 
investigated by the board occurred in Crescent City, Florida, 
and in Minot, North Dakota.
    On April 18, an Amtrak Auto Train en route from Sanford, 
Florida, to Lorton, Virginia, derailed in Crescent City, 
Florida, killing four passengers. Shortly after the accident, 
the engineer told Safety Board investigators that he saw a 
misaligned track, but he saw it only approximately 60 feet in 
front of him and the train derailed shortly thereafter. Sixty 
feet is not enough to be able to stop a train. We are currently 
investigating many aspects of this accident, but one of the big 
focuses, of course, is track conditions.
    The other recent accident, and many of you will remember 
this, was on January 18 in Minot, North Dakota, when a Canadian 
Pacific railway freight train that was pulling tank cars filled 
with anhydrous ammonia derailed. Approximately 250,000 gallons 
of ammonia were released, killing one person in Minot. The 
release created a massive vapor cloud 5 miles long, 2-1/2 miles 
wide, 350 feet high.
    The Minot fire chief estimated that the vapor cloud 
affected 15,000 people, or 40 percent of the population of the 
city. We were very lucky in this case--it happened in the 
middle of the night. Most of the population was indoors and 
they were asleep, therefore we did not have the kind of effect 
on the population we would have at just about any other time of 
day.
    We are currently investigating this accident and we will 
hold hearings next Monday and Tuesday, the 15th and 16th, to 
address the issues involved in that particular accident. But to 
go to the broad point, what can we do to prevent these types of 
accidents, our most recent safety recommendation was issued in 
April following the Board's investigation of a train derailment 
in Eunice, Louisiana.
    As a result of this accident, we have asked the FRA to 
consider the volume of hazardous material shipments made over 
tracks when they are looking at the question of the frequency 
and type of inspections that they order. We think this is 
critical. I am confident that by addressing this issue and 
other issues that I mentioned today we can greatly reduce the 
number of injuries and the number of fatalities on our Nation's 
rail system.
    Thank you, and I would be happy to respond to questions.
    [The prepared statement of Ms. Blakey follows:]

        Prepared Statement of Hon. Marion C. Blakey, Chairman, 
                  National Transportation Safety Board
    Good morning Chairman Breaux and Members of the Subcommittee. It is 
a pleasure to represent the National Transportation Safety Board (NTSB) 
before you today on the subject of railroad safety.
    According to the Association of American Railroads, there are more 
than 600 freight railroads operating today in Canada, Mexico, and the 
United States. North American railroads operate over 173,000 miles of 
track, and generate $42 billion in annual revenues. In the United 
States, railroads account for more than 40 percent of all freight 
transportation.
    Federal Railroad Administration (FRA) data show that in 1996, there 
were 2,443 reportable train accidents, and in 2001 there were 2,962 
reportable train accidents. Although there was a marked decrease in 
railroad fatalities in 1999--from 1,008 to 932--this figure has risen 
to 966 in 2001. Mr. Chairman, as railroad traffic and the amount of 
hazardous materials being transported continue to increase, the 
railroad industry and government must remain vigilant with their 
efforts to prevent accidents.
    I want today to discuss three areas of concern to the Board--
positive train control, track safety, and grade crossing safety.
    The NTSB's safety recommendations are the most important results of 
its accident investigations. It is clear that adoption of our safety 
recommendations saves lives. We are working closely with the FRA to 
increase its current recommendation acceptance rate of about 71.5%, and 
to that end I met with Administrator Rutter on June 7, 2002, to discuss 
which of the open safety recommendations can and should be accomplished 
within the next two years. I believe the meeting was productive and 
will result in accomplishing several open safety recommendations.
    Since its creation in 1990, the Safety Board's Most Wanted list has 
highlighted safety recommendation issues that have the greatest 
potential to save lives. Positive train control (PTC) systems have been 
on the list since 1990. PTC systems prevent train collisions by 
automatically interceding in the operation of a train when the engineer 
does not comply with a required signal indication. In past accidents, 
engineers failed to comply with signals because of poor visibility, 
distractions, or other human performance failures, such as fatigue. As 
you are aware, problems associated with human fatigue is also a Most 
Wanted issue.
    Over the years, the Safety Board has repeatedly investigated 
railroad collisions that could have been prevented by a PTC system. 
Since 1969, when the Safety Board made its first safety recommendation 
related to PTC systems, the Board has investigated 15 relevant major 
railroad accidents related to PTC and completed a safety study--
resulting in 36 positive train control-related safety recommendations. 
Without the installation of PTC systems, preventable collision 
accidents will continue to occur and will continue to place railroad 
employees and the traveling public at risk.
    The most recent safety recommendation regarding PTC was issued in 
May 2001 as a result of the collision that occurred January 17, 1999, 
near Bryan, Ohio. Since that safety recommendation was issued, the NTSB 
has launched investigators to six railroad collision accidents that may 
have been prevented had PTC systems been in place, including a recent 
head-on collision that occurred between a freight train and a commuter 
train in Placentia, California, on April 23, 2002.
    As you may recall, at 8:20 a.m. a Burlington Northern Santa Fe 
(BNSF) freight train collided with a Metrolink commuter train, 
resulting in the fatal injuries of two Metrolink passengers. The BNSF 
train was traveling between 40 and 50 miles per hour when the engineer 
saw the Metrolink commuter train on the track put the train into 
emergency braking. Despite application of the train's emergency brakes, 
the BNSF train struck the Metrolink commuter train at 20 miles per 
hours, pushing it backward more than 300 feet and derailing its front 
passenger car.
    Since the mid 1990s, more than 267 million dollars have been spent 
on PTC systems by industry and government. The Safety Board is 
encouraged by the efforts of some railroads to implement PTC systems 
that have a collision avoidance component, and several projects have 
advanced past the developmental phase into revenue service. For 
instance:

  <bullet>  Amtrak continues installation of the Advanced Civil Speed 
        Enforcement System along the high-density Northeast Corridor 
        (with 198 miles completed);

  <bullet>  Amtrak is also installing the Incremental Train Control 
        System on the Michigan line between Chicago and Detroit (with 
        76 miles completed);

  <bullet>  New Jersey Transit continues installation of the Advanced 
        Speed Enforcement System (with plans to install it on all 540 
        miles system-wide); and

  <bullet>  The Illinois Department of Transportation, the FRA, the 
        AAR, and the Union Pacific are working to install a PTC system 
        on the Chicago to St. Louis Corridor.

    In September 1999, the FRA's Railroad Safety Advisory Committee 
(RSAC) completed a report titled ``Implementation of Positive Train 
Control Systems. The report noted that:

  <bullet>  Approximately 40 to 60 accidents could be prevented by PTC 
        each year;

  <bullet>  Approximately 7 fatalities and 55 injuries could be 
        prevented annually by PTC;

  <bullet>  Testing has shown that PTC is successful; and

  <bullet>  PTC systems can be designed to provide interoperability 
        among many systems.

    As a result of the RSAC report, in August 2001, the FRA published a 
notice of proposed rulemaking (NPRM) to facilitate development and 
implementation of the National Differential Global Positioning System 
(GPS) Network. Previous PTC testing established that a properly 
augmented GPS can provide a viable, low cost train-borne location 
determination system for PTC.
    Mr. Chairman, the Safety Board acknowledges progress in this area, 
and we recognize the complexities and costs involved in the 
implementation of PTC on the Nation's railroads. However, the safety 
Board is not satisfied with the current pace of development and 
implementation of collision avoidance technologies. It is important to 
remember that not only are we seeking to eliminate the fatalities and 
injuries in these collisions, but the devastating financial and 
environmental costs of hazardous materials accidents. To date, no plan 
for industry-wide integration has been developed. And, while progress 
has been particularly slow along rail lines that primarily serve 
freight carriers, even those lines with significant passenger traffic 
remain largely unprotected today--some 12 years after PTC was first 
placed on the Safety Board's Most Wanted list.
    Track safety is also an issue that has been addressed by the Board 
in numerous railroad accidents. According to the FRA, of the 2,962 
reportable train accidents in 2001, 1,115 were track-related. Mr. 
Chairman, when Mr. Bob Chipkevich, Director of the Board's Office of 
Railroad, Pipeline, and Hazardous Materials Investigations, testified 
before this Subcommittee in March 2001, he commended the FRA for its 
efforts to revise track standards. He expressed concern, however, that 
the rule to revise track safety standards did not mandate the use of 
advanced track inspection technology, such as track geometry cars. We 
believe data identified by track geometry cars would enable a track 
inspector to more effectively identify track anomalies, monitor those 
track segments with potential defects, and monitor the results of track 
work performed.
    The most recent railroad accident report adopted by the Board in 
which track conditions and inspection were issues resulted from an 
accident that occurred May 27, 2000, in Eunice, Louisiana. The 
derailment of a Union Pacific (UP) freight train resulted in 
explosions, fire, the release of hazardous materials, and the 
evacuation of about 3,500 people from the surrounding area. Total 
damages exceeded $35 million.
    After the derailment, a thorough inspection of the jointed rail 
territory revealed track conditions that did not meet the requirements 
for the type of track used. Furthermore, it was more than likely that 
these track conditions existed for some time. The FRA's records for the 
5 years preceding the accident documented a history of weak tie 
conditions and cracked joint bars in the jointed rail section at the 
accident location. During a walking inspection in 1996, the FRA 
discovered 36 broken joint bars and identified several areas with weak 
crossties. FRA inspectors inspected the track in January 1999 and 
discovered areas with insufficient crossties and defective joint bars. 
Although an FRA inspector found that the situation had been corrected 
in a follow-up inspection in March 1999, he found defective tie 
conditions at 11 locations and 2 cracked joint bars in other areas.
    During the Safety Board's investigation, Union Pacific advised NTSB 
staff that the track at the scene was inspected daily. A post-accident 
inspection by the Safety Board's investigative team, however, revealed 
numerous track defects--including 403 cracked and broken splice bars. 
Since this accident Union Pacific has implemented a more stringent 
inspection program for jointed track.
    Track issues are also being examined as part of our investigations 
of recent train derailments that occurred on January 18, 2002, in 
Minot, North Dakota, and on April 18, 2002, at Crescent City, Florida.
    The derailment and release of hazardous materials in Minot, North 
Dakota, occurred on January 18, 2002, at approximately 1:39 a.m., 
central standard time. The accident involved a Canadian Pacific Railway 
freight train with two locomotives and 112 cars, 31 of which derailed. 
Several tank cars were breeched, releasing more than 250,000 gallons of 
anhydrous ammonia, creating a vapor cloud that was estimated to be 5 
miles long, 2 \1/2\ miles wide, and about 350 feet high. The accident 
resulted in one fatality. The Minot Rural Fire Department Fire Chief 
estimated that the anhydrous ammonia vapor cloud affected approximately 
15,000 people, or 40 percent of the population of the City of Minot.
    The train's operating crew stated that while traveling at 
approximately 40 miles per hour they felt a rough spot and were 
attempting to slow the train when the derailment occurred. The Board 
will hold a public hearing this summer regarding this accident and 
track issues will be addressed. We will keep the Committee advised of 
any developments as they occur.
    Track issues are also being looked into as a result of the 
derailment in Crescent City, Florida, which involved an Amtrak auto 
train en route from Sanford, Florida, to Lorton, Virginia. The accident 
occurred on April 18, 2002, at approximately 5:40 p.m. eastern daylight 
time. The Amtrak train was operating over CSX Transportation track and 
was carrying 418 passengers and a crew of 34 at the time of the 
accident. The accident resulted in 4 passenger fatalities and over 28 
injuries. The engineer told Safety Board investigators that he was 
operating under a clear signal indication when he saw a misaligned 
track approximately 60 feet in front of the engine. Before he could 
initiate the train's emergency brakes, he was thrown to the side of the 
locomotive cab. He then initiated the emergency brakes and felt the 
train derail.
    The NTSB believes that the FRA needs to increase track inspections, 
and recommended--as a result of the Eunice, Louisiana, accident--that 
the FRA modify its track inspection program to consider the volume of 
hazardous materials shipments made over the tracks in determining the 
frequency and type of track inspections. We look forward to receiving 
the FRA's response.
    Mr. Chairman, I would be remiss if I did not discuss a long-
standing safety concern of the Board's--grade crossing safety. Data 
indicate that every 160 minutes a collision between a train and a car 
or a truck occurs at one of the more than 259,000 highway/rail grade 
crossings in the United States, resulting in 419 fatalities in 2001.
    The most recent railroad/highway grade crossing accident report 
adopted by the Board involved an accident that occurred on March 15, 
1999, in Bourbonnais, Illinois, which resulted in 11 fatalities. The 
Safety Board's investigation revealed that the truckdriver had ample 
time to safely stop his truck and avoid an accident, but likely as a 
result of fatigue, he failed to respond appropriately to the signals 
and instead decided to cross ahead of the train.
    On-going grade crossing accidents include accidents that occurred 
November 20, 2000, in Intercession City, Florida, that involved an 
Amtrak train and an oversize/overweight tractor-trailer combination 
vehicle at a protected crossing, and May 14, 2002, in Coosawhatchie, 
South Carolina, that involved an Amtrak train and a tractor-trailer 
carrying logs at an unprotected crossing.
    Ideally, the Safety Board believes that closing crossings or 
separating rail traffic from highway traffic through bridges and 
overpasses are the most effective means to eliminate accidents between 
highway vehicles and trains. The Safety Board recognizes that closures 
or traffic separation is not always possible. Therefore, the NTSB has 
also recommended that grade crossings be equipped with active devices 
that warn motorists of on-coming trains. We have seen, however, that 
even those crossings with flashing lights and gates do not prevent all 
accidents. Many Board investigations of accidents that occurred at 
active crossings have involved drivers who did not comply with train-
activated warning devices installed at the crossings. Drivers often 
drove around lowered crossing gates or ignored flashing lights. Because 
of these deliberate actions by drivers, the Safety Board believes 
strong consideration should be given to the installation of devices 
that will prevent motorists from driving around lowered gates or median 
barriers.
    As a result of the grade crossing accident in Bourbonnais, 
Illinois, the NTSB recommended that the Department of Transportation 
provide Federal highway safety incentive grants to States to advance 
innovative pilot programs. These programs are designed to increase 
enforcement of grade crossing traffic laws at both active and passive 
crossings. We recognize that not all passive grade crossings will be 
upgraded in the near future with active warning devices, and we believe 
that education and enforcement, such as the use of cameras to catch 
violators who drive around the gates, must be a part of any effective 
grade crossing improvement plan. Many motorists fail to understand the 
level of risk at grade crossings, and do not realize that a 150-car 
train traveling at 50 miles per hour will take about 1\1/2\ miles to 
stop. The Safety Board fully supports the education efforts of 
Operation Lifesaver and other endeavors to provide information about 
grade crossing safety to drivers, and has recommended that grade 
crossing questions be included on all drivers' license tests.
    Thank you, Mr. Chairman. I will be happy to respond to any 
questions.

    Senator Breaux. Thank you, Ms. Blakey. We will go on to Mr. 
Rutter's statement. Please summarize, if you can.

        STATEMENT OF HON. ALLAN RUTTER, ADMINISTRATOR, 
                FEDERAL RAILROAD ADMINISTRATION

    Mr. Rutter. Thank you, Chairman Breaux. I appreciate the 
opportunity to appear before you today to discuss the current 
state of railroad safety in the Nation's railway industry.
    As FRA Administrator, nothing is more important to me than 
railroad safety. Simply put, safety is what we are all about. 
It is the very reason for our existence. FRA's primary mission 
is to oversee and promote the safety and integrity of our 
Nation's freight and passenger railroad systems. We are 
responsible for administering and enforcing laws and 
regulations relating to rail safety through our headquarters 
personnel as well as more than 400 safety professionals 
throughout the field.
    With that as background, I feel comfortable in reporting to 
this body that our Nation's rail system is among the safest 
modes of transportation in the world. However, as recent 
accidents indicate, even a single railroad incident has the 
potential to result in injury or, worse, loss of life.
    To truly appreciate the safety of today's industry, it is 
important to look at the tremendous progress which has been 
achieved in past years, a great deal of which is due to the 
efforts of Members of this body. During the last two decades, 
the rate and number of accidents, employee injuries and 
fatalities, and train accidents with a hazardous material 
release have all declined significantly.
    Between 1978 and 2001, the number of train accidents and 
the train accident rate dropped by more than 70 percent. Train 
accidents dropped from nearly 11,000 to just shy of 3,000, and 
the train accident rate dropped from 14.62 accidents per 
million train-miles to 4.17.
    During the same period, the number of train accidents 
involving the release of hazardous materials declined nearly 80 
percent. Just this past year, in 2001, we saw the lowest number 
of employee fatalities and injuries in the history of the 
industry, and while our numbers for 2002 are preliminary, so 
far total accidents and incidents have dropped by 22 percent.
    With all that said, I in no way want to minimize the recent 
accidents, and I assure you that they have our attention. Each 
of the victims involved in these accidents had a name, and had 
family members. If nothing else, we owe it to these families to 
find out what went wrong, and to do all we can to make sure 
that these types of accidents do not happen again. My job, and 
the job of my colleagues, is to see that every railroad 
employee leaves work in the same condition as he or she was 
when they began their shift, and that a commuter passenger 
arrives safely at his or her final destination.
    Fortunately, I believe that these most recent accidents, 
though tragic, may not represent a trend. In working to 
determine what the problems are and why they are occurring, FRA 
does not rely on statistics alone. We are focusing on the 
underlying factor or factors which may have contributed to an 
accident happening in the first place, and how those factors 
can be mitigated.
    We have changed the way we do business, focusing our 
inspection efforts and our enforcement tools where they will do 
the most good in terms of reducing the likelihood of train 
accidents and injuries. Our focus is more on accidents that 
result in death or injury, rather than on minor accidents, most 
of which happen in yards or terminals, which might be referred 
to as ``fender benders''. Now, instead of just handing out 
fines, we are working with all stakeholders, rail labor and 
management, suppliers and contractors, as well as other 
interested parties, all in the name of safety.
    For example, when Amtrak began reporting a reduction in 
force earlier in this year, FRA immediately intensified efforts 
to work with Amtrak to see that these cuts did not affect basic 
safety. When certain railroads have had continuing incidents, 
we meet with the company's management to coordinate an effort 
to address these problems. We recently announced an industry-
wide effort to work with the railroads to increase efficiency 
testing to reduce human factor-caused train accidents by 
ensuring the train crews are alert and complying with safety 
and operating rules.
    Under performance budgeting, Congress saw fit to provide us 
with greater resources in the form of additional inspectors, 
which have been very helpful in addressing these issues. In 
addition to those actual performance matters, one of the most 
important ways we benefit from safety partnerships is in our 
rulemaking process. Our Railroad Safety Advisory Committee, or 
RSAC, gives all of the affected groups the opportunity to shape 
rules from their outset.
    Unfortunately, one area of rail safety that continues to 
plague us is grade crossing and trespasser incidents, which 
account for 95 percent of all train-related fatalities. It is 
my opinion that only through an intensified and targeted 
educational effort, along with aggressive enforcement of State 
and local laws, and greater funding for physical improvements, 
will we begin to see those numbers decline.
    In closing, while we will not be satisfied until we reach 
zero injuries and zero fatalities, I believe progress has been 
and will continue to be made in improving the safety of 
America's rail industry. We at FRA are totally committed to 
aggressive and proactive action to this end, and I would be 
glad to answer any questions you may have for me.
    [The prepared statement of Mr. Rutter follows:]

        Prepared Statement of Hon. Allan Rutter, Administrator, 
                    Federal Railroad Administration
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you to discuss the state of railroad 
safety on our nation's railroads. On behalf of the Federal Railroad 
Administration (FRA), the agency charged with administering the 
nation's railroad safety laws, I extend my deepest sympathy to the 
families of the people who died in recent accidents and to those who 
were injured. My testimony will explain how FRA's railroad safety 
program is working daily to reduce the likelihood and severity of 
accidents such as these and will demonstrate that the state of railroad 
safety is generally very positive.
    FRA's safety mission can be simply stated: help prevent fatalities, 
injuries, and property damage related to railroad operations and 
releases of hazardous materials from rail cars, and enhance the 
security of railroad operations. Under the Federal Railroad Safety Act 
of 1970, FRA's jurisdiction extends to all areas of railroad safety. We 
have issued rules on a wide range of subjects including track, signal 
and train control, locomotives and other equipment, grade crossing 
signal devices, and operating practices, and we enforce those rules as 
well as rules related to hazardous materials transportation by rail. We 
conduct inspections of railroad operations to determine the level of 
compliance with the laws and regulations, and use a variety of 
enforcement tools when necessary to encourage compliance. We help 
educate the public about safety at highway-rail grade crossings and the 
dangers of trespassing on railroad property. FRA has its own accident 
investigation authority, and works closely with the National 
Transportation Safety Board (NTSB) on those accidents that NTSB 
investigates. FRA investigates a broader range of railroad accidents 
than NTSB, including those involving three or more deaths at a highway-
rail grade crossing, an employee fatality, damages that exceed 
$1,000,000, or serious injuries to passengers.
    FRA tracks the railroad industry's safety performance very closely 
by requiring reports of accidents and injuries, investigating major 
accidents, and inspecting railroads and hazardous materials shippers 
extensively. FRA's safety data base is available on its Web site (see 
www.fra.dot.gov). FRA uses this information to guide its accident 
prevention efforts and continually strives to make better use of the 
wealth of available data to achieve its mission.
The Current State of Railroad Safety Across the Nation
    As judged by most indicators, the long-term safety trends on the 
nation's railroads are very favorable. While not even a single death or 
injury is acceptable, progress is being made in the effort to improve 
railroad safety. Based on preliminary figures, last year marked all-
time safety records in several important categories. Overall, the total 
number of rail-related accidents and incidents and the total accident/
incident rate were the lowest on record. Also, 2001 saw the lowest 
number of railroad employee fatalities (22) and injuries (7,575) on 
record and the lowest overall employee casualty rate (3.19 per 200,000 
employee hours). In the period between 1978 and 2001, the number of 
reported train accidents dropped from 10,991 to 2,962, and the train 
accident rate fell from 14.62 accidents per million train-miles to 4.17 
accidents. Also during this period, the number of train accidents 
involving a release of hazardous material declined from 140 to 31 
despite a significant increase in the number of hazardous materials 
tank car shipments to more than two million per year. Since 1990, a 
period in which railroads have transported more than 20 million 
hazardous materials shipments, three persons have died as a result of 
the release of hazardous material lading in a train accident.
    In other words, over the last two decades the number and rate of 
train accidents, total deaths arising from rail operations, employee 
fatalities and injuries, and hazardous materials releases and deaths 
related to those releases all fell dramatically. In most categories, 
these improvements were most rapid in the 1980s, and tapered off in the 
1990s. (See the attached graph of train accidents and their rate since 
1978.) Causes of the improvements included a much more profitable 
economic climate for freight railroads following deregulation in 1980 
under the Staggers Act (which led to substantially greater investment 
in plant and equipment), enhanced safety awareness and safety program 
implementation on the part of railroads and their employees, and FRA's 
safety monitoring and standard setting.
    Similarly, the grade crossing safety picture has shown great 
progress. In 1990, a total of 698 persons died in highway-rail grade 
crossing collisions. In 2001, the number was down to 419 despite an 
increase in exposure due to increased highway and rail traffic. Here, 
too, improvement has resulted from a variety of sources, including 
public investment in crossing warning devices and greater awareness of 
the risks present at crossings on the part of highway users, which was 
brought about by joint efforts of railroads, employees, FRA, the 
states, our Department of Transportation partners (Federal Highway 
Administration, Federal Transit Administration, Federal Motor Carrier 
Safety Administration, and the National Highway Traffic Safety 
Administration), and Operation Lifesaver.
    Despite the impression one might get from news accounts of recent 
accidents, rail remains an extremely safe mode of transport for 
passengers. In the five-year period between 1997 and 2001, just two 
passengers were killed in train collisions and derailments, and 13 more 
in grade crossing collisions, out of the 2.3 billion passengers who 
rode our nation's commuter and intercity passenger trains. According to 
the National Safety Council (see attached chart on passenger death 
rates), the number of deaths per 100 million railroad passenger-miles 
is quite comparable to the rate for airline passengers, both of which 
are a fraction of the rate for automobile passengers. Given the 
strength of rail passenger equipment and the fact that rail passengers 
are distributed throughout a train in such a way as to minimize the 
impact of a collision or derailment for many, rail passenger accidents-
while always to be avoided--have a very high survival rate.
    Unfortunately, not all of the major safety indicators are positive. 
In recent years, rail trespasser deaths have replaced grade crossing 
fatalities as the largest category of deaths associated with 
railroading. In 2001, a total of 508 persons died while on railroad 
property without authorization, which was an increase of nearly 10 
percent over the previous year. Track safety has also emerged as a 
growing problem. The number and rate of ``track-caused'' accidents have 
actually increased over the last few years. For the first time in many 
years, in 2001, track causes actually exceeded human factors as the 
largest category of train accident causes. In that year, track causes 
were cited in about 38 percent of all reported train accidents, while 
human factors accounted for about 34 percent, equipment causes were 
responsible for about 14 percent, signal-related factors were causal in 
about one percent, and miscellaneous causes accounted for the 
remainder.
    Any discussion of the railroad accident data, however, must take 
into account the fact that, under the current reporting threshold, any 
train mishap resulting in at least $6,700 in damage to railroad 
equipment or structures must be reported as a ``train accident.'' This 
means that many ``fender benders'' and mechanical malfunctions that 
pose no danger to either the public, railroad workers, or railroad 
operations meet the reporting threshold and are classified by FRA as 
train accidents. For example, FRA recently analyzed the number of train 
accidents in its database that occurred on Amtrak's Northeast Corridor 
over the past five years. While the raw data contained 101 events that 
were classified as train accidents, closer examination revealed that 84 
incidents involved mechanical malfunctions or damage to the overhead 
electrical equipment. These malfunctions cause a loss of electrical 
power that interrupts train service but causes no harm to the 
passengers. There were also three cases of vandalism to trains, five 
cases of trains striking debris and animals on the track, three 
incidents in which no passenger train was involved, and one fire caused 
by a cigarette in restroom debris. In fact, of the 101 total accidents 
reported on Amtrak's Northeast Corridor over the five-year period, 
there were only three train derailments, two of which occurred at very 
low speeds, and there were two cases where an Amtrak train struck 
unsecured equipment protruding from passing freight trains.
    Another factor to consider when discussing train accidents is that 
the severity of accidents can vary greatly. More than half of all train 
accidents occur in yards where train speeds are low, resultant damages 
are minor, and casualties are rare. Consider, for example, that train 
accidents, as FRA uses the term, resulted in only six of the 966 deaths 
associated with railroading in 2001. The vast bulk of those fatalities 
involved grade crossing incidents (419 deaths) and trespassers (508 
deaths). Given the limited usefulness of the aggregate data, FRA tries 
to continually mine the accident and inspection data at its disposal to 
find where the major pockets of risk exist and then determine how its 
actions can produce the biggest safety returns.
    FRA is also quite concerned at the number of recent train 
collisions in which human performance appears to be a primary 
contributing factor. Since the Placentia, California collision in April 
of this year, there have been seven more serious collisions. In many of 
these cases, we believe that compliance with the railroad's own 
operating rules on signals and restricted speed may have prevented the 
accident. As explained more fully below, FRA has recently launched a 
nationwide, focused effort to examine how the railroads are 
implementing their own programs for testing their employees' compliance 
with these important safety rules.
FRA's Safety and Security Program
    FRA's safety program is the heart and soul of the agency. The 
program has several elements: setting safety standards, ensuring 
compliance with those standards, focusing attention on serious safety 
problems whether or not covered by current standards, educating the 
rail industry on the federal standards and the public on rail safety 
issues, focusing on emerging security issues, investigating accidents 
and employee fatalities, conducting research and development on safety 
issues, and setting the tone for safety efforts in the industry.
    The program's most important element, of course, is its people. Our 
Office of Safety headquarters staff of 100 works on the gamut of 
activities including rulemaking, compliance, data analysis, and program 
management. Our field force of 486 (which includes safety inspectors, 
support staff, and managers) works on inspection and compliance 
activities, investigations, and outreach to communities and the public 
on safety issues. More than 160 certified state safety inspectors from 
30 states supplement the efforts of our field forces in all of these 
areas. Supporting the Office of Safety is the Safety Law Division of 
the Office of Chief Counsel, our Office of Administration (which 
provides human resource, budget, information technology, and 
procurement support), our public affairs staff, and our research and 
development office.
Setting Safety Standards
    Congress has authorized FRA, as the delegate of the Secretary of 
Transportation, to issue necessary regulations and orders for every 
area of railroad safety. Since FRA's inception in 1967, the agency has 
issued a wide range of standards on subjects such as track safety, 
signal inspection, freight car safety, passenger car safety, locomotive 
safety, power brakes, alcohol and drug testing, operating rules and 
practices, accident reporting, hours of service recordkeeping, railroad 
communications, roadway worker and bridge worker protection, engineer 
qualifications, grade crossing signal maintenance, and passenger train 
emergency preparedness. FRA also assists the Department of 
Transportation's Research and Special Programs Administration (RSPA), 
which issues hazardous materials standards for all modes of 
transportation, in developing standards for rail transportation of 
those materials.
    In 1996, FRA established the Railroad Safety Advisory Committee 
(RSAC) to develop consensus recommendations on safety issues. RSAC 
contains representatives from all major groups interested in railroad 
safety, including railroads and their associations, railroad labor 
organizations, the states, suppliers, and public interest groups. The 
NTSB and representatives from Mexico and Canada are associate members 
of the committee, as are a number of groups added to ensure RSAC's 
diversity. FRA seeks RSAC's recommendations on specific tasks; on each 
task, RSAC can decide whether or not to accept it and begin work. On 
those tasks it accepts, RSAC members appoint a working group of those 
most involved with the subject covered by the task. If the working 
group's recommendations are unanimously adopted by that group and by a 
majority of the full RSAC, they are sent to the FRA Administrator. 
While FRA is free to accept or reject RSAC's recommendations, we fully 
engage ourselves in the working group process to ensure that the 
recommendations are consistent with FRA's goals for the rulemaking 
project. As a result, our proposed and final rules that arise from RSAC 
recommendations usually incorporate those recommendations 
substantially.
    This consensus approach to rulemaking has produced notable 
successes: revised track safety standards that include rules for high 
speed operations, revised communication standards reflecting 
technological advances in the field, and updated certification 
standards for locomotive engineers. More important, RSAC has helped 
engender a cooperative approach to developing new safety rules in which 
the railroad industry's major players have the opportunity to shape 
FRA's, and each other's, thinking from the start and feel more invested 
in the final product.
    FRA's recent standard-setting accomplishments include the first 
standards for passenger cars, issued in 1999, which were the product of 
a rule-specific consensus process separate from RSAC; power brake 
standards for freight service, which FRA issued in 2001 without the 
benefit of consensus recommendations after an unsuccessful attempt to 
achieve consensus; and, issued just this year, the first standards for 
locomotive cab sanitation, which are the product of the RSAC process. 
Late in 2001, we issued an interim final rule establishing a United 
States locational requirement for dispatching domestic train 
operations.
    FRA has several important regulatory projects under development. We 
are developing, through the RSAC process, standards for processor-based 
signal and train control systems (discussed more fully below), which 
will lay the foundation for integrating such systems into the existing 
rail network. We hope to have a final rule out this year. We are also 
using the RSAC process to develop revised event recorder standards to 
facilitate movement to a new generation of recorders and standards for 
the crashworthiness of locomotives. One major rulemaking on which we 
are not using the RSAC process is our final rule on the use of train 
horns at grade crossings. While very broad-based, RSAC membership is 
not sufficiently broad to include all the interests that might be 
directly affected by this rule. Instead, to address this sensitive 
subject, we held a dozen public hearings across the country and a 
technical conference and have engaged in extensive outreach with local 
communities.
    Whether or not we employ the consensus process of RSAC, in all of 
our standard-setting activities we strive to avoid unnecessary 
regulation, consider all reasonable options, and issue rules that 
embody a fitting balance between benefits and burdens, are clearly 
stated, and are enforceable. However, neither the consensus rulemaking 
process nor the more traditional process is designed for quick action. 
Rulemaking can take a very long time. My philosophy is to try to do 
fewer things better and more quickly rather than trying to write 
simultaneously every rule that might have found its way onto the 
agency's agenda. This fits with the Department's renewed emphasis on 
rulemaking timeliness, which entails enhanced methods of coordinating 
and monitoring regulatory projects and tighter control of the clearance 
process.
Encouraging Compliance and Safety Improvements
    The railroads, of course, have the responsibility for compliance 
with the standards FRA sets and to perform the necessary inspections 
and tests to ensure that they do comply. There are more than 650 
railroads in the nation operating more than 1,000,000 pieces of 
equipment over more than 200,000 miles of track. FRA's inspection force 
cannot possibly observe all railroad activity. Instead, FRA monitors 
railroads to determine their level of compliance with those standards 
and employs a variety of tools to encourage compliance. We start with 
the assumption that railroads and their employees want to do the safe 
thing for their own benefit, not just because a law or regulation 
requires it. And we also understand that the Code of Federal 
Regulations is not the sole source of wisdom on safe practices; there 
are, in fact, safety problems not covered by existing rules that 
require a solution nonetheless.
    FRA calls its approach to compliance the Safety Assurance and 
Compliance Program (SACP). The basic principles of SACP are to look for 
root causes of safety problems, try to develop solutions to those 
problems cooperatively with railroad management and employees, and 
focus both inspection activity and the use of enforcement tools on the 
most serious safety risks, as revealed by our inspections and our 
accident data. On each of the major railroads, SACP teams include FRA 
inspectors and managers, railroad officials, and employee 
representatives. The SACP teams provide a forum for resolving both 
compliance issues and safety problems not within the four corners of 
existing rules. Issues can be resolved through informal agreements or 
formal action plans. At the same time, FRA continues its normal review 
of railroad activities through regular inspections of facilities, 
vehicles, operations, and records and investigation of complaints.
    FRA's policy is one of focused inspection and enforcement. That is, 
we try to concentrate our inspection efforts on detecting conditions 
that are leading causes of accidents, injuries, and hazardous materials 
releases, and, where noncompliance is found, we try to focus our 
enforcement efforts on violations that may cause such events. Where 
routine inspections reveal minor defects that pose little risk, FRA 
will certainly address the noncompliance with the railroad but is not 
likely to take enforcement action. Where a railroad has acknowledged 
the existence of a serious safety problem, developed a plan for 
alleviating it, and implemented that plan in a timely way, FRA will 
ordinarily take no enforcement action in the absence of some immediate 
hazard. However, FRA is very likely to use its enforcement tools where 
FRA discovers serious safety violations causing an immediate and 
unacceptable risk that the railroad should have found and corrected on 
its own. FRA is also likely to take enforcement action where, even 
though there is no immediate hazard, FRA has identified serious rail 
safety problems requiring concerted action by the railroad to prevent 
an unacceptable risk from developing, and the railroad has failed to 
make a good faith effort to implement a specific remedial program to 
fix those safety problems by a date certain, despite having agreed to 
do so.
    Where enforcement appears necessary to encourage compliance, the 
tool we use will depend on the circumstances. Civil penalties are the 
most frequently used tool. In fiscal year 2001, for example, FRA 
collected over $7.6 million in penalties from railroads and hazardous 
materials shippers. Our Office of Chief Counsel, based on the 
recommendations of our field inspectors and working closely with the 
Office of Safety, assesses and collects these penalties. As the safety 
statutes encourage us to do, we settle nearly all of these cases 
through negotiations with railroads and shippers, and determine 
settlement amounts by applying the settlement criteria stated in the 
safety statutes. The settlement negotiations provide an excellent forum 
for addressing the most current and serious compliance issues that have 
not been resolved through more cooperative methods.
    FRA has several other enforcement tools. Our inspectors can issue 
special notices removing locomotives or freight cars from service until 
they are repaired, or lowering the speed of track to a speed at which 
the track segment is in compliance with the standards. We sometimes 
enter into compliance agreements with railroads in which the railroad 
promises specific remedial actions and, should it fail to deliver on 
its promise, agrees to the imposition of a compliance order, emergency 
order, or particular fines. The FRA Administrator can address an 
imminent safety hazard by issuing an emergency order, with opportunity 
for review of the order after its issuance. Civil penalties are 
available against individuals who willfully violate the safety 
regulations, and FRA may disqualify individuals from safety-sensitive 
service if their violation of safety regulations demonstrates their 
unfitness for such service. Criminal penalties apply for certain 
willful violations of the hazardous materials rules and knowing and 
willful violations of recordkeeping or reporting requirements. We have 
made increased use of these criminal penalties in recent years, 
especially for serious violations of the rules concerning proper 
documentation of hazardous materials shipments.
Accident Investigations
    Nearly a century ago, Congress gave FRA's predecessor, the 
Interstate Commerce Commission (ICC), the authority to investigate 
railroad accidents. FRA inherited that authority and continues to 
implement it. Where the NTSB decides to investigate, its investigation 
generally has priority over those of all other federal agencies, but 
does not extinguish the investigative authority of those agencies. In 
those cases, which usually involve the most serious accidents, our 
investigators work closely with NTSB and serve on NTSB's teams. As 
previously noted, FRA also investigates a broader category of accidents 
and incidents than does NTSB.
    Most or all of the recent accidents that concern this Committee are 
still under investigation by NTSB , FRA, or both. Final determinations 
of probable cause will not be issued for some time. I refer you to 
NTSB's testimony for any details of its investigations that the Board 
may be able to share at this time.
    The final, detailed reports that NTSB and FRA produce concerning 
accidents are a very important tool in identifying risks and 
determining what actions FRA may need to take to reduce those risks. 
While FRA pays very close attention to major accidents to determine 
what conditions might require immediate agency action, those accidents 
sometimes involve such unique combinations of causal factors and often 
take so long to analyze effectively that they do not offer immediate 
insights into actions that might prevent similar accidents. However, 
because FRA's role is regulatory and not just investigative, where FRA 
gleans any useful information from investigations while they are 
underway, we use it immediately to try to prevent a recurrence.
Research and Development
    FRA has an extensive research and development (R&D) program. 
Although that program resides in our Office of Railroad Development 
rather than our Office of Safety, its primary mission is to serve the 
safety program. Our R&D efforts also serve the railroad industry, 
railroad employees, and suppliers of railroad equipment. FRA owns the 
Transportation Technology Center near Pueblo, Colorado, which is 
operated under contract by a subsidiary of the Association of American 
Railroads (AAR).
    FRA's R&D program includes these elements:

  <bullet>  The Railroad System Issues element encompasses research on 
        technological and operational developments in the industry that 
        may affect safety; system safety planning; and physical and 
        cyber security in the railroad system.

  <bullet>  The Human Factors element focuses on human performance in 
        railroad operations (e.g., the effects of fatigue) and at grade 
        crossings (e.g., the interface between highway users and visual 
        and audio warnings).

  <bullet>  The Rolling Stock and Components element focuses on 
        improvement of equipment defect detection and control via 
        wayside and onboard technology and the development of advanced 
        materials.

  <bullet>  The Track and Structures element focuses on improved 
        methods of detecting hazardous conditions that can lead to 
        failure of rails or structures.

  <bullet>  The Track/Train Interaction program assesses improved 
        methods for reducing derailments due to interactions of track 
        structures and vehicles.

  <bullet>  The Train Control program involves facilitation, risk 
        analysis, testing, and evaluation of new train control systems, 
        including positive train control.

  <bullet>  The Grade Crossings program focuses on technical aspects of 
        crossings such as train presence detection, crossing geometry, 
        and warning device technology.

  <bullet>  The Hazardous Materials element addresses the design and 
        structural integrity of tank cars.

  <bullet>  The Occupant Protection element looks at the structural 
        crashworthiness of locomotives and passenger cars through 
        simulations, laboratory tests, and full scale fire and impact 
        tests.

    A theme running through virtually all of the R&D program elements 
is the use of sensors, computers, and digital communications to 
collect, process, and disseminate information to improve the safety, 
security, and operational efficiency of railroads. Along the lines of 
the Intelligent Transportation Systems being developed in the highway 
and transit industries, FRA and the railroad industry are working on 
the development of Intelligent Railroad Systems that would, in an 
integrated way, incorporate the sensor, computer, and digital 
communications technologies into train control, braking systems, grade 
crossing protection, track and equipment defect detection, and 
scheduling systems as well.
    The R&D program also includes the Next Generation High-Speed Rail 
Technology Demonstration Program, which will help develop and 
demonstrate the utility of positive train control, a high-speed non-
electric locomotive, innovative grade crossing warning systems for 
application on high-speed corridors, and innovative methods of 
constructing track and structures suitable for high-speed passenger 
operations and heavy axle load freight operations. Our R&D office is 
also implementing the Magnetic Levitation Technology Deployment 
Program.
FRA's Strategies for Accident Prevention
    FRA combines all of the elements of its safety program to address 
current problems that are likely causes of accidents, injuries, and 
hazardous materials releases. Railroad safety contains several sub-
fields, or disciplines. For each discipline, I will give some examples 
of how the safety program elements have been brought to bear on safety 
problems.
Human Factors
    Human performance, especially that of railroad employees and their 
immediate supervisors, is critically important to railroad safety. 
Human factors cause about a third of train accidents and a large 
portion of employee injuries every year. In the 1980s, FRA identified 
abuse of alcohol and drugs by operating employees as a major 
contributor to serious railroad accidents. In 1985, the agency issued 
the nation's first alcohol and drug testing requirements for private 
sector employees. At first, railroad employee organizations opposed 
those rules all the way through the Supreme Court, where the rules were 
upheld in a landmark case in 1988. The rules have proven enormously 
successful and have virtually eliminated the use of alcohol and illegal 
drugs as a cause of train accidents. Although no one likes being 
tested, many employees have praised these rules as having greatly 
improved the safety of the industry and, in some cases, the lives of 
individual employees whose substance abuse has been addressed because 
of the rules. FRA is currently exploring the subject of legal drug use 
as a factor in accident causation, having been urged to do so by NTSB.
    A more recent example of FRA's efforts to use the various elements 
of its safety program to address an area of serious safety risk is the 
Switching Operations Fatality Analysis (SOFA) Working Group. In the 
late 1990s, FRA realized that an increasing number of employee 
fatalities and serious injuries were occurring in the context of 
switching operations. FRA organized the SOFA Working Group to develop 
recommendations for preventing such casualties. Representatives of the 
AAR, the United Transportation Union, the Brotherhood of Locomotive 
Engineers, and The American Short Line and Regional Railroad 
Association analyzed 76 fatal switching incidents that occurred between 
1992 and 1998. The Working Group recommended five basic practices (the 
``SOFA lifesavers'') that, if followed invariably, would prevent such 
fatalities: notification to the engineer before fouling the track; 
extra precautions when two or more crews are working on the same track; 
a safety briefing before the work begins; proper radio communications; 
and paying special attention to crew members with less than one year of 
service. The recommendations were voluntarily adopted by railroads 
across the nation. The Working Group continues to track and report on 
switching incidents. Switching fatalities have dropped from thirteen in 
2000, to eight in 2001, to two so far this year, while both the number 
and rate of yard accidents declined 8 percent and 4.6 percent, 
respectively, in 2001. This is an example of how consensus, non-
regulatory actions can be very effective in some circumstances.
    Even more recently, FRA has taken action to address a sudden spate 
of train collisions in which human performance appears to be a primary 
contributing factor. On April 23, 2002, in Placentia, California, a 
Burlington Northern Santa Fe freight train collided with a Southern 
California Regional Rail Authority passenger train, resulting in two 
fatalities and 161 injuries. We believe the freight train passed a 
restrictive signal. In just the past two months, there have been seven 
additional train collisions. Including Placentia, four of these 
collisions involved passenger trains and resulted in two fatalities and 
258 injuries, and the other four collisions involved freight trains and 
resulted in one fatality and 21 injuries.
    While the investigations of these accidents are not yet complete, 
in each case the early indications are that human error appears to have 
been a primary causal factor. The errors included running past 
restrictive signals, failing to comply with restricted speed 
requirements, and failure to broadcast on the radio the location of the 
train. All of these behaviors violate railroad operating rules, and in 
some cases FRA safety regulations. FRA requires railroads to conduct 
periodic operational tests and inspections to determine the extent of 
their employees' compliance with these critical operating rules. These 
``efficiency tests,'' as they are widely known, entail direct 
observations of employee performance during train operations.
    On June 28, 2002, I wrote to the major railroads, commuter 
railroads, labor organizations, and trade associations to announce a 
focused effort to examine railroad efficiency testing programs. During 
the next several months, FRA and state safety inspectors will be 
working intensively with railroad officers to examine each major 
railroad's efficiency testing procedures, techniques, and results. We 
believe that improving the quality of efficiency testing programs will 
play an important role in stemming this unfavorable trend.
    Fatigue on the part of operating employees has long been an 
important safety issue. Congress first addressed the subject by 
enacting the Hours of Service Act in 1907, which limited duty tours for 
train crews to 16 hours. As a result of amendments in 1969, that 
maximum was eventually reduced to 12 hours on duty in a 24-hour period. 
Off-duty periods must be at least 8 consecutive hours or, if the 
employee works 12 consecutive hours, the off-duty period must be at 
least 10 consecutive hours. FRA does not have authority to change these 
statutory parameters. Even if these restrictions are observed, train 
crews can work an enormous number of hours in a week, month, or year. 
While commuter train crews may have some predictability in their work 
schedules, crews of road trains rarely do. The long hours, irregular 
work/rest cycles, and lack of regular days off combine to have a very 
deleterious effect on employee alertness.
    Operating employee fatigue is clearly a reality. The causal 
relationship between fatigue and particular train accidents or injuries 
has been clearly demonstrated in some instances, and fatigue is 
suspected as a causal element in many of the human factor accidents 
that comprise a large percentage of all train accidents. The NTSB has 
listed employee fatigue in all modes of transportation among its top 
ten ``Most Wanted'' recommendations. While research conducted by the 
Department of Transportation and others has demonstrated that fatigue 
impairs mental acuity, judgment, and reaction times, the cause of any 
specific human performance failure can be extremely difficult to 
pinpoint; therefore, it is often difficult to prove the exact role that 
fatigue may have played in a specific accident or what role fatigue 
plays in accident causation as a general matter.
    Even more difficult is deciding how to address fatigue effectively. 
The major railroads and leading labor organizations have entered into a 
variety of arrangements in the last several years in an attempt to 
manage fatigue. These efforts to minimize the impact of fatigue have 
been significantly enhanced by utilizing the partnerships resulting 
from the SACP and the North American Rail Alertness Partnership 
(NARAP). The latter, a voluntary coalition of rail labor, management, 
governmental entities including FRA, and other concerned parties, has 
been especially fruitful in identifying fatigue concerns and solutions. 
As the result of partnership efforts, the following measures are 
becoming the norm throughout the industry: undisturbed rest periods; 
improvements in lodging facilities, including single occupancy; on-duty 
napping policies, especially for the operating crafts; work/rest 
refinements, e.g., balancing operational requirements with appropriate 
work/rest schedules; educational measures on fatigue management that 
consider the families of employees; and screening for sleep disorders.
    In addition to facilitating NARAP's cooperative efforts, FRA has 
embarked on a vigorous program to address a multitude of fatigue-
related concerns through research on subjects that include: alertness 
of crew van drivers; measurement tools for assessing the success of 
fatigue countermeasures; individual fatigue awareness and behavioral 
change; alertness training videos; and analysis of a number of 
accidents/incidents using a software model designed to determine the 
impact of fatigue on performance.
    FRA will continue to monitor the results from these various 
cooperative arrangements and research projects on fatigue and, as the 
need arises, recommend legislative action, take relevant regulatory 
action (to the limited degree it may do so in this context), or both.
Track and Structures
    As mentioned previously, track-caused accidents have been on the 
rise in recent years, and track became the leading accident cause in 
2001. Reasons for this increase and the deterioration in track 
conditions it reveals are not certain, but may include reduced 
investment in infrastructure, reduced maintenance-of-way staffs, 
insufficient training or monitoring of railroad track inspectors, 
increased traffic, increased axle loadings, and/or higher speeds. Of 
course, conditions vary from railroad to railroad.
    FRA recently had great success in working with CSX Transportation, 
Inc. (CSX) to improve its track safety program. In 2000, FRA and state 
inspectors discovered disturbing patterns of noncompliance on CSX 
involving track gage, track inspection, and track repair. Track-caused 
accidents were on the increase. FRA and CSX entered into a unique 
compliance agreement that blended cooperative aspects with strict 
enforcement. Under the agreement, CSX promised to take specific steps 
to improve its use of track geometry vehicles, implement revised 
instructions for track inspections, develop performance standards and 
quality control teams for large scale track work, enhance management 
oversight of track inspections, and provide FRA with its capital 
improvement and maintenance programs for the next three years. CSX also 
agreed that it would pay fines without contesting them if FRA 
discovered any unacceptable track conditions posing an imminent hazard 
to train operations, and that FRA was authorized to issue a compliance 
order or emergency order that CSX would not contest if CSX failed to 
comply with the agreement. CSX took the necessary actions under the 
agreement (although it paid some uncontested fines along the way) and, 
within a year, had reduced its track-caused derailments substantially. 
FRA and CSX renewed the agreement for a second year, although, because 
of CSX's excellent performance, without certain of the original 
agreement's harsher enforcement provisions. The agreement expired on 
May 1st of this year, and the second year's results were also 
impressive: the number of track-caused derailments on CSX in 2001 was 
25 percent lower than the number for 2000. The compliance agreement, 
coupled with CSX's commitment, brought about significant safety 
improvement.
    The trend on track-caused accidents, however, is national in scope. 
To help address the problem FRA has sought and obtained 12 additional 
track inspector positions in fiscal year 2002, and the President's 
budget for fiscal year 2003 contains a request for an additional 12 
positions.
    In addition to augmenting its track resources, FRA has brought a 
fresh perspective to enforcement in the track area. In January 2002, 
FRA issued a new track enforcement manual in that makes focused 
enforcement a reality. The manual provides guidance on how to focus 
inspections on the leading causes of train accidents and strongly 
recommends taking enforcement action when certain very serious 
violations are found. FRA is making use of its new resources and more 
focused enforcement policy to address the track compliance problem. We 
will blend cooperative measures and tough enforcement to get the job 
done, as we did with CSX in recent years. For those who may be less 
willing than CSX was to meet the challenge head on, we will use 
whatever level of inducement is necessary to ensure improved compliance 
and safety results.
    America's more than 100,000 railroad bridges are generally quite 
old but in most cases structurally sound. Many of the large bridges 
were designed to carry the heavy steam locomotives of their time and 
have a reserve capacity to safely carry today's railroad traffic. 
However, present-day car weights are approaching the design capacity of 
these bridges, and because of increasing traffic density on main 
routes, some of these bridges require increasingly intensive 
inspections and higher maintenance expenditures if they are to remain 
serviceable. Some shortline railroads lack sufficient capital to 
upgrade smaller bridges to handle the increasing weights of the latest 
generation of freight cars. FRA has had to issue two emergency orders 
against small railroads removing bridges from service when their owners 
failed to properly evaluate and repair conditions that posed a risk of 
catastrophic failure. In 2001, FRA entered into a successful compliance 
agreement with a regional railroad in which the railroad agreed to 
evaluate and repair its bridges in an orderly way as an alternative to 
emergency action by FRA.
    Serious bridge safety problems have occurred infrequently, and FRA 
has been able to resolve them on a case-by-case basis without issuing 
mandatory regulations. Such rules would be very complex and could cause 
unnecessary expenses by requiring railroads to adapt their successful 
but varied bridge management practices to a common Federal standard. In 
2000, rather than issuing binding rules, FRA issued a bridge safety 
policy that establishes suggested guidelines for bridge inspection and 
management. The policy (49 C.F.R. Part 213, Appendix C) makes clear 
that, if a bridge owner jeopardizes public and employee safety by 
failing to resolve a bridge problem, FRA will use any appropriate 
enforcement tool, including an emergency order, to bring about 
elimination of the hazardous bridge conditions.
Hazardous Materials
    The safety of hazardous materials transportation by rail depends to 
a large degree on safe track, equipment, and operating practices to 
ensure that the hazardous materials container is not involved in a 
train accident. The hazardous materials discipline, on the other hand, 
focuses on the integrity of the containers that hold the hazardous 
materials, the proper identification and marking of those containers, 
the use of appropriate shipping documents identifying the hazards 
presented by the material, the proper handling of the vehicles that 
contain these materials, and training of all who play a role in the 
preparation of these shipments and their movement. Within the 
Department, RSPA provides excellent leadership on these matters, which 
cut across the different modes of transportation.
    Railroads have an outstanding record in moving hazardous materials 
safely. Releases of those materials as a result of train accidents are 
down sharply from earlier years. However, releases from stationary tank 
cars in rail yards or chemical facilities are a continuing problem. The 
primary cause of these releases is improper securement of the cars by 
the shipper. Much of FRA's enforcement efforts in this area are against 
shippers who commit these securement violations or improperly describe 
the shipments, which impedes appropriate handling and emergency 
response. Some of our investigations have led to criminal charges being 
brought against companies that prepare shipping papers for other 
companies and do so improperly.
    Our hazardous materials staff closely tracks reports of hazardous 
materials releases or problems with the integrity of railroad tank 
cars. This has enabled FRA to stay ahead of emerging problems before 
they lead to tragic results. For example, we have on several occasions 
discovered patterns of cracks, deterioration, and even structural 
failure in particular portions of the tank car fleet. After thorough 
analysis of the problem, we have brought pressure to bear to ensure 
that all cars of the type shown to exhibit the problem are promptly 
inspected and, if necessary, repaired. We have done this through 
emergency orders and, more recently, through use of a new regulatory 
provision that permits FRA to require special inspections of tank cars 
in these situations. We believe these actions, which draw little public 
attention, have prevented a number of significant releases of hazardous 
materials.
    FRA has also taken a proactive approach to the transportation of 
spent nuclear fuel and high-level radioactive waste. Our Safety 
Compliance Oversight Plan for transportation of those materials 
involves participation in route planning, ensuring proper training of 
railroad employees and emergency responders, and more intensive 
inspection of routes, equipment, and operations involved in those 
shipments.
Motive Power and Equipment
    Congress began regulating railroad equipment by enacting the first 
Safety Appliance Act in 1893 and the Boiler Inspection Act in 1911. FRA 
has established standards for safety appliances (features of rail cars 
intended to prevent injury of the employees who work on and around 
them), power brakes, locomotives, and freight car components. We are 
currently implementing the first standards for passenger equipment, and 
revised standards on power brakes and their inspection. We are drafting 
standards for the crashworthiness of locomotives.
    While equipment-caused accidents have trended slightly upward in 
recent years, they still account for a relatively small portion (18 
percent) of all accidents. However, certain equipment failures can lead 
to devastating accidents, especially at higher speeds, and poorly 
maintained equipment can cause serious employee injuries. Accordingly, 
FRA inspectors carefully monitor railroad compliance with the equipment 
standards and employ civil penalties and special notices for repair as 
ways of encouraging compliance on serious matters. FRA's R&D efforts 
may play a very important role in developing improved methods of 
detecting equipment defects before they cause accidents.
    As this decade unfolds, FRA hopes to find ways of encouraging the 
railroads to use electronically controlled pneumatic (ECP) braking. The 
AAR has been at the forefront in developing this technology and making 
sure it is mature. Now railroads need to take advantage of ECP train 
braking, which can reduce stopping distances and in-train forces, 
making it much easier for locomotive engineers to safety handle heavy 
tonnage trains and consists containing cars of various sizes and 
weights.
Signal and Train Control
    Recent collisions, including the fatal collision of April 23rd 
between a Burlington Northern Santa Fe freight train and a Metrolink 
commuter train at Placentia, California, remind us that current methods 
of train operation rely too heavily on crew recognition of, and 
compliance with, signal indications (or with mandatory directives in 
written form). FRA is supporting deployment of advanced signal and 
train control technology to improve the safety, security, and 
efficiency of freight, intercity passenger, and commuter rail service. 
These new systems will use various technologies to determine the 
precise location of trains and automatically control their movements 
when necessary to prevent a collision. This developing family of 
technologies, which we have referred to as Positive Train Control 
(PTC), is capable of preventing train collisions, overspeed 
derailments, and casualties to roadway workers (e.g., maintenance-of-
way workers, bridge workers, signal maintainers) operating within their 
limits of authority and can meet mandatory requirements for train 
control systems on developing high speed corridors wherever train 
speeds will exceed 79 mph. This technology has the potential capability 
to limit the consequences of events such as hijackings and runaways 
that are of special concern in an era of heightened security. Looking 
well out into the future, PTC will integrate a wide array of hazard 
sensors to protect train movements and will provide the platform for 
more cost effective warning of motorists at highway-rail crossings as a 
part of Intelligent Transportation Systems (starting with priority 
vehicles such as school buses and tractor trailers carrying hazardous 
materials).
    Communications-based PTC will be more affordable than signal-based 
systems such as automatic train control (ATC) and will address a wider 
range of safety needs. FRA is promoting PTC by describing the necessary 
conditions for its introduction, putting in place more flexible 
regulations, investing expertise and funding in development and 
demonstrations of the technology, and requiring the use of technology 
addressing PTC functions where it is clearly warranted to do so.
    Describing the necessary conditions. FRA's RSAC provided a Report 
to the Administrator on Implementation of Positive Train Control 
Systems in September of 1999. The report resulted from extensive effort 
by a working group comprised of representatives of railroads, rail 
labor organizations, states, and suppliers. One major result of the 
activity is increased understanding by all parties of the complexities 
of designing, installing, operating, and maintaining the proposed 
systems. FRA transmitted this report to the Congress on May 17, 2000, 
and it is available on our Web site at www.fra.dot.gov (under 
``Documents'' for the year 2000). The report describes the safety and 
business uses of PTC systems and a variety of potential PTC 
architectures. The report documents the fact that risk is widely 
dispersed on the national rail system and that it will be necessary to 
implement PTC on a large scale in order to address the reality of 
locomotives which often move throughout the national rail network. The 
working group carefully studied the record of ``PTC-preventable'' 
accidents and developed cost estimates for various levels of PTC. The 
ultimate conclusion was that, based on safety benefits alone, PTC 
cannot be justified on a large scale. However, the RSAC remained 
optimistic that, as the technology is proven, unit costs decline, and 
the business benefits of the technology become better evident (e.g., as 
limitations on rail capacity make it more important to precisely 
monitor and control rail traffic), passenger and freight railroads will 
find it attractive to make the necessary investments.
    In anticipation of these developments, the RSAC described several 
things that industry and government need to do to support the growth of 
this life-saving technology. The major actions and the status of those 
activities follow.
    Providing safety standards that fit the need. The RSAC recognized 
that existing signal and train control regulations (49 C.F.R. Part 236) 
were built around older technology and present potential obstacles to 
change. As a result, on August 10, 2001, FRA published a notice of 
proposed rulemaking on Performance Standards for Processor-Based Signal 
and Train Control Systems that was the consensus product of the RSAC. 
The RSAC Working Group has met to consider recommendations for 
finalizing the rule. Consultations among members are continuing to 
resolve a significant remaining issue, and the Working Group is also 
helping to develop a risk assessment toolset that can be used to make 
the necessary safety case for new systems under the rule.
    Developing and deploying technology. The RSAC also recognized that 
public and industry investment was necessary to ``jump start'' PTC 
deployment by advancing the design process and by providing evidence 
that the technologies will be reliable as installed. Since advanced 
train control systems are mandatory where speeds above 79 mph are 
proposed, developing and demonstrating practical, affordable train 
control technology have been major program elements of FRA's Next 
Generation High Speed Rail technology development program.
    In 1995, FRA joined with Amtrak and the State of Michigan to 
install an Incremental Train Control System (ITCS) on Amtrak's Michigan 
line to support proposed higher passenger operating speeds on the 
Detroit-to-Chicago corridor. This project includes high-speed grade 
crossing signal pre-starts and integration of remote health monitoring 
for crossing signals (so that the train is slowed if proper warning 
will not be provided). On April 18, 2001, Amtrak turned on ITCS for 
revenue service, and an increase in train speeds to 90 mph was 
authorized by FRA in January 2002. The system is designed to support 
operations to 110 mph.
    On January 23, 1998, as the RSAC was engaged in its initial work, 
FRA joined with the AAR and the State of Illinois to begin development 
of a high-speed PTC project for the St. Louis-Chicago corridor. The 
project has now been integrated into the North American Joint PTC 
Program. AAR is contributing $20 million and providing project 
management. The Illinois Department of Transportation is providing over 
$12 million, and FRA is providing over $28 million as part of the Next 
Generation High Speed Rail Program (NGHSR). With funds in the FY 2002 
appropriation, the $60 million project total estimate is now fully 
funded. Lockheed Martin, the System Development/Integration contractor, 
and program participants are finalizing software and beginning 
installation of hardware. The system is expected to be ready for 
revenue service by mid-2003. FRA is working with the project team 
regarding necessary safety approvals. The North American PTC Program is 
also the venue for the industry's development of standards for PTC 
interoperability (further discussed below).
    Utilizing funds provided specifically for this purpose, FRA is also 
working with the Alaska Railroad to identify a migration path to PTC on 
their current rail lines, which are currently operated without the 
benefit of signal systems.
    Conceiving standards for interoperability. The RSAC also recognized 
that, were the various railroads to ``go their own way'' in designing 
PTC systems, the result would be either excessive cost (as various 
train control devices were placed on many locomotives) or limited 
functionality (with trains from one railroad running ``unequipped'' on 
other railroads). This has always been a matter of concern for Amtrak 
and commuter authorities that operate on the lines of multiple 
railroads, but is of increasing concern today because of the freight 
railroads sharing of locomotives and the extensive networks of trackage 
and haulage rights conferred in connection with recent rail mergers in 
order to preserve competition. Accordingly, the North American Joint 
PTC Program has been selected as the venue for the industry's 
development of standards for PTC interoperability. Interoperability 
refers to the ability of a train to move from one railroad to another 
(or from one type of train control system to another) at track speed 
while under continuous supervision of the train control systems. The 
North American Joint PTC Program has not completed the desired 
standards for interoperability, but work is underway including 
agreement on a flexible, modular approach to meet the needs of diverse 
railroad operations and establishment of a master database to 
standardize the messages transmitted by various PTC systems. Two 
industry task forces with participation from railroads, suppliers, and 
FRA are working to standardize the application of electronic devices 
aboard locomotives and the use of wireless communications by railroads, 
both critical to the ultimate success of PTC systems.
    Ensuring adequate radio frequency (RF) capacity. The RSAC 
recognized that RF data link technology would be the critical 
communications medium within PTC, particularly to connect trains with 
the wayside infrastructure and the central office. All across the 
national economy, greater and greater demands are being made on the 
inherently limited RF spectrum. During the late 1990s, the Federal 
Communications Commission conducted proceedings for ``refarming'' of 
assigned frequencies; and FRA supported rail industry requests to 
retain existing frequencies available for railroad voice and data 
communication free of interference from adjacent channels (with 
splitting of existing railroad channels to make better use of the 
assigned frequencies). These efforts were successful, and the industry 
and FRA continue to study whether existing RF capacity will be fully 
adequate for PTC and related safety and business requirements. In 
partnership with the industry Wireless Communications Task Force, FRA 
is sponsoring the establishment of a radio communications testbed at 
the Transportation Technology Center in Pueblo, Colorado, to provide a 
means for objective, repeatable testing of the critical communications 
links which will be essential for widespread deployment of PTC systems 
as well as other railroad operations.
    Providing precise and secure positioning. The RSAC also recognized 
the importance of providing, as a public utility, a nationwide 
positioning service sufficiently precise to support PTC. In order to 
meet this need and other surface transportation requirements, FRA 
became the Federal program sponsor of the Nationwide Differential GPS 
(NDGPS) Program. This augmentation to the Global Positioning System 
(which uses a constellation of satellites to broadcast positioning 
information for military and civilian purposes) provides more precise 
positioning and continuous integrity monitoring in support of safety-
of-life applications for surface transportation and other purposes. 
NDGPS effectively addresses limitations associated with uncorrected GPS 
signals and provides one-to-two-meter positioning accuracy. NDGPS is an 
expansion of the U.S. Coast Guard's Maritime DGPS network and makes use 
of decommissioned U.S. Air Force Ground Wave Emergency Network (GWEN) 
sites to calculate and broadcast the differential correction signals. 
NDGPS is now operational with single-station coverage on about 85 
percent of the land area of the U.S. To ensure continuity, accuracy, 
and reliability, NDGPS is managed and monitored 24 hours a day, seven 
days a week from the Coast Guard's Master Control Stations at 
Alexandria, Virginia, and Petaluma, California. NDGPS signals are 
available to any user who acquires the proper receiver.
    Requiring PTC where justified. FRA has authority under the former 
Signal Inspection Act (now codified at 49 U.S.C. 20501-20505) to 
require installation of a signal or train control system where that is 
necessary in the public interest. This authority has been used by FRA 
and its predecessor agency (the ICC) to address specific needs 
primarily related to the safety of rail passenger service. In 1998, as 
a part of the preparations for enhanced service on the Northeast 
Corridor (NEC), FRA ordered Amtrak to implement the Advanced Civil 
Speed Enforcement System (ACSES) on the NEC between Boston and New 
Haven and in high-speed territory south of New York City. ACSES, which 
was implemented beginning in October of 2000, supplements the existing 
cab signal/automatic train control system on the NEC, providing full 
PTC functionality in support of operations up to150 mph. In late 2001, 
New Jersey Transit (NJT) began progressive implementation of an ACSES-
compatible system on its property by activating the system on an 
initial line segment.
    ACSES and the NJT system are primarily overlays on traditional 
signal and train control technology, filling gaps that the older 
technologies cannot address. For instance, existing ATC systems cannot 
enforce a stop at a signal (although they can ensure that the train 
slows to 20 mph approaching the signal). Nor can ATC enforce permanent 
and temporary speed restrictions along the railroad related to curves, 
stations, bridges, and slow orders placed where track work is underway. 
ACSES and NJT's compatible system address these needs using a train 
location system that consists of a transponder and on-board transponder 
interrogator and computer. While this approach does not appear to be 
preferred for cost and maintenance reasons outside the NEC, it is well 
suited to support high density passenger and freight operations within 
that territory, given the existing signal and train control 
infrastructure and the predominance of traffic that is limited to the 
NEC and immediately associated lines.
    In summary, a wide range of actions are being taken to deploy PTC, 
but much remains to be done. Although I am heartened that several 
freight railroads are exploring additional PTC technologies beyond 
those I have described in this statement, I am concerned that the 
industry's commitment to interoperability of systems has not yet 
yielded comprehensive industry standards. Further, much of the 
electronic hardware now being deployed on locomotives for various 
purposes is not known to be forward-compatible with PTC--another 
objective recognized by the RSAC. I am troubled that the four major 
freight railroads are often unable to agree among themselves on 
relevant issues within industry councils, and I am also concerned that 
the fragility of Amtrak as a leader in the passenger field may inhibit 
its ability to progress technology. The reluctance of major suppliers 
to commit capital to system development, given the history of advanced 
train control systems, is a further cause for concern.
    Advanced train control providing PTC safety features was supposed 
to be the legacy of the 1990s, and so the future is overdue. We will 
continue to prepare the way for PTC deployment, chastened by the hard 
realities but also convinced that this technology will be essential for 
safety, security, and the economic and environmental health of the 
Nation as we progress through this first decade of the new millennium.
Grade Crossing and Trespasser Safety
    Grade crossing and trespasser incidents account for about 95 
percent of all deaths related to train operations. Yet FRA's regulatory 
and enforcement authorities are of limited value in addressing these 
two areas. Significant improvements on these subjects are more likely 
to result from effective and intensive educational efforts directed at 
potential victims of these kinds of incidents, aggressive enforcement 
of state and local laws concerning motorist responsibilities at 
crossings and access to railroad property, funding for physical 
improvements that reduce the likelihood of mishaps, and productive 
research on technological solutions and behavioral factors.
    Substantial improvement of the grade crossing picture has occurred 
through just these sorts of methods. Grade crossing deaths were down 40 
percent in 2001 from their level in 1990, even though exposure has 
risen due to increased highway and rail traffic. Operation Lifesaver, 
Inc., and similar educational initiatives have spread the message to 
motorists that ignoring grade crossing warning devices, whether passive 
or active, is flirting with disaster. FRA field forces, especially our 
Regional Grade Crossing Safety and Trespasser Prevention Managers and 
Assistant Managers, are actively engaged in these efforts in 
communities across the nation. We have worked with Operation Lifesaver 
on a variety of public service announcement campaigns designed to raise 
awareness. One example is the Albertsons/FritoLay Rail Safety Contest 
that brought our safety message to 138 Albertsons Food Stores in the 
Pacific Northwest, including an announcement in the stores' weekly 
circulars that reach 3.3 million people. We have also persuaded the 
entertainment media and advertisers to withdraw commercials or other 
portrayals of unsafe behavior around railroad tracks. FRA has long 
partnered with state and local law enforcement authorities to encourage 
their aggressive enforcement of highway laws related to crossings. We 
have three part-time regional law enforcement officers to promote our 
National Law Enforcement Liaison program, now in its third year. FRA 
worked with Operation Lifesaver in the production of a video aimed 
specifically at patrol officers and with state law enforcement training 
officials to develop a course on crossing safety and trespass issues. 
FHWA has been a partner of FRA and Operation Lifesaver in many of 
these efforts.
    Partnering with FMCSA, Operation Lifesaver, and trucking 
associations, FRA has made concerted efforts to educate the drivers of 
commercial vehicles on the importance of highway-rail grade crossing 
safety. FRA was instrumental in having Operation Lifesaver instruction 
included in the new driver training curriculum for Swift Trucking 
Company, one of the largest in the nation. This program will reach 
approximately 15,000 drivers each year.
    Relying primarily on Section 130 funding made available by FHWA, 
most states have gradually upgraded crossing warning devices, 
especially at the state's most dangerous crossings. Since its inception 
in 1975, FHWA estimates the section 130 program has been responsible 
for the construction of 30,000 active crossing warning devices that 
helped prevent more than 10,000 deaths and over 50,000 injuries. Of 
course, scores of thousands of crossings still have only passive 
warning devices, and collisions continue to occur at crossings with 
fully operational active warning devices where motorists disregard the 
warnings. Supplementary safety measures (e.g., traffic channelization 
devices or four-quadrant gate systems) that would prevent such behavior 
have generally not been installed. We work extensively with railroads 
and local communities to identify crossings suitable for closure 
because they are either redundant or no longer needed and to plan 
crossing improvements on a corridor basis rather than looking at each 
crossing in isolation.
    FRA's regulatory authority can play some role. Our rule on 
maintenance, inspection, and testing of active warning devices (49 
C.F.R. Part 234) helps ensure that those devices are fully operational 
and that railroads take proper precautions when the devices 
malfunction. We are working on a final rule on the use of train horns 
at crossings, attempting to achieve a risk-based balance between the 
need for the warning that the train horn provides (which protects 
drivers and train occupants) and the need for reasonable restrictions 
on train horn noise for the sake of residents near crossings. We are 
also working on a rule that would require a phased-in implementation of 
retroreflective markings on rail cars, which would help provide 
additional warning to motorists at night.
    Making safety gains in the trespasser area presents great 
challenges. Despite the daily work of very aggressive railroad police 
forces, the railroad system is simply too vast to prevent trespassing 
along its entire length. While detection systems can be designed to 
detect actions by trespassers with evil intentions, the people who are 
dying rarely are tampering with railroad equipment and structures. 
Instead, trespassers are often on railroad property because it is 
convenient as a route to their home, employment, or recreational 
destination or, sadly, in some cases, because they intend to take their 
own lives. To target the people most likely to trespass, we are 
conducting a pilot project to develop demographic information on 
railroad trespassers based on railroad police reports. We can use this 
information to design audience-specific educational campaigns and 
enforcement.
    FRA is funding a demonstration project in Pittsford, New York, that 
uses video cameras and motion sensors to detect trespassers on a 
railroad bridge. A verbal warning is issued to the trespassers, and the 
railroad and local law enforcement agency are notified as necessary. 
This installation has already proved effective when two teenagers were 
warned to get off the bridge and a train arrived one minute later. FRA 
is also working with Operation Lifesaver, Transport Canada, and 
Direction 2006 (Canada's crossing safety and trespass prevention 
coalition) to provide a simple, easy-to-use, problem solving 
methodology to enable communities to effectively address trespassing 
issues.
Railroad Security
    Security is a critical part of railroad safety. The events of 
September 11 focused FRA's attention on the need to address whatever 
security vulnerabilities may exist in the railroad system. Under AAR 
leadership, the rail industry has conducted its own assessment of those 
risks. FRA has retained a contractor to review AAR's work, which will 
help us to decide what action FRA may need to take in this area. We 
would, of course, coordinate any such action with the Transportation 
Security Administration (TSA), the new administration within the 
Department that has overall responsibility for transportation security 
among all modes of transportation, including rail and transit lines, 
and with the Department of Homeland Security, once it is established. 
Meanwhile, the increased awareness of security issues will cause us to 
bring such issues into sharper focus in our rulemaking projects. For 
example, threats to security that might prevent the proper functioning 
of a PTC system will need to be considered.
    Furthermore, FRA is working in partnership with the FTA to assess 
the security of commuter railroads. FRA and FTA are jointly funding 
security risk assessments on the ten largest commuter railroad systems. 
FRA is also funding a similar security risk assessment for Amtrak. 
These security risk assessments are intend to identify potential 
security risks and appropriate security enhancements to mitigate those 
risks. We will also coordinate these efforts with TSA.
The Administration's Rail Safety Reauthorization Proposal
    The Secretary has just recently transmitted to Congress the 
Administration's proposal for reauthorization of the railroad safety 
program. Authorization for the program expired at the end of fiscal 
year 1998. Our proposed legislation would reauthorize this important 
safety mission for four years. The bill proposes other measures that 
would significantly advance railroad safety, primarily by enhancing the 
Secretary's authority to gather information that will help to assess 
and reduce or offset hazards at highway-rail crossings. The bill would 
also underscore the Secretary of Transportation's duty, when issuing 
rail safety regulations or orders that affect the security of railroad 
operations, to consult the Secretary of the department having 
responsibility for transportation security under the Aviation and 
Transportation Security Act if those responsibilities are transferred 
outside of the Department of Transportation.
    The bill seeks to prevent highway-rail grade crossing collisions, 
which, as discussed above, cause about half of all rail-related deaths 
each year. The bill proposes a measure that would improve the 
Department's National Crossing Inventory (Inventory), a large 
computerized database containing vital safety information on the 
identification, location, physical characteristics, and other salient 
features of at-grade and grade-separated highway-rail crossings 
nationwide. The Department, as custodian of the Inventory, acts as a 
clearing house by combining the data supplied by both railroads and 
states into a uniform database. Many states rely upon this Inventory in 
making decisions about which crossings need better warning systems. As 
the only nationwide database that contains the characteristics of 
crossings, the Inventory is used extensively by the Department, states, 
railroads, and researchers for crossing safety studies. Currently, 
reporting to the Inventory by both states and railroads is voluntary; 
some information is missing, and some is very outdated. The bill would 
require that railroads and states make initial reports to the Inventory 
about new and previously unreported crossings and provide periodic 
updates for all crossings, so that the crossings can be accurately 
ranked according to risk. These improved rankings will assist states in 
identifying which of the crossings are the most hazardous and in 
channeling Federal safety improvement funds to the most hazardous 
crossings first.
    Other highlights of the bill include provisions that would make 
other necessary enhancements to FRA's delegated inspection and 
rulemaking authority. For example, one section would permit FRA 
inspectors to monitor a railroad's radio communications outside the 
presence of the railroad's personnel for accident investigation and 
accident prevention purposes, and to use the information received for 
such purposes except for release to a railroad carrier or as direct 
evidence of railroad safety violations. Another section would allow 
FRA, with the concurrence of the Administrator of the Environmental 
Protection Agency, to regulate noise emissions from the right of way 
due to the passage of a high-speed train at more than 150 miles per 
hour.
    Enactment of the Administration's proposed bill would support FRA's 
efforts to address security threats to railroad operations, to reduce 
collisions at highway-rail crossings, and generally to reduce 
casualties and damages associated with railroad operations.
Conclusion
    The recent railroad accidents of concern to the Committee must be 
fully examined for any lessons they can teach about future accident 
prevention. However, those accidents are not an indication of 
fundamental safety deficiencies in the railroad industry. While certain 
problem areas require concerted attention, the overall industry safety 
record is generally very positive, and FRA and its many safety partners 
work daily to make it more so.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Breaux. Thank you, Mr. Rutter, and thank you for 
testifying, and Ms. Blakey, thank you for testifying.
    Either one, on this first question. Ms. Blakey, you pointed 
out that there had been a number of recommendations, 50 or so 
open NTSB recommendations that are related to rail safety, 
significant ones, have not been implemented. I note in the 
proposed safety reauthorization bill the administration has 
presented, Mr. Rutter, that two of the issues that a number of 
people think are very important, and Ms. Blakey certainly 
referred to one with regard to the positive train control 
system, the PTC, and the issue of fatigue, that neither one of 
those seems to be, in my glancing at the reauthorization bill, 
even mentioned in the reauthorization bill.
    The positive train control technology has been around since 
the 1990's, and yet you have a proposed reauthorization safety 
bill that doesn't even talk about it. How long do we have to 
wait until technology that is already out there is going to be 
incorporated in recommendations regarding safety? Ms. Blakey 
says that it is probably the most important single thing that 
can be done related to head-on collisions between trains, and 
yet the reauthorization safety bill does not even mention it.
    Mr. Rutter. Well, those are two issues, and I will discuss 
them separately. First, with regard to positive train control, 
without mentioning that in the reauthorization bill that we 
have before us, we have been making and continue to make 
investments and progress in putting systems in place that can 
actually work and achieve the promise that I think the NTSB 
believes those systems can achieve.
    Senator Breaux. What does that mean? Ms. Blakey said there 
is no industry plans for positive train control systems at all, 
and the administration does not call for it in your 
legislation. You are giving me an answer that does not seem to 
be reflective of the real world.
    Mr. Rutter. Well, the real world is, we have invested 
significant amounts of money, and are investing right now, in 
working pilot projects to demonstrate how these systems can 
work in practical real world applications, specifically, 
Illinois. We, the State of Illinois, the Association of 
American Railroads, and Amtrak have all invested in excess of 
$60 million to put together an advanced positive train control 
system on a segment of the Union Pacific rail line between 
Chicago and St. Louis that will demonstrate how positive train 
control systems can actually work and will find out ways of 
making sure we can develop interoperability standards so that 
we can come up with overall architectures, so the different 
systems can be provided by suppliers to make these systems work 
for different carriers.
    Senator Breaux. The point I am making is that I perceive 
that it sounds like you are in a testing mode. How long has the 
positive train control system been on the recommendation list 
of the NTSB, how many years? Since 1990.
    Ms. Blakey. 12 years now.
    Senator Breaux. 12 years, and yet I get from you that you 
have started looking at it and testing it, and they have been 
recommending it for 12 years, and yet your bill does not even 
mention the word.
    Mr. Rutter. Well, that is in large part because we are in 
the process of making sure that these systems can actually 
work. While there are different elements of technology that 
make positive train control possible, integrating all of these 
technologies into a practical working system is essential. 
There is not an off-the-shelf system that can deliver the 
entire gamut of positive train control solutions. That is what 
we are trying to put in place so that we can, by making those 
happen, demonstrate the lessons that can be learned and then 
applied toward wider spread distribution of those systems 
throughout the industry.
    Senator Breaux. Well, my own thought is that you are way 
too late on the recommendations. Ms. Blakey says it has been 
around for 12 years, and there is not even a recommendation in 
the authorization bill that addresses this.
    The only other point I would make is that in my reading of 
the reauthorization bill, the NTSB has been recommending we 
address fatigue more seriously. There is an example of fatigue 
right there.
    I do not see anything in the reauthorization bill that 
specifically tries to address the question of fatigue among 
railroad engineers, and why is that not there?
    Mr. Rutter. Well, that was a conscious decision. Previous 
approaches or attempts to get a rail safety reauthorization 
bill that had been made by the administration in prior years, 
two years, both 1998 and 1999, involved a fatigue management 
plan and program. The whole issue of hours of service and 
fatigue management gets to the heart of what it is to work. How 
often do you show up, how often are you scheduled, how long may 
you work, how often may you go to work?
    Because those questions are that fundamental, there has 
been an inability for both rail labor and management to agree 
on what the best solution is, and therefore all previous rail 
safety initiatives have bogged down on those issues. It was our 
intention to try to get a reauthorization of our basic rail 
safety program, which has been in place since the agency 
existed in 1970. In the interest of getting the basic structure 
of our rail safety program implemented, we had wanted to get 
something that would not be associated with that kind of 
controversy.
    That being said, we continue to push for fatigue management 
plans throughout the industry, and are very encouraged by work/
rest agreements that have been entered into through the 
collective bargaining process by both rail labor, both 
specifically UTU and BLE, and rail management. Unfortunately, 
though, while both the supervisors and managers of both rail 
labor and management have agreed to that, actually putting 
those agreements in place at the local level has proven more 
troublesome, or more problematic.
    We continue to push toward those voluntary collective 
bargaining agreements that will reach better scheduling, more 
regular scheduling, and get to the point where fatigue 
management plans, more than just regulation of hours of 
service, are an integral part of both how employees go and do 
their jobs and how rail management supervises those jobs.
    Senator Breaux. I appreciate that, and my time is up, but 
it seems to me that what you are basically saying is because it 
is controversial we did not want to touch it. It is not in the 
bill as a result of that, and the two biggest recommendations, 
something on fatigue and on positive train control, neither one 
of those important issues are touched in the reauthorization 
recommendations on safety. I find that very deficient.
    Senator Hollings.
    The Chairman. Thank you, Mr. Chairman.
    With respect to the airport and airways improvement fund, 
providing some $14 billion, we are still shy $1.1 billion in 
this fiscal year that had to come from general revenues, so 
with respect to subsidy, let us say we subsidize the airlines 
$1.1 billion in this regard, whereas we only appropriated some 
$521 million to the rails, so that is double the amount of 
subsidy there. Otherwise the $15 billion was all emergency, 
without any fees.
    So I make the point again and again that we have this 
penny-ante nit picking auditing, making requirements and 
knowing that the predictions are not going to work. There is no 
fortune teller necessary to realize it is not going to work. It 
has been a disaster for 30 years, specifically when you say, 
Ms. Blakey you said safety recommendations that were not 
implemented. Can you flesh that out for the Committee? Some of 
them you say for a decade have been made, safety 
recommendations for a decade, and still yet to be implemented. 
Tell the Committee. Give us a general picture.
    Ms. Blakey. When you have over 40 recommendations open to 
the Federal Railroad Administration, and many of these are also 
open to the railroads as well, there is a complex group out 
there. Just to give you the broad picture, positive train 
control, as I say, is the most important one, because it very 
much speaks to Chairman Breaux's point about fatigue, and also 
about human error.
    No matter what we do in this system, people are going to 
make mistakes, and if we have positive train control out there 
we have a technology that prevents those collisions, and it is 
critical, and that has been open for 12 years.
    We also have a number of open recommendations on the issue 
of fatigue across all modes of transportation. We do understand 
the progress that is being made in terms of fatigue management 
plans. We really do get that this is a complex labor management 
issue. At the same time, the hours of service regulations are 
antiquated. They do need to be governed by a more 
scientifically based approach, and those regulations do need to 
be revised.
    Finally, I would simply mention track-related issues, 
because there are a number of issues that go to the way the 
railroads are managing their track, issues such as plugs, for 
example. When you put in a temporary plug to repair a track, 
that needs to be monitored closely and replaced with permanent 
track quickly. We have had accidents that could have been 
prevented if they had been on top of this, and certainly on top 
of inspections, particularly on those routes that are carrying 
high passenger traffic and that are carrying hazardous 
materials. We think those deserve a greater degree of 
inspection and oversight.
    So that gives you some idea of the issues that we see out 
there at this point.
    The Chairman. Well, on the track-related accidents, or the 
plugs you talk of, it comes to mind that there are some 22,000 
miles of track, and the Federal only has about 750 of that, the 
freight rails own and control, some 21,000. Are we on top of 
that? Who is responsible? Is Amtrak responsible for that track, 
generally speaking, or is the freight companies? When the plug 
is not administered properly and safeguarded, who do you go 
after?
    Ms. Blakey. In those cases, that track is owned by the 
freight railroads, and they are the ones responsible for it, 
with oversight from the Federal Railroad Administration.
    The Chairman. How is that happening? You say most of them 
are track-related accidents. It seems like we have got to have 
a better system for getting on those freight railroads. Would 
you not agree?
    Ms. Blakey. I would agree that certainly there needs to be 
a greater degree of attention paid to the track problems we 
have across the country. A lot of that is with the freight 
railroads. I think we also need to have a high degree of 
scrutiny from Federal inspectors, particularly in those areas 
where, we have got the greatest risk.
    The Chairman. What about the terminals themselves like Penn 
Central? Everybody is talking about the two that we 
unfortunately lost at the air counter out there in Los Angeles. 
It happened in the last several months, twice into Penn Central 
a terrorist could have gotten way more walking into Penn 
Central and wandering into the air terminal. They are talking 
about putting them out on the sidewalk and all.
    What about the terminals? Do you figure your folks are 
responsible for terminal safety as well as track safety?
    Ms. Blakey. The embarkation and de-embarkation points are 
critical, and some of our recommendations do go to issues of 
the stations and how that is handled from time to time. We do 
not have any current recommendations that are speaking to Penn 
Central particularly.
    The Chairman. Who would have some recommendations? Who is 
in charge? Let us assume the counter at the Penn Central 
Station, two people are shot there instead of out at the 
airline terminal, then who would I come to and fix the 
responsibility for safety violations, if there were any?
    Ms. Blakey. The new Transportation Security Administration 
has oversight from a security standpoint for the rail area, as 
well as all of the other areas of transportation.
    The Chairman. You do not?
    Ms. Blakey. We do not. We really look at safety as a pure 
issue, and when it gets to security, if there is criminal 
intent involved it is usually the FBI working with the 
Transportation Security Administration to fix it.
    The Chairman. Well, we passed rail safety legislaton before 
Christmas, and it has yet to be called for consideration.
    Thank you, Mr. Chairman.
    Senator Breaux. Thank you, Mr. Chairman.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. For the record, 
the $1.45 billion for the subsidy for the airlines, which is $6 
million passengers, works out to $2.30 per passenger. Under the 
Hollings bill proposal it would be $190 per passenger.
    The Chairman. Not enough.
    [Laughter.]
    Senator McCain. I certainly understand that philosophy.
    [Laughter.]
    Senator McCain. That is one reason why you sit over there 
and I sit over here, Mr. Chairman.
    Mr. Rutter, I want to ask you some really important 
questions here, because the last hearing we had on the whole 
issue of the future of Amtrak was very unclear to all of us. 
Amtrak received $100 million from the administration on July 3 
and will need additional money to keep it operating through 
September, is that correct?
    Mr. Rutter. Yes, sir.
    Senator McCain. Do you know how much more money it needs?
    Mr. Rutter. We will be coming to the Congress in a matter 
of days. We promised to do that jointly with Amtrak under the 
terms of the loan agreement that was entered into last week and 
request up to $170 million.
    Senator McCain. And that would just be through September?
    Mr. Rutter. Through the end of September, yes, sir.
    Senator McCain. Another $170 million, roughly?
    Mr. Rutter. Up to that amount. Mr. Gunn, when he is up 
here, can probably explain a little better what he believes 
Amtrak might actually need out of that. The target of $170 
million is pretty much where Amtrak's auditors have said that 
they would be looking to demonstrate a going concern.
    Senator McCain. Do you know why Amtrak was not able to--and 
that comes to $270 million--to get it right away, in total?
    Mr. Rutter. Well, in large part, we were able to do $100 
million on our own because that is what we believed we had 
legal authority to do under the current RIFF program, which is 
capital-specific. The more we looked at it, the more we were 
bound to fund capital projects on a going-forward basis, not 
those looking back.
    We will be coming to the Congress, as I said, in a matter 
of days with a proposal to give us the legal authority to make 
a loan in the amount to get up to that $170 million, so that it 
can be clear that we can finish that job, but as the Secretary 
said, the administration does not have legal authority to do 
that on its own.
    Senator McCain. The conditions of the loan require Amtrak 
to immediately stop all work on projects to expand service, but 
the terms of the agreement state that this requirement does not 
apply where Amtrak is obligated by an existing contract, and I 
note that Amtrak plans to use about $11 million on its high 
speed rail projects and another $5.1 million for Las Vegas 
infrastructure improvements, even though it does not currently 
serve Las Vegas.
    Do you know how many commitments that Amtrak has made in 
the total exposure, and I ask this in the context that we have 
got a terrific problem of safety of tunnels in the Northeast? 
Do you see my point, the reason why I am concerned here?
    Mr. Rutter. Yes, sir, and I will be happy to get back to 
you on the full extent of how many of those capital projects 
are subject to contractual arrangements.
    Senator McCain. Could you submit that for the record?
    Mr. Rutter. Yes, sir.
    Senator McCain. It seems to me we have got like $1 billion 
in possible expenditures just to take care of the tunnels in 
the Northeast and make sure that they are safe, is that not 
correct?
    Mr. Rutter. Those are some of the estimates that have come 
out of the IG's office. It is for that reason that when 
Congress gave us that first $100 million, we were concerned to 
make sure that those dollars went to projects that could be 
completed and demonstrate safety benefits at the conclusion of 
those investments, as opposed to getting started on a down 
payment toward a full $900 million system.
    Senator McCain. I understand that, but if you have got a 
situation where you have not even started rail service, and you 
have got that contrasted with a situation where you have 
tunnels that have been judged potentially disastrous 
situations, should there not be some rearrangement of 
priorities here?
    Mr. Rutter. That is one of the reasons why we have been so 
focused on making sure that those investments on the tunnels 
happen as Congress intended them to do, and those dollars be 
set aside specifically for those uses.
    On the issue of the Las Vegas service, I will be happy to 
get back to the committee on the record as to the nature of 
those contracts that Amtrak believes it is bound by, and what 
those investments are going toward, because it involves not 
only Amtrak but the owner of that infrastructure.
    [The information referred to follows:]

    The Department of Transportation believes that its information on 
the specific commitments may be incomplete since Amtrak does not, as a 
routine matter, provide the Department with copies of these agreements. 
Amtrak is still working on which of its projects will need DOT approval 
under the terms of the loan agreement. In particular, Amtrak has not 
shared with us any conclusions about the Las Vegas project to date. I 
wish, therefore, to defer the response to this question until I have 
had an opportunity to compare FRA's current information with that of 
Amtrak.
    The high-speed rail project-related activities funded under the 
loan agreement involve a number of existing and well-established 
infrastructure improvements to the Northeast Corridor and do not expand 
the existing scope of Amtrak's high-speed operations. With regard to 
Amtrak's involvement in high-speed rail efforts outside the Northeast 
Corridor, Secretary Mineta was very clear in his statement on the 
future of passenger rail service that there is a need to de-link the 
future of passenger rail currently provided by Amtrak from State-based 
efforts to develop highspeed rail on selected intercity corridors. The 
latter is more appropriately addressed by establishing a long-term 
partnership between the States and the Federal Government to support 
improved intercity passenger rail service.

    Senator McCain. My time is about to expire, but it seems to 
me that we had better establish some priorities here, and I 
think it is pretty clear what some of those priorities are. I 
say that as a person who does not represent the Northeast, but 
there are some very serious situations that have been 
identified since September 11, and I would think that would get 
some priority.
    My time is about to expire, but the loan agreements suggest 
Amtrak is prohibited from incurring additional debt while the 
loan is outstanding, correct?
    Mr. Rutter. Yes, sir.
    Senator McCain. Yet it states that Amtrak may incur 
indebtedness in connection with the purchase of assets used in 
the ordinary course of business. I assume this could cover 
passenger equipment, locomotives, or just about anything else 
needed to run trains and stations. What protections does this 
provision really provide, then?
    Mr. Rutter. Well, we were mainly concerned Amtrak would not 
enter into additional debt agreements to provide for operating 
capital. We wanted to control things like the Penn Station 
financing that happened last summer.
    Senator McCain. Finally, how soon can we expect Amtrak 
reform legislation from the administration?
    Mr. Rutter. Most of those reforms we are looking at in two 
tranches. The first is what can be done in the fiscal year 2003 
appropriations cycle. If Congress is contemplating spending up 
to $1.2 billion for Amtrak, those dollars should be accompanied 
by a series of reforms to address the fundamental issues that 
have gotten Amtrak to the financially troubled status that it 
is in. We hope to have specifics on those reforms that we will 
be seeking in fiscal year 2003 in a week or so, because frankly 
the appropriators will be marking up their bills in that kind 
of timeframe.
    As for longer term reauthorization, right now we are 
focused on those first two immediate needs, how to finish the 
job that we started with the $100 million, and then what to do 
about getting a fiscal year 2003 appropriation that 
accomplishes some of the movement toward the vision for 
passenger rail that the Secretary has outlined.
    Senator McCain. Well, Mr. Chairman, if I may say that I am 
a little concerned about the lack of specificity of the 
proposals, because if we just leave it to the Appropriations 
Committee again we bypass the authorizing committees, but I 
hope that we can have some reform proposals soon so that they 
can be considered by all Members.
    Thank you, Mr. Chairman.
    Senator Breaux. Thank you, Senator.
    I have just one follow question for Ms. Blakey and Mr. 
Rutter. We have worked on port security legislation requiring 
every port to have a security plan which specifically addresses 
security concerns at each individual port, coordinated by the 
Coast Guard with other people being involved.
    Mr. Rutter, your testimony indicates one of the greatest 
increases in loss of life and accidents have been individuals 
who are illegally within the terminal facilities of railroads, 
or Ms. Blakey, maybe you pointed it out, one of you did, about 
the accidents that occur with people who should not be there. I 
am concerned that the potential for terrorist activities within 
these terminal facilities taking over a train. Do we need a 
security plan for railroad terminals and operations like we 
have for port facilities? Can either of you comment on that?
    Mr. Rutter. Well, the FRA, working in conjunction with the 
Transportation Security Administration, is currently in the 
final stages of a review of a security assessment that has been 
prepared by the Nation's railroads themselves to try to adopt 
security measures, or ensure that security measures are taken, 
where the most vulnerabilities exist. Certainly, on the 
passenger side, terminals and places where many passengers are 
pose some threats, or at least some potential for risk, and we 
are working with owners and operators of those facilities, most 
of which are public entities, and we are working in concert 
with the Federal Transit Administration to develop standards 
for making sure that those open facilities are protected as 
much as possible.
    Senator Breaux. Ms. Blakey, do you think that is 
sufficient?
    Ms. Blakey. Well, there are over 500 deaths a year, and 
that is 500 people where they should not have been, certainly, 
and a significant number were in the terminals. The AAR has 
briefed us on their planning and security. I think that the 
effort that they made is impressive. That said, I do not have 
the specifics at this point on the terminal security 
arrangements and would certainly like to know more about that.
    Senator Breaux. I thank both of you. If we have follow 
questions, Ms. Blakey, Mr. Rutter, we will be back in 
communication with you. Thank you.
    I would like to welcome up our next panel of witnesses and 
ask them to take their place at the witness table. Mr. David 
Gunn, president and CEO of Amtrak, Mr. Ed Hamberger, president 
and CEO, Association of American Railroads, and Mr. Don Hahs, 
international president of the Brotherhood of Locomotive 
Engineers.
    Gentlemen, we welcome you, and we are pleased to have you 
appear before the Committee, and Mr. Gunn, we have you listed 
first. If you would like to go ahead and begin, we would be 
pleased to take your testimony.

 STATEMENT OF DAVID GUNN, PRESIDENT AND CEO, NATIONAL RAILROAD 
                     PASSENGER CORPORATION

    Mr. Gunn. Good morning, and thank you for inviting me here 
today. I have been in the railroad business for nearly 40 
years, and the number 1 priority has always been safety 
wherever I have worked, safety for the passengers, employees, 
for the trains and facilities, and my view is, if a railroad is 
not safe, it should not be in business.
    In the interest of time, I would like to submit my formal 
statement which details a number of important safety statistics 
and highlights some of the initiatives we have taken to provide 
a safe operating environment at Amtrak, and submit that for the 
record. Then, having said that, I would like to make a few 
brief comments on my approach to running Amtrak.
    Notwithstanding the recent tragedy in Florida involving the 
Auto Train and other well-publicized incidents, there are a 
number of basic indicators that suggest Amtrak is maintaining a 
high level of rail safety. Comparing the year-to-date data for 
fiscal 2002 in the same period for 2001, we have achieved a 22 
percent reduction in passenger injuries and 11 percent 
reduction in employee injuries, 20 percent fewer grade crossing 
accidents, and about 7 percent fewer operating rule 
infractions.
    As you know, I have been on the job less than 2 months, but 
I do believe that Amtrak is a safe operation, and that its 
employees are dedicated to safety, and I base this not just on 
statistics, but many hours that I have spent out on the 
railroad riding trains meeting and talking to employees, and my 
sense is that there is a really professional work force that is 
well-trained and dedicated to doing the job properly.
    In April, we did see an increase in operating rule 
infractions, which is unacceptable. In response to this 
increase, our safety department organized nearly 10,000 
efficiency tests on nearly 2,900 engineers, conductors, train 
dispatchers, and block operators on 17 safety-critical 
operating procedures. These activities were done in conjunction 
with representatives from the FRA and host railroads, and were 
performed around the clock in many locations across the 
country.
    The monthly average of operating infractions last year was 
14. This year, the monthly average is 12. During the month of 
June, we reduced the number of operating rule infractions to 
11, but we are still working hard to bring that number down 
even lower.
    Let me now speak for a few moments on my approach and our 
priorities for running this company. I have run larger 
organizations than Amtrak that were in trouble, but I do not 
recall in nearly 40 years of service taking the reins of a 
company with such immediate and significant problems. That 
said, Amtrak will improve its performance.
    Now, my permanent home is on Cape Breton Island in Nova 
Scotia, and I do get newspapers out of Halifax and Toronto. I 
do not get the American papers when I am home, and even with 
just that source of information I knew last summer that Amtrak 
was in deep trouble. When you have to mortgage a busy station 
just to make payroll, you are only a step or two away from 
financial disaster.
    I mention this only because I want you to know that I 
accepted this job with my eyes open. I knew we faced serious 
problems, maybe not as serious as they are, but I knew they 
were there. Unfortunately, the plant and equipment for the most 
part suffers from years of neglect. Deferrals of maintenance 
and elimination of heavy overhauls to meet budgetary goals has 
resulted in a multitude of problems.
    In addition, we have nearly 100 cars and locomotives in 
heavy wreck or repair status, the majority of which are our 
newer cars used on long distance trains. With a fleet of 1,500 
cars, that means approximately 1 in 15 cars are out of service, 
and some of which have been so since the early nineties, and 
this is unacceptable, and it must change. It is having a 
significant impact on our ability to serve our customers.
    I have some very basic core beliefs about the railroad 
business, particularly in the operation of passenger service. 
First, I cannot imagine a country such as ours without a 
national passenger railroad system. Second, no passenger rail 
system in the world operates without some form of Government 
investment. We should not fool ourselves into thinking that 
Amtrak is somehow different than every other system around the 
world. This means Amtrak will a) never be profitable, and b) it 
will always need, just like every other mode of transportation, 
some form of public investment or subsidy.
    Right now, the most important thing I can do for Amtrak and 
for our partners and for you is to bring stability to our 
operations. That is my basic, overarching goal for the next 15 
months, and to do this, I will go back to basics. First, we 
will establish a very straightforward, transparent, 
understandable, zero-based budget process to set goals and 
control expenses. We will streamline the corporate structure. 
It will be leaner, and it will look more like a railroad, thus 
reducing overhead and establishing clear lines of authority and 
responsibility, i.e., you get accountability.
    We intend to repair and overhaul as much equipment as we 
can within budget constraints to support our national system. 
We will make critically needed capital investments on existing 
infrastructure, our infrastructure. We will build a strong 
management team, and I will not rely on outside consultants. 
Everything we do will be to improve and strengthen or bring 
efficiencies to what we operate today. I will not take on any 
new growth or activities that do not serve this and/or which 
increase our deficit.
    Let me say a few words about our recent agreement with the 
administration to secure a $100 million loan. First, I want to 
compliment the Secretary, the DOT Secretary and the Deputy 
Secretary, Michael Jackson and FRA Administrator Allan Rutter, 
who negotiated in good faith and worked closely with us in 
bringing about this loan. As you know, our forecasts indicate 
that we will have a $205 million cash shortfall by the end of 
this fiscal year. As you also know, I believe, Amtrak had 
planned a line of credit of $270 million for this period. In 
other words, the line would be 270, the drawdown would be 205. 
Those are the two numbers.
    Unfortunately, the inability for us to secure a final 
audit--in other words, we had trouble closing our books--
prevented access to this line of credit and resulted in the 
threat of a shutdown due to a lack of cash by mid-July. With 
virtually all internal remedies exhausted, we asked the DOT for 
their help in securing, either through a supplemental 
appropriation, a loan, or a loan guarantee, the $205 million 
needed to get through 2002. As you know, after many hours of 
negotiation, we received a $100 million loan with a series of 
contingencies attached to it, and which basically required us 
to have a more aggressive approach to finding additional and 
meaningful savings.
    The $100-million loan is enough to keep the trains running 
through early August. The best solution at this time would be 
to receive the $205 million in the form of a supplemental 
appropriation, which would reduce the amount of debt that we 
are incurring, and would pay back the loan of $100 million once 
the fiscal 2003 funding levels are set. In any event, I want to 
reinforce that the $100 million we received will not be enough 
to get us through to the rest of the fiscal year.
    One of the most unfortunate effects of Amtrak's cash crisis 
is the effect this has on our commuter and State partners. 
While this is clearly a difficult and agonizing process for us 
at Amtrak, the situation is particularly painful for the States 
and organizations, some of whom have paid us in advance for 
Amtrak to be a reliable operating partner. I am going to have 
to work hard to mend fences.
    Let me conclude by saying that while all our focus has been 
to resolve the immediate short-term cash crisis, we have begun 
the fiscal 2003 budget process, and to that end I cannot 
emphasize how important it is for Congress to fully fund 
Amtrak's $1.2 billion request for fiscal 2003. Keep in mind 
that the first thing we will have to do when we get that money 
back is to pay back any loans. This level of funding will allow 
us to begin the work that I have outlined in my testimony and 
start to rebuild the railroad.
    Finally, I want to assure you we will look at every route 
and service we operate to improve efficiencies and cost 
recovery. While it is true that most of our trains lose money 
and many always will, I have every belief that they can be run 
more efficiently and there are opportunities for cost 
reduction. I believe that it is a much more achievable and 
realistic goal, i.e., cost reduction, than the goal of pursuing 
self-sufficiency.
    It is my hope that Congress, the administration, and Amtrak 
will grapple with and hopefully come to closure on some of the 
larger fundamental issues that we need to resolve about the 
level of rail passenger service and how we pay for it. Unless 
or until that occurs, we will always be living on the edge. 
Therefore, I reiterate the importance of our budget request of 
$1.2 billion for next year, and to begin the work to resolve 
these larger fundamental questions. It is my belief you will 
see significant, positive changes in the year ahead, better 
equipment, investment in infrastructure, a leaner organization, 
and an open, straightforward approach.
    As I told the subcommittee a few weeks ago, we will build a 
better railroad, and happily leave the politics to you.
    Thank you.
    [The prepared statement of Mr. Gunn follows:]

         Prepared Statement of David Gunn, President and CEO, 
                National Railroad Passenger Corporation
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear here today. My name is David Gunn, and I am 
President and Chief Executive Officer of the National Railroad 
Passenger Corporation (Amtrak). I have extensive experience in the rail 
industry, spanning over 38 years. In this business, you have to be 
committed, everyday and in everyway, to safety. At Amtrak, the safety 
of our passengers, employees and communities that we travel through is 
of the utmost importance. If you are not committed to safety, you have 
no business running trains.
    In my testimony this morning, I'd like to give you some context and 
insights into Amtrak's safety programs, our record and our major 
concerns.
    To begin with, I want to emphasize that the safety of all 
passengers, employees, trains and facilities is our number one 
priority. As the operator of our national passenger rail system, Amtrak 
has a strong safety record. But of course, when it comes to safety, one 
must never be satisfied with the status quo. That's why we are 
constantly studying every aspect and taking every step that's necessary 
and feasible to ensure greater safety.
    As you know, the railroads in this country were originally financed 
and built primarily by private interests, and for the most part these 
companies retained ownership of the tracks when Amtrak was created in 
1971. Today about 97% of Amtrak's 22,000-mile system--and about half of 
our daily trains--is operated over tracks that are owned and maintained 
by private freight railroads. Amtrak owns about 730 route miles of 
railroad, primarily between Boston and Washington, DC, and some in 
Michigan. Across the rest of the country, we rely heavily on our 
partners in the freight and commuter railroads to provide a safe 
operating environment.
    Notwithstanding the recent tragedy in Florida involving our Auto 
Train and other well-publicized incidents, there are a number of basic 
indicators that tell me that Amtrak is maintaining a high-level of rail 
safety. Comparing the first eight months of FY'02 to the same period in 
2001, we have achieved a 22% reduction in passenger injuries . . . a 
11% reduction in employee injuries . . . 20% fewer grade-crossing 
incidents . . . and about 7% fewer operating rule infractions.
    These are encouraging numbers and trends. But as I said, we can and 
must do better. Amtrak and its industry partners are constantly seeking 
ways to improve our safety performance.
    As we look at operating rule infractions, they tend to fall into 
two categories: those that occur in fixed facilities like stations, 
yards and shops, and those that occur on the main lines. The majority 
of Amtrak's operating rule infractions occur in yard-related equipment 
moves and involve violations of procedures such as running through 
improperly lined hand switches in a yard, failing to stop short of an 
obstruction in a yard, or failing to secure equipment properly. These 
are minor infractions, but they have the potential to cause serious 
problems, so we focus a great deal of energy on preventing them.
    We measure and report these infractions on a monthly basis, and if 
you look at the last three years, there has been steady improvement. 
For example, if you compare the first nine months of this year to the 
same period in previous years, you'll find that operating rule 
infractions dropped from 123 in FY 2000, to 118 in FY `01, to 110 this 
year. The monthly average for the entire year in the last two years was 
just shy of 14, and the average so far this year has been about 12.
    Despite our overall record of improvement, in April of this year we 
recorded an increase in operating rule infractions, which was 
unacceptable. In response to this increase, our Chief Operations 
Officer organized a national operating rules awareness blitz for 
transportation department employees in May. Field supervisors conducted 
nearly 10,500 efficiency tests on nearly 2,900 engineers, conductors, 
train dispatchers and block operators on 17 safety-critical operating 
procedures. These activities were done in conjunction with 
representatives from the FRA and host railroads, and were performed 
around the clock in many locations across our system for a solid week. 
The safe operation of our trains whether they be in yards or on the 
mainline is one of our management goals.
    In the month of June, we reduced the number of operating rule 
infractions to 11. But we're still working hard to bring that number 
down even further. In the month of June, we conducted a similar blitz 
for mechanical department employees, and in July, we will do a blitz in 
the engineering department. We will continue to remain vigilant in all 
areas of our operation to reduce operating rule infractions.
    In an effort to prevent grade crossing accidents, Amtrak and the 
rest of the railroad industry participate in public education and 
enforcement campaigns through Operation Lifesaver. This program, now 
entering its 30th year and reaching 49 states, is a joint effort of the 
Railway Progress Institute, Amtrak and the freight railroad industry, 
and it has assisted in achieving a 70% reduction in grade crossing 
fatalities since 1972.
    Mainline passenger derailments occur infrequently, but of course we 
are very concerned about them because they can result in serious 
injuries and deaths. For example, the Auto Train derailment in Crescent 
City, Florida, on April 18 claimed the lives of 4 people and injured 
150. All of us at Amtrak extend our deepest sympathies to the families 
of those who were lost and injured. The cause of this derailment is 
still under investigation by the National Transportation Safety Board. 
What I can say, though, is that train travel is a very safe mode of 
transportation, and we will not rest as long as there are opportunities 
to improve our performance.
    Moving to another issue of concern, train crew fatigue is one of 
the most difficult challenges facing the entire railroad industry. 
Amtrak is governed by--and adheres strictly to--guidelines set by 
Congress on train crew hours of service. Fortunately, Amtrak runs a 
scheduled system with scheduled relief days, which allows employees to 
adequately manage their lives to avoid fatigue. In addition, Amtrak 
provides fatigue-prevention education to all locomotive engineers as 
part of their initial certification training, and again when they seek 
re-certification. Working with the freight railroads, the AAR, the FRA, 
and our rail labor unions through the North American Rail Alertness 
Partnership (NARAP), we are exploring ways to go further in mitigating 
and preventing fatigue.
    In our constant efforts to improve safety and reliability, Amtrak 
employs various train control systems. For example, all Amtrak-owned 
main lines have highly reliable systems that automatically apply a 
train's brakes if the engineer fails to respond to a signal change. On 
the Northeast Corridor, we are phasing in an Advanced Civil Speed 
Enforcement System, called ACSES, which will enforce stops at 
interlockings and control points, as well as all FRA speed limits. We 
have just instituted a similar system on our Michigan line, enabling 
the first significant increase in sustained passenger rail speeds above 
79 miles per hour outside the Northeast in 20 years. Amtrak is also 
involved in the North American Joint Positive Train Control Project, in 
which the entire industry is looking for a practical, cost-effective 
way to provide positive train control on rail lines where it is deemed 
appropriate. A demonstration project is soon to be implemented on Union 
Pacific trackage in Illinois, with major participation from the 
Illinois DOT, FRA and AAR.
    Let me briefly raise another issue that I believe bears strongly on 
the safety of our Northeast Corridor Operations. Some have suggested 
that Amtrak's role on the Northeast Corridor be limited to operations 
and that maintenance and dispatching be done by another entity much 
like the recent reorganization of the British Rail in England. I 
believe this would pose serious safety concerns. Amtrak currently has 
the strongest incentive to ensure that the Northeast Corridor rail line 
is adequately maintained for high-speed rail operations--because it 
runs the trains! Indeed, Amtrak is the only operator of high-speed rail 
on the Northeast Corridor and has the only work force trained to 
maintain tracks for speeds up to 150 mph. Its operations and 
engineering employees report through the same organization, ensuring 
the communications and common budget that is essential to safe 
operations. These employees operate and maintain the nation's only 
high-speed service and do an extremely good job.
    Amtrak also currently works very closely with the commuter 
railroads and freight lines that operate on the Northeast Corridor to 
ensure that the corridor is safe, reliable and adequately maintained. 
The safety record of the NEC is unparalleled. We manage to 
cooperatively dispatch a rail line with hundreds of daily trains--some 
850 commuter and Amtrak trains operate through Penn Station in New York 
every day! We've been able to accommodate significant growth in 
commuter service and in our own Acela service. The perennial problem of 
funding--the corridor requires a minimum of $5 billion over the next 
ten years to upgrade the aging infrastructure--will not be fixed by 
taking maintenance responsibilities away from Amtrak. What is required 
is a dedicated funding source that will provide the long-term funds 
required for safe rail service on the Northeast Corridor.
    In closing, let me assure you that we are vigilant and do 
everything in our power to maintain and improve the safety of our 
system throughout the country.
    Thank you for the opportunity to provide this testimony, Mr. 
Chairman. I will be happy to answer questions.

    Senator Breaux. Mr. Hamberger.

 STATEMENT OF EDWARD HAMBERGER, PRESIDENT AND CEO, ASSOCIATION 
 OF AMERICAN RAILROADS; ACCOMPANIED BY: C.E. DETTMANN, SENIOR 
       EXECUTIVE VICE PRESIDENT FOR SAFETY AND OPERATIONS

    Mr. Hamberger. Thank you, Chairman Breaux. I appreciate the 
opportunity to be here to discuss freight railroad safety. 
Nothing is more important to the freight railroads than the 
safety of our employees and the communities in which we 
operate, and notwithstanding the impression you may have gotten 
from the previous panel, I would like to point out that working 
on a railroad is safer than working in a hotel, on a 
construction site, or in a grocery store. We have an enviable 
record of safety, and it is getting better.
    Last year was the safest year on record for the ralroad 
with respect to employee injuries, and I am pleased to say that 
yesterday the FRA released its data for the first 4 months of 
2002. Our injury rate has gone down 16.8 percent since last 
year, the safest year on record, and our accident rate is down 
19.6 percent in the first 4 months of this year versus last 
year, so I think we are doing an outstanding job of protecting 
our employees and the communities in which we operate.
    Number two, I would like to point out, and you may see on 
this chart that we are also safer than any other mode of 
transportation.
    Third, the major portion of fatalities comes from 
trespassers and grade crossing accidents, and Chairman Breaux, 
to your question, the majority of those 508 trespassing 
fatalities were not in yards, they were along mainline tracks, 
outside of the yards.
    Under the security plan which the AAR board adopted last 
December, we have tightened up access to our yards 
considerably. In fact, I cannot tell you the number of e-mails 
I have gotten from rail fans around the country complaining 
that they are no longer allowed to come in and take pictures 
and observe the operations in our yards, but that just cannot 
be allowed in the aftermath of last September.
    Nonetheless, improving safety is an ongoing priority for 
the railroads. One way we are trying to do that is through 
technology. Currently, we are implementing a new program called 
InteRRIS, the Integrated Railway Remote Information Service, 
which is a series of wayside detectors, including acoustic 
detectors that can detect defects as the train goes by and 
report them. It is a predictive way, rather than a reactive 
way, of trying to prevent accidents rather than reacting to 
them after they occur.
    Similarly, we have rail defect cars traveling to detect 
internal rail flaws, and track geometry cars that inspect track 
conditions, including alignment, gauge, and curvature.
    We are also bringing new technology to bear on freight 
yards, where more than half of all train accidents occur. 
Miscommunication between employees on the ground and in the 
locomotive can be a problem. A new technology called portable 
locomotive control technology, or PLCT, allows the employee on 
the ground to operate the train, eliminating the possibility of 
misread hand signals or garbled radio communications. PLCT has 
been used widely in Canada and has been since the late 1980's, 
and Canadian National Railway reports accident rates in yards 
using this technology are down 44 percent, while Canadian 
Pacific reports a two-thirds reduction in such accidents.
    Another technology high on our agenda is positive train 
control, or PTC. PTC is designed primarily to prevent 
collisions, but let me point out that mainline collisions 
account for less than 2 percent of all train accidents, and 
have been reduced by 82 percent since 1980. Railroads, as NTSB 
Chairman Blakey has pointed out, have spent over $200 million 
to develop and test PTC.
    The basic problem, however, is that PTC is extremely 
expensive and, contrary to conventional wisdom, the technology 
is not proven for a final fully integrated PTC system. In 1999, 
under the previous administration, a Rail Safety Advisory 
Committee submitted a report to the FRA which was then 
forwarded to Congress indicating that the basic PTC system 
would cost about $1.2 billion, a full system with all the bells 
and whistles would be about $7.8 billion, but the benefits 
would be far, far less. For the basic system there would be 
about less than $500 million in benefits; for the $7.8 billion 
system, there would be about $850 million in benefits, so we 
need to be careful about where we allocate our resources so 
that we apply them to the biggest problems.
    Having said that, we are continuing our efforts to develop 
a PTC system. As pointed out by Administrator Rutter, we are 
cooperating with the FRA and Illinois DOT in spending over $70 
million to try to prove the technology on the rail line between 
Chicago and St. Louis. The objective is to develop a system 
that is safer than current systems, interoperable among 
railroads-- since we are one network--and cost-effective.
    The last issue I would like to address is fatigue. Since 
1992, we have worked with the Brotherhood of Locomotive 
Engineers and the United Transportation Union on the Work/Rest 
Task Force to look at fatigue issues cooperatively. Initiatives 
undertaken by railroads, working with labor, include assigned 
work and rest days, development of scheduling alternatives, 
permitting napping under certain circumstances, sleep disorder 
screening, improvements to crew rest facilities, providing 
predictable call windows, and fatigue education programs.
    We have negotiated agreements with labor addressing fatigue 
at over 100 locations around the country. Together, labor and 
management continue to aggressively pursue a range of fatigue 
countermeasures.
    We conclude by again emphasizing the importance railroads 
place on safety. With the resources that we devote to safety 
and with the cooperative programs in place with labor, 
suppliers, and the FRA, I believe we will continue to be the 
safest mode of transportation, and that we will see continued 
improvement in the future.
    Thank you.
    [The prepared statement of Mr. Hamberger follows:]

      Prepared Statement of Edward Hamberger, President and CEO, 
                   Association of American Railroads
    On behalf of the members of the Association of American Railroads, 
I am grateful for the opportunity to discuss the critical issue of 
freight railroad safety. Nothing is more important to our nation's 
freight railroads than the safety of their employees, customers, and 
the communities they serve, as will be demonstrated by the scope and 
intensity of the industry's safety efforts that I will describe today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Railroads have achieved tremendous improvement in safety since the 
Staggers Rail Act of 1980 partially deregulated the industry. According 
to preliminary 2001 Federal Railroad Administration (FRA) statistics, 
the rail industry has reduced its overall train accident rate 64 
percent from 1980 to 2001 and 12 percent since 1990. The rate of 
collisions (a subset of the train accident rate) was reduced 82 percent 
since 1980 and 40 percent since 1990. The rate of employee casualties 
has been reduced 71 percent since 1980 and 57 percent since 1990, and 
in 2001 was the second lowest rate on record.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to the Bureau of Labor Statistics, railroads have lower 
employee injury rates than other modes of transportation and, indeed, 
most other major industry groups, including agriculture, construction, 
and manufacturing. U.S. railroads also have employee injury rates well 
below those of most major European railroads. Railroads are also far 
safer than trucks. Rail freight transportation incurs an estimated one-
fourth of the fatalities that intercity motor carriers do per billion 
ton-miles of freight moved.
    These improvements have come about precisely because railroads 
recognize their responsibilities regarding safety and have devoted 
enormous resources to its advancement. Through comprehensive employee 
training; massive investments in infrastructure and technology 
(totaling $145 billion just in the ten years from 1992 to 2001); 
cooperative efforts involving rail management, rail suppliers, rail 
labor, and the FRA; collaboration with customers and communities; 
cutting-edge research and development; and steadfast commitment to 
applicable laws and regulations, railroads are actively and 
consistently at the forefront of advancing safety.
    Railroads recognize, though, that more work remains to be done, and 
believe that government, management, and labor must work together to 
further improve rail safety. Several recent high profile accidents have 
brought renewed attention to the topic of rail safety, and over the 
past few years the train accident and employee casualty rates--while 
remaining at historically low levels--have leveled off. Below I will 
discuss several ways that railroads are working to improve safety and 
suggest steps we believe the government should (and should not) take to 
advance the cause of rail safety.
    To start, though, it is important to recognize that the most 
critical safety problems faced by railroads are collisions at highway-
rail grade crossings and incidents involving trespassers on railroad 
rights-of-way. In 2001, these two categories accounted for 96 percent 
of rail-related fatalities. Unfortunately, these incidents generally 
arise from factors that are largely outside of railroad control.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Due largely to railroads' and others' efforts to close crossings 
and to educate the public about the dangers of grade crossings, in 
conjunction with the Section 130 federal grade crossing program, the 
number of collisions, injuries, and fatalities at highway-rail grade 
crossings has fallen steadily over the years. From 1980 to 2001, the 
number of grade crossing collisions was reduced 70 percent, injuries 
declined by 70 percent, and fatalities were down 50 percent. Despite 
these impressive declines, far too many grade crossing accidents occur 
each year.
    The vast majority of grade crossing fatalities are preventable 
because they are caused by a driver's proceeding through a crossing in 
error. Consequently, grade crossing accident prevention efforts have 
centered on improved warnings and educating the public about the life-
or-death consequences of their actions at grade crossings.
    The high cost of current active warning devices--approximately 
$150,000, on average, per installation--has limited the number of 
crossings at which they have been installed. Research into improved 
low-cost grade crossing warning systems is underway, but increased 
federal funding for highway-rail crossing hazard abatement would permit 
additional crossings to be protected immediately.
    Under regulations implementing the federal grade crossing program, 
the responsibility for surveying highway-rail crossings, and 
prioritizing them for improvement according to the level of hazard, is 
accorded to the states. The decision of what type of warning devices to 
install at which crossings is made by the state (and approved by the 
FHWA). Railroads provide information about train operations to support 
these decisions made primarily by the state's traffic engineering 
experts. This allocation of responsibility is appropriate because grade 
crossing warning devices are highway traffic control devices, there to 
protect motor vehicles, not trains, and because state highway 
officials, not railroads, possess the requisite data and expertise 
about traffic volumes and road building plans.
    Railroads spend well over $200 million each year maintaining grade 
crossings, plus millions more on educational programs. They cooperate 
closely with state agencies to install and upgrade grade crossing 
warning devices and signals, and they (along with rail suppliers and 
the U.S. DOT) support Operation Lifesaver, a nationwide organization 
that educates the public about the dangers of grade crossings. 
Operation Lifesaver also has an educational program addressing the 
hazards of trespassing on railroad rights-of-way. In addition to 
increased dedicated public funding for grade crossing warning device 
installation and maintenance, railroads support the implementation of a 
comprehensive agenda of engineering, education, and enforcement actions 
so that further significant improvement in crossing safety can be 
achieved.
    Beyond their efforts to reduce accidents at grade crossings and 
limit trespasser incursions onto their rights-of-way, railroads are 
engaged in an extensive range of activities designed to improve rail 
safety, many of which are outlined below.
1. Railroads are engaged in aggressive efforts to understand and 
        respond to the issue of worker fatigue.
    Work/rest issues have long been a major priority for railroads and 
their employees. In 1992, the AAR joined with the Brotherhood of 
Locomotive Engineers (BLE) and the United Transportation Union (UTU) to 
create the ``Work/Rest Review Task Force'' to examine the application 
of the Hours of Service Act, review work procedures, and identify ways 
to reduce rail employee fatigue and improve employee quality of life. 
The Task Force conducted studies of crew work schedules employing a 
database of over five million crew starts, and shared information on 
various efforts to address fatigue. It also provided a forum for rail 
labor and management to share information and ideas for new approaches 
to work/rest issues.
    In 1998, the Task Force published a report entitled ``Current 
Status of Fatigue Countermeasures in the Railroad Industry'' that 
described the many initiatives addressing fatigue undertaken by rail 
labor and rail management. The report was updated in 2000 and is 
currently being updated again.
    In 1999, Class I railroads, the BLE, and the UTU reached an 
agreement covering workplace fatigue. The accord provides for labor and 
management on each railroad to establish joint work/rest committees 
that would address the establishment of predictable rest days, the 
timing of duty calls, and the transportation of crews to their 
terminals after they have completed their maximum service under the 
Hours of Service Act.
    The FRA, too, has been addressing work/rest issues. In 1997, the 
FRA, with rail labor and management, formed the ``North American Rail 
Alertness Partnership'' (NARAP), which focuses on fatigue education, 
including a study of the effectiveness of training.
    In addition to industry-wide efforts, many individual railroads are 
working to identify and combat worker fatigue with work/rest committees 
and with scientifically-based programs such as CANALERT, a 
collaborative effort of the major Canadian railroads and their 
employees.
    Thanks largely to extensive cooperation between labor and 
management, North American railroads have been aggressive in the 
practical application of fatigue countermeasures in the workplace. 
Initiatives undertaken by some railroads include changes in work 
schedules (e.g., assigned work and rest days), developing scheduling 
alternatives in cooperation with labor, permitting napping by train 
crew members under limited circumstances such as where the train is 
expected to remain motionless for a minimum period of time, sleep 
disorder screening, improvements to crew rest facilities, returning 
crews home rather than lodging them away from home, running more 
scheduled trains and groups of trains, providing predictable calling 
windows, and fatigue education programs for employees and their 
families. The importance of education in this area cannot be 
overstated, since the value of these initiatives is highly dependent 
upon employee actions while off duty.
    While evaluations of specific railroad programs have found safety 
benefits, railroads and employees are continuing their efforts to gain 
an ever-greater understanding of fatigue-related issues and are seeking 
innovative solutions. Key to the success of these programs is the 
flexibility to tailor fatigue management efforts to address local 
circumstances. Significant variations associated with local operations 
(e.g., types of trains, traffic balance, and geography), local labor 
agreements, and other factors require customized measures. Together, 
rail management and rail labor are aggressively pursuing a broad range 
of worker-fatigue countermeasures, and these efforts should be allowed 
to continue.
2. Railroads are actively pursuing reliable, cost-effective automatic 
        train control systems.
    For many years, major freight railroads and others have been 
researching the development and implementation of Positive Train 
Control (PTC) systems, mainly as a way to reduce the occurrence of 
train collisions. (Mainline collisions constitute about 2 percent of 
total rail accidents, and the Class I mainline collision rate has been 
reduced by 82 percent since 1980 and 41 percent since 1990. However, 
such accidents tend to be especially dangerous and destructive, and 
railroad actions to reduce them further continue unabated.) PTC 
systems, which would use digital communications technology and advanced 
processors to control train movements, would be self-enforcing--i.e., 
they would apply brakes automatically to stop a train if the engineer 
failed to obey speed limits or continued onto sections of track without 
proper authorization. More advanced versions of PTC might also provide 
warning of damaged track or bridges, track obstructions, and/or other 
on-track equipment.
    In addition to reducing train collisions, a successful PTC system 
would reduce the number of derailments caused by excessive speed, 
reduce the number of train incursions in track maintenance zones, and 
facilitate high-speed rail projects by making rail lines safer for 
concurrent use by both passenger and freight trains. To date, railroads 
have spent more than $225 million to develop and test positive train 
control technology.
    The basic problem confronting PTC systems is that, with available 
technology, they are extremely expensive and still of questionable 
reliability. The most recent estimated costs--from a 1999 benefit/cost 
analysis using standard U.S. DOT methodology and performed by the FRA-
sponsored Rail Safety Advisory Committee (RSAC)--range up to $7.8 
billion for system-wide implementation of the most advanced current 
systems. The RSAC study found that the total costs of even a limited 
PTC system would be more than double the expected benefits, while the 
benefits of the most advanced PTC system would be less than 10 percent 
of total costs. The FRA forwarded the RSAC's findings to Congress.
    In view of these findings, railroads and their suppliers are 
continuing efforts aimed at developing cost-effective, functional train 
control systems. For example, the FRA, the Illinois DOT, and the AAR 
are jointly funding, developing, testing, and implementing a PTC system 
for a portion of a Union Pacific rail line from Chicago to St. Louis. 
The nearly $70 million project will begin testing this fall, with full 
implementation planned for the summer of 2003. Meanwhile, CSXT is 
testing a PTC system called Communications Based Train Management 
(CBTM) in South Carolina and Georgia. Another PTC system--the 
Incremental Train Control System (ITCS), developed by the FRA, the 
Michigan DOT, and Amtrak--is being used on a line in Michigan.
    These field tests, under actual operating conditions, are critical 
to determining the effectiveness of the experimental PTC systems. As 
with any experimental system, there is a concern that if PTC is 
implemented before the system design and software are perfected, the 
safety environment could actually be worsened.
    The key objectives of the rail industry's PTC efforts are to create 
a system that is safer than the present, is interoperable among 
railroads, and is cost-effective. To that end, railroads are working to 
develop industry standards to provide for potential implementation at 
different levels of capability. Each railroad will be able to choose 
the specific means by which it would attain the industry standard, but 
interoperability will be assured. This approach will provide train 
control standards that allow each railroad to determine its needs and 
implementation strategy and to coordinate PTC with investments in 
communications systems and processor technology.
    Freight railroads oppose statutory train control mandates. The 
diversion of huge amounts of limited railroad capital to unproven and 
uneconomic technology would not improve safety. Instead, it would limit 
what railroads could spend on more effective safety enhancements, would 
raise industry costs, and would ultimately restrict railroads' ability 
to invest in the equipment and infrastructure they require to meet 
their customers' needs. The cause of safety is not advanced if 
premature PTC mandates ultimately lead to a diversion of rail traffic 
to highways that, as noted above, are less safe than rail.
3. Railroads are actively pursuing other technological advances in 
        track and equipment safety.
    Railroads have achieved dramatic advancements in safety through the 
introduction of new technology, much of which was developed and/or 
refined at the Transportation Technology Center in Pueblo, Colorado. 
The center, which is operated by a wholly-owned subsidiary of the AAR--
the Transportation Technology Center, Inc. (TTCI)--is generally 
considered the finest rail research facility in the world. The 
following are just a few examples of the wide variety of significant 
technological advances, some completed and some still under 
development, that are having or will have a direct positive impact on 
rail safety:

  <bullet>  Wayside detectors identify defects on passing rail cars 
        before structural failure occurs. The types of defects that 
        wayside detectors can identify include overheated bearings and 
        wheels, deteriorating bearings, cracked wheels, and excessively 
        high and wide loads.

  <bullet>  Trackside acoustic detector systems, currently in the 
        developmental stage, identify internal bearing defects through 
        ``acoustic signatures.'' Existing bearing detectors identify 
        bearings in the process of failing by measuring the heat they 
        generate. Acoustic detectors would be able to identify bearings 
        with defects before they fail, thereby preventing accidents.

  <bullet>  Wheel profile monitors, which are also under development, 
        use lasers and optics to capture images of wheels. The images 
        show if wheel tread or flanges are worn and, consequently, 
        whether the wheels need to be removed from service.

  <bullet>  Rail defect cars are used to detect internal rail flaws. 
        The AAR and the FRA have jointly funded a Rail Defect Test 
        Facility that railroads and suppliers can use to test improved 
        methods for detecting rail flaws. TTCI is also investigating 
        new rail defect detection technologies. A new ultrasonic system 
        under development by TTCI and researchers from the Johns 
        Hopkins University is scheduled for testing and evaluation 
        later this year.

  <bullet>  Track geometry cars, which combine sophisticated electronic 
        and optical instruments, are used routinely to inspect track 
        conditions, including alignment, gauge, and curvature. TTCI is 
        developing an on-board computer system that provides an even 
        more sophisticated analysis of track geometry, predicting the 
        response of freight cars to track geometry deviations. This 
        information will better enable railroads to determine what 
        track maintenance is necessary.

  <bullet>  Improved metallurgy and premium fastening systems improve 
        the stability of track geometry, reducing the risk of track 
        failure leading to derailments.

  <bullet>  TTCI is also developing Integrated Railway Remote 
        Information Service (InteRRIS), an Internet-based data 
        collection system with wide potential applicability. For 
        example, an early project using InteRRIS collects data from 
        wheel impact detector systems and truck performance detectors 
        along railroad rights-of-way, and processes the information to 
        produce vehicle condition and exception reports. Wheels with 
        certain surface defects generate greater forces, and the wheel 
        impact detectors identify wheel defects by measuring the force 
        generated by wheels on track. Truck performance detectors 
        identify suspension systems that are not performing properly on 
        curves. Suspension defects can lead to greater wear on wheels 
        and rails, and even to derailments.

  <bullet>  Electronically-controlled pneumatic brakes use an 
        electronic signal along an on-train communications network to 
        initiate brake applications and releases, thereby permitting 
        the simultaneous application of all brakes on a train and 
        reducing braking distances by as much as 40 percent.

  <bullet>  TTCI supports three affiliated laboratory programs at the 
        Massachusetts Institute of Technology, Texas A&M University, 
        and the University of Illinois. TTCI also actively participates 
        in the activities of the National Academy of Science's 
        Transportation Research Board (TRB) and the national 
        laboratories. The university programs provide a way for the 
        industry to engage in long-term partnerships with strong 
        technical schools, thereby enabling cost-effective exploration 
        of technical improvements to rail transportation. TTCI's ties 
        to the universities, TRB, and the national laboratories also 
        provide the industry with knowledge of cutting-edge 
        technologies and applications that could benefit the rail 
        industry.
4. Class I railroads are deploying portable locomotive control systems 
        that promise significant safety benefits.
    Accidents in rail yards account for more than half of all train 
accidents. Human factors-caused accidents in yards account for about 
half of all yard accidents, or about one-quarter of all train 
accidents. Portable locomotive control technology (PLCT), which allows 
railroad personnel on the ground to operate and control locomotives 
through the use of a small control device that transmits signals to a 
microprocessor on board a locomotive, promises to bring about a 
significant reduction in human-factors caused yard accidents and hence 
a noticeable decline in the overall train accident rate.
    A major advantage of PLCT is that it eliminates the need for 
communication between employees on the ground and operators on a train. 
In conventional operations, ground employees often give directions to 
train employees using hand or voice signals. The potential for 
miscommunication is significant. With PLCT, however, the ground 
employee who would have been giving signals to the train employee is 
the one using PLCT to operate the train. The danger of miscommunication 
is dramatically reduced.
    PLCT has been used extensively for several years on the two major 
Canadian railroads, numerous U.S. non-Class I railroads, and many 
private industrial U.S. railroads. It is now being put to use on U.S. 
Class I railroads. Where used, it has proven to be significantly safer 
and more efficient than conventional operations. On the Canadian 
National Railway (CN), PLCT has been used since 1989 and is now used 
for almost half of the railroad's Canadian yard operations. At CN, 
accident rates from the 1997-2001 period for yard operations using PLCT 
were 44 percent lower than the rates for yard operations using 
conventional technology, and no accidents have been attributed to the 
PLCT system itself. On Canadian Pacific (CP), which has used PLCT since 
1994, the rate of yard accidents under PLCT has been about one-third 
that of conventional technology. Yard accidents on CP have fallen some 
70 percent since the introduction of PLCT.
    In February 2001, the FRA released guidelines addressing PLCT 
design, operation, training, and inspection and testing. As with other 
aspects of railroad operations, the FRA will retain authority over the 
safe operation of PLCT systems. The rail industry has developed a 
comprehensive training program for PLCT operators, who are certified 
pursuant to FRA-approved certification programs. PLCT equipment will be 
inspected daily and will not be used on passenger trains.
5. Railroads work diligently to ensure the safety of hazmat transport.
    Thanks to massive infrastructure and equipment investments, safer 
operating procedures, freight car design improvements, and other 
factors, railroads have an excellent--and improving--hazmat safety 
record. In fact, railroads are by far the safest way to transport 
hazardous materials.
    Approximately 1.7 million carloads of hazardous materials are 
transported by rail each year--double the number handled in 1980--and 
99.996 percent of rail hazmat shipments reach their final destination 
without a release caused by an accident. Based on U.S. DOT data, in 
2000 there was a release of hazardous materials from a rail car in a 
train accident only once for every 48,000 cars shipped. Railroads have 
reduced overall hazmat accident rates by 86 percent since 1980 and by 
26 percent since 1990.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is a far greater chance of hazmat release when materials are 
shipped by truck than by rail. Freight railroads have less than seven 
percent of the hazmat incidents that trucks do, despite having roughly 
equal hazmat ton-mileage.
    Railroads pursue a wide array of efforts to ensure the safety of 
hazmat transport by rail. These efforts include rigorous tank car 
quality assurance programs, field testing, and inspections of chemical 
loading facilities; cooperative outreach programs with chemical 
companies to assist communities in developing and evaluating emergency 
response plans; hazmat training for emergency responders from municipal 
fire departments, chemical shippers, and others; and support for 
Operation Respond, a nonprofit institute devoted to improving the 
communication of emergency response information to police and fire 
departments. The value of these efforts is manifest by the fact that in 
the ten years from 1992 to 2001, only three persons died because of 
exposure to hazardous materials in rail transportation, according to 
the Research and Special Programs Administration of the U.S. DOT.
    Trains containing specific amounts of the most hazardous materials 
transported by rail--referred to as ``key trains''--are subject to 
special speed limits, passing restrictions, and inspection 
requirements. Railroads increase track inspections, training, and 
installations of hot box detectors on routes over which key trains 
operate.
    Tank cars, which transport most hazardous materials, must meet 
stringent U.S. DOT specifications if used to transport hazardous 
materials. For example, they must be equipped with pressure relief 
devices (to protect the tank in the event of fire), double shelf 
couplers (designed to prevent tank punctures by a coupler), and steel 
``head shields'' at each end of the car (intended as further protection 
against puncture). Some cars also have thermal shields, jacketed 
insulation systems, and protected top and bottom fittings.
    AAR and the railway supply industry jointly fund the Tank Car 
Safety Research and Test Project. This project monitors tank car 
accidents and is continually updating a comprehensive database on the 
precise nature of damage to tank cars. Analysis of these data better 
enables researchers to identify the causes of tank car releases and 
determine the effectiveness of options to further improve tank car 
safety. The project database is often cited by the U.S. DOT as a role 
model for other modes of transportation.
    In addition to its ongoing safety data collection and analysis 
activities, the project also has a number of ongoing research efforts, 
including efforts aimed at developing better steels for tank cars and 
developing a method for testing the effectiveness of surge suppression 
devices for tank cars. (Surge suppression devices reduce the movement 
of tank car liquids accompanying freight car acceleration and 
deceleration, which can lead to releases during transportation.)
    To help protect their employees and the communities they serve, 
railroads offer basic hazardous material awareness training to all 
employees. Employees learn to recognize a hazmat emergency, whom to 
contact in an emergency, and proper evacuation procedures. Rail 
employees responsible for emergency hazmat response efforts receive 
much more in-depth training. Emergency response should be left to those 
specialized employees and contractors who are trained and equipped for 
this highly technical and dangerous work. Non-trained employees are 
expected to notify appropriate authorities, then move to a safe area 
while highly-trained specialists respond to the emergency.
6. Railroads work constantly to assure rail safety through rigorous 
        management of the AAR's Interchange Rules.
    The AAR's Interchange Rules are a series of requirements and 
specifications for freight railroad equipment. Extending far beyond 
federal requirements, the rules apply in the United States, Canada, and 
Mexico to equipment moving from one railroad to another. The rules help 
assure railroads, and the public at large, that rail equipment is 
interoperable and safe to operate. Virtually all freight railroads and 
all rail car owners in the United States have agreed to abide by the 
rules.
    In addition to equipment standards, the Interchange Rules contain 
quality assurance requirements for manufacturers of freight equipment 
and components. AAR inspectors monitor compliance with the rules and 
the quality assurance program, and mechanisms are in place to enforce 
the rules.
    An important feature of the Interchange Rules is the Early Warning 
System. The rules require railroads and car owners to notify the AAR if 
they discover a critical safety defect that, if not corrected, could 
result in severe injury or damage. If such a defect is found, the AAR 
will issue an Early Warning requiring all railroads and car owners to 
take appropriate action--for example, stopping cars and making repairs, 
if necessary. Railroads and car owners are required to report to the 
AAR action taken with respect to cars covered by an Early Warning. An 
example of an Early Warning is attached as Appendix A.
7. Railroads cooperate with their employees to improve safety.
    Railroads are constantly working to develop cooperative 
relationships with their employees to enhance safety. Cooperative 
efforts aimed at combating worker fatigue were noted above. Another 
example is the Switching Operations Fatalities Analysis (SOFA) Working 
Group.
    The SOFA group was formed in February 1998 to develop 
recommendations to reduce fatalities in switching operations. Along 
with the FRA, the AAR, BLE, UTU, and the American Short Line and 
Regional Railroad Association participate. After analyzing incident 
data, in 1999 the working group made five recommendations covering the 
securing of equipment while crew members are working on rolling stock, 
protection for train crews where two or more crews are working on the 
same tracks, job briefings at the beginning of tours of duty, 
communication between crew members when controlling train movements, 
and additional training for crew members with less than one year of 
experience. These recommendations have now been fully implemented by 
the railroad industry, and early results are encouraging. The SOFA 
group continues to meet to identify additional measures that can be 
taken to reduce the number of accidents involving railroad switching 
operations.
8. Railroads favor alternatives to the costly, anachronistic rail 
        workers' injury compensation system.
    Under the Federal Employers' Liability Act (FELA), which covers 
rail industry employees, employer liability for workplace injuries is 
predicated on fault. If the employer is found to be at fault, it is 
liable for damages. If the employee is also found to be at fault, 
compensation is reduced proportionately. Virtually all other workers in 
the United States are covered by no-fault workers' compensation 
systems, under which they are compensated for work-related injuries 
without regard to negligence.
    From a safety perspective, FELA is counterproductive. It creates a 
highly adversarial relationship in the workplace--since both sides must 
seek to place blame on the other--thereby hampering the railroads' 
ability to investigate accidents to determine their causes, an 
essential step to finding ways to prevent future accidents.
    Just as rail labor and management worked together to reform the 
railroad retirement system, AAR hopes that rail labor and management 
can work together to replace FELA with a more effective workers' 
compensation system that fairly compensates injured employees while 
reducing costs and enhancing safety.
9. Railroads advocate the adoption of performance standards in place of 
        rigid design-based rules to regulate rail safety.
    There are two general approaches to workplace safety regulation: 
design-based standards and performance standards.
    Design-based standards specify the precise characteristics of 
facilities, equipment, and processes a firm must use in the manufacture 
and delivery of its product or service. The FRA relies overwhelmingly 
on design-based standards in its regulation of railroad safety.
    Design-based standards are costly for both railroads and the FRA to 
administer and maintain. They also tend to impede innovation because 
they ``lock in'' existing designs, technology, and ways of thinking. 
The infamous discolored wheel rule provides a classic example of a 
regulation that discourages the use of new technology. For many years, 
this FRA rule required railroads to remove wheels that showed four or 
more inches of discoloration, then thought to portend possible wheel 
failure. However, research in the 1980s demonstrated conclusively that 
discoloration in the newer heat-treated, curved plate wheels did not 
portend failure. Despite this evidence, the FRA took more than a decade 
to exempt such wheels from the requirement, during which railroads were 
forced to discard these perfectly safe wheels at a cost that reached 
$100 million per year.
    In contrast to design-based standards, performance-based standards 
define the desired result rather than mandating the precise 
characteristics that a workplace must exhibit. Performance-based goals 
focus attention and effort on the outcome, not the method. The railroad 
industry believes that performance standards are far more likely to 
have a positive impact on railroad safety than continued reliance on 
design-based standards.
    Under a rail safety regime based on performance standards, each 
railroad would have annual goals for train safety (e.g., accidents per 
million train-miles) and employee safety (e.g., injuries per 100 
employees) as part of a comprehensive risk management plan, based on 
targets established by the industry and approved by the FRA. If a 
railroad failed to meet these goals, it would come under increased FRA 
scrutiny, be required to specify measures it would take to correct the 
problems, and eventually be subject to monetary penalties. The FRA 
would retain the power to conduct safety audits and to impose emergency 
directives at any time to protect public safety.
    Risk-based performance standards represent a reform, not an 
abandonment, of safety regulation. Except in emergencies or after 
continued failure to meet targets, the FRA would no longer specify how 
a railroad would achieve its safety goals. Instead, the FRA would 
oversee and validate the goal-setting process, ensure that the measures 
and data are accurate, and impose any necessary sanctions.
    Under safety performance standards, railroads would have the 
opportunity and incentive to achieve the desired outcome in the most 
efficient way possible. Performance standards would rely on the 
superior knowledge railroads and rail employees have regarding their 
operations, and would give railroads the discretion to experiment with 
new technologies and processes to improve safety. The result would be 
superior safety performance at a lower cost to railroads and their 
customers.
10. Railroads have taken proactive steps to increase the security of 
        our nation's rail network.
    Safety through security has become a major priority for the 
railroad industry. Immediately after the events of September 11, 2001, 
the railroad industry began developing a comprehensive Terrorism Risk 
Analysis and Security Management Plan. The industry formed a security 
task force composed of railroad representatives with expertise in areas 
such as operations, legal issues, railroad police activities, hazardous 
materials transportation, and information technology. Outside 
consultants with expertise in intelligence and counter-terrorism were 
retained to provide advice on best practices.
    The task force created five Critical Action Teams addressing 
hazardous materials, operations security, infrastructure, information 
technology and communications, and military liaison. The task force 
undertook a comprehensive risk analysis which identified critical 
assets, vulnerabilities, and threats, and assessed the overall risk to 
people, national security, and the nation's economy. The task force 
then identified more than 50 countermeasures. The Terrorism Risk 
Analysis and Security Management Plan, which is now in effect, puts all 
this information together and establishes four different alert levels, 
with implementation of specific countermeasures dependent on the alert 
level in effect.
    The plan also provides for the establishment of a Railway Alert 
Network (RAN), a 24-hours-a-day, 7-days-a-week communications center 
operated by the AAR. Through the RAN, railroads share information with 
our nation's intelligence community. In addition, the RAN provides a 
means for instituting appropriate alert levels and begin taking 
appropriate countermeasures.
    The AAR also operates the Surface Transportation Information 
Sharing and Analysis Center (ST-ISAC). Presidential Decision Directive 
63 called for the creation of private sector ISACs to protect the 
nation's critical infrastructure from attack. The ST-ISAC, formed at 
the request of the U.S. DOT, collects, analyzes, and distributes 
security information from worldwide resources to protect vital 
information technology systems from attack. The ST-ISAC also operates 
24-hours-a-day, 7-days-a-week.
    Finally, let me add that FRA safety programs should be funded 
through general appropriations, not by reimposing safety ``user fees'' 
on railroads. Proposed FRA fees are a form of tax that other industries 
do not pay. Firms whose safety is regulated by the Occupational Safety 
and Health Administration (OSHA) do not pay fees to that agency for its 
safety regulation. Equity demands that railroads not pay fees to the 
FRA to cover the FRA's safety regulation. Their imposition would 
constitute a shift to private industry of the costs of government 
regulation to achieve public goals. They would increase rail industry 
costs substantially, but would not enhance railroad safety.
    Thank you for the opportunity to testify on this critical topic. 
The railroad industry looks forward to working with Congress, the FRA, 
its customers, its employees, and others to ensure that rail safety 
continues to improve.
                                 ______
                                 
                                                 Appendix A
                   Association of American Railroads
                             Early Warning
                             June 11, 2001
                                EW-5180
Subject: Ladder Pan Support Stiffeners on CN Multi-Levels

To: MEMBERS AND PRIVATE CAR OWNERS

File Number: c-9326

    Canadian National Railways has advised that 68 CN multi-level racks 
receiving AAR Specification M-941 end enclosure modifications in 2000 
had the ladder pan support stiffener coped to allow door clearance. The 
coping is not a requirement of Specification M-941 and has subsequently 
weakened this area of the rack. Such a condition may result in the 
ladder pan support stiffener cracking and this could propagate into the 
ladder pan support, eventually causing a complete separation. If the 
ladder pan support and stiffener break the ladder pan could become 
separated from the rack structure. In accordance with UMLER-TRAIN II 
procedures in effect May 1, 1994 this Early Warning is assigned 
Severity Code ``MD''--Withhold empty car from loading, contact owner 
for disposition. The end ladder pan area (4 corners of the rack) on 
these bi-level cars (a photograph of a side view of the ladder pan 
support and stiffener is appended to this Early Warning) should be 
inspected. If the car is safe to move, home: shop disposition should be 
requested from CN. If the car is not safe to move, perform temporary 
repairs and then request home shop disposition from CN. Home shop 
disposition may be obtained by contacting: Ms. Christine Carrier 
Canadian National Railways AAR Billing 935 de La Gauchetiere St. West 
Montreal, QC, H3B 2M9 Ph. 514-399-3738 Fax. 514-399-4941 Email 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e6d465c475d5a47404b006d4f5c5c474b5c6e4d40004d4f">[email&#160;protected]</a> Cars inspected and sent to home shop should be 
reported to the RAILINC UMLER Section via on-line processes, e-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="40352d2c2532003221292c292e236e232f2d">[email&#160;protected]</a>, or FAX: (919) 651-5405 as Code ME--Car Inspected, 
MOVING TO SHOP. Note: Until cars are unloaded, inspected and routed to 
shop, caution should be exercised on loaded cars by unloading personnel 
and M&R pool repair personnel.
    In accordance with AAR Interchange Rule 125 procedures in effect 
July 22, 2002, this Early Warning is assigned SEVERITY CODE: 04-
Withhold empty car from loading-contact owner

Equipment Attachments

http://ewguest:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1466757d787d7a775422203a2c243a2d2c3a252220">[email&#160;protected]</a>:8080/5180

Assignment Marks associated with this notice:

AAR Only

Inspection Marks associated with this notice:

Open

Allowable Final Inspection Codes Associated with this Notice:

MH-Car repaired, return car to service

MR-Car inspected, return car to service

Mechanical Designations Associated with this Notice:

No Mechanical Designations Specified

Early Warning EW-5180 will expire on June 11, 2003

    Senator Breaux. Mr. Hahs.

STATEMENT OF DON M. HAHS, INTERNATIONAL PRESIDENT, BROTHERHOOD 
                    OF LOCOMOTIVE ENGINEERS

    Mr. Hahs. Good morning, Mr. Chairman, members of the 
Committee. In the interests of time, my comments will be a 
brief summary of our written position. It is an honor for me to 
testify today on rail safety, and particularly on fatigue 
experience by locomotive engineers and other works in the rail 
industry, a subject of great concern to this country and all 
employees on the Nation's railroads.
    The BLE represents 59,000 professional locomotive engineers 
and other rail workers in the United States and Canada. I am 
also representing the interests of more than 30 labor unions 
belonging to the AFL-CIO Transportation Trades Department. The 
headline-grabbing railroad accidents in the past several months 
unfortunately provide us an unwelcome opportunity to reiterate 
our concern with the current level of safety practice in the 
railroad industry.
    First and foremost, we extend our heartfelt sympathies to 
all those impacted by these tragic events. The BLE lost one of 
its own members, Mr. Gaylen D. Shelby of Lubbock, Texas, in a 
fatal wreck in May of this year. Sadly, Mr. Shelby is the 27th 
member of the Brotherhood of Locomotive Engineers killed in on-
the-job accidents since 1996.
    The headlines of these stories describing these 
transportation disasters must always be viewed as opportunities 
to learn so that they might be avoided in the future. Our 
members are active participants in investigations being 
conducted by the NTSB, and for that reason I will not comment 
specifically on open investigations.
    It is well-documented in the rail industry that the 
likelihood of accidents and injuries increases when employees 
are fatigued. Federal regulations limit the number of hours 
that employees in various transportation modes can work in 1 
month. For example, a commercial airline pilot can fly no more 
than 100 hours per month, a truck driver can drive no more than 
260 hours per month, but railroad operating employees under 
existing Federal regulations can work up to 432 hours per 
month.
    The BLE advocates a solution of eliminating fatigue-related 
accidents in the rail industry that combines scientific 
knowledge about fatigue and what the brotherhood's 139 years of 
experience in operating trains have taught us. BLE advocates a 
three-pronged approach to eliminating fatigue, education, 
information, and empowerment.
    The most important of the three is empowerment that will 
give employees a demand right to absent themselves from work if 
they are fatigued from previous service, or if they are ill. We 
request congressional leadership to bring us together to 
achieve this with a goal of eliminating fatigue as to factors 
in rail accidents.
    Contributing to fatigue among rail operating employees and 
all employees in the railroad industry is a problem associated 
with staffing to do the work of keeping the railroads safe. 
Employees are continually being required to do more with less 
staff. This staffing shortage contributes to the core problem 
of rail safety. Currently, employees in signal, track 
maintenance, and track inspection, and in many cases operating, 
are stretched to their limits.
    Insofar as remote control technology is concerned, PLCT and 
yard service is concerned, we are not convinced at this time 
that accident statistics provided by salesmen are entirely 
accurate, and we reserve the right to provide additional 
written documentation on this subject at a later time. However, 
the Brotherhood of Locomotive Engineers has long supported 
positive train separation as a major part of railroad safety. 
Positive train control can act as a guardian angel to protect 
the lives of train crews.
    As we have been told, PTC has been on the National 
Transportation Board's 10 most wanted list for over 10 years, 
the safety improvements for that time. The fact of the matter 
is that several accidents could have been prevented and many 
lives could have been saved had positive train control been 
implemented sooner. Rail labor recognizes the difficulty 
involved in deploying a sophisticated technology such as PTC, 
and therefore recommends a reasonable approach must be taken to 
achieve an orderly cost-effective implementation of PTC 
technology.
    On the final note, I want to express rail labor's support 
for Amtrak by urging Congress to support its short-term funding 
and long-term survival. As Americans, we need to fund Amtrak to 
make the promise of high speed rail a reality. Amtrak should be 
funded to the extent that America funds our Nation's highways 
and airports, make rail passenger service a viable alternative. 
With the volatile situation in the Middle East, we may soon 
find ourselves over the OPEC oil barrel again.
    I thank you for the opportunity to speak today, and welcome 
any questions you may have.
    [The prepared statement of Mr. Hahs follows:]

      Prepared Statement of Don M. Hahs, International President, 
                  Brotherhood of Locomotive Engineers
    Good Morning, Mr. Chairman and members of the Committee. It is an 
honor for me to testify today on rail safety and particularly, on the 
fatigue experienced by locomotive engineers and other workers in the 
railroad industry, a subject of great concern to this country and to 
all employees of the nation's railroads. My name is Don Hahs, and I am 
the International President of the Brotherhood of Locomotive Engineers. 
The BLE represents 59,000 professional locomotive engineers and other 
rail workers in the United States and Canada. I am also representing 
the interests of more than 30 labor unions belonging to the AFL-CIO's 
Transportation Trades Department. The headline-grabbing railroad 
incidents of the past several months, unfortunately, provide us an 
unwelcome opportunity to reiterate our concern with the current level 
of safety practices in the railroad industry. First and foremost we 
extend our heartfelt sympathies to all those impacted by these tragic 
events. The BLE lost one of its own members--Gaylen D. Shelby of 
Lubbock, Texas--in a fatal wreck on May 28. Sadly, Mr. Shelby is the 
27th member of the Brotherhood of Locomotive Engineers killed in an on-
the-job accident since 1996. The headlines and the stories describing 
these transportation disasters must always be viewed as opportunities 
to learn so that they might be avoided in the future. Our members are 
active participants in investigations being conducted by NTSB, and for 
that reason, I will not comment specifically on open accident 
investigations.
Rail Safety and Infrastructure
    The link to rail safety and the economic health of a railroad is 
undeniable. On June, 2002, in testimony delivered by Mr. Dan Pickett, 
President of the Brotherhood of Railroad Signalmen, rail labor stated 
its support for the U.S. House of Representatives, Committee on 
Transportation and Infrastructure's commitment to improve the safety of 
railroads as demonstrated by their comprehensive and visionary 
legislative agenda. The Committee's goal to provide capital in the 
railroad industry for maintenance, expansion, and improvements for 
infrastructure is commendable and recognizes this vital link between 
safety and rail infrastructure.
Fatigue
    It is well documented in the rail industry that the likelihood of 
accidents and injuries increases when employees are fatigued. No rail 
safety initiative would be complete without proper fatigue 
countermeasures, which must take into consideration the fact that not 
all persons, nor railroad operations, require the same solutions for 
remedy. Some rail operators, for example, are motivated to work for 
long periods of time and experience no negative effects, while others 
will tire quickly depending on the cycles over which they work and how 
the cumulative effects of sleep deprivation may take its toll. As a 
threshold position to any fatigue management plan it should be 
understood that workers must not be subject to an involuntary reduction 
of earnings.
    Federal regulations limit the number of hours that employees in the 
various transportation industries can work in one month. However, the 
limits vary from one mode of transportation to another, putting 
locomotive engineers at a higher risk of fatigue than almost any other 
worker in the nation. For example, a commercial airline pilot can fly 
no more than 100 hours per month. A truck driver can drive no more than 
260 hours per month. But, railroad operating employees under existing 
federal regulations, can work up to 432 hours per month.
Hours of Service for operating employees
    Significant changes have occurred over the last 15 years in our 
industry and these changes have had a negative impact on the ability to 
go to work rested. Some of those changes include fewer operating 
employees sharing greater responsibility for longer and heavier trains. 
Scheduled trains and thus scheduled crews are rare. Dispatching of 
trains from centralized offices has resulted in prioritizing train 
movement on the basis of the crew's time remaining to work, fuel 
efficiency, and congestion avoidance. Trips are longer and the 
territory over which a locomotive engineer operates has expanded. The 
long commute times required of workers have negatively impacted the 
little rest time they are allowed under the existing law. And, 
centralized crew calling operations have become automated and our 
members find it difficult to get the required information to determine 
an accurate prediction of their next duty assignment, thus impairing 
their ability to achieve required rest. We propose that one solution to 
this chronic transportation problem is to actually reduce the exposure 
to the total number of hours an employee must work or is susceptible to 
interruptions of rest by our employers. The BLE is advocating a 21st 
century solution to eliminate fatigue-related accidents in the railroad 
industry, a solution that combines scientific knowledge about fatigue 
with our Brotherhood's 139 years of experience in operating trains.
BLE advocates a three-pronged approach to eliminate fatigue_education, 
        information and empowerment.
    Education of workers is key. Education incorporates knowledge of 
the body's circadian rhythms, knowledge of work/rest cycles, knowledge 
of split shifts, knowledge of backwards and forwards shift rotation, 
knowledge of sleep requirements, and knowledge of peer intervention and 
counseling.
    Information incorporates labor and management working together to 
exchange information about conditions that can contribute to fatigue, 
such as lineups, call notification, and traffic patterns. The BLE 
believes that the current chaotic scheduling practices contribute 
greatly to locomotive engineer fatigue and railroads, operating 
employees and the government must work together to help solve the 
problem.
    Empowerment--authentic employee empowerment--incorporates labor 
working together with management and government to develop a structure 
that empowers workers to remove themselves if they are unfit to work 
because of fatigue or illness. It also incorporates giving all workers 
the right and responsibility to assist other workers to understand and 
deal with their fatigue.
    The belief is that our safety depends on our mutual alertness. 
Railroad employees are in the best position to observe when one of our 
own--because of fatigue--cannot fulfill their obligation to be alert. 
We see the elimination of fatigue as a cultural change in the industry, 
and this cultural change must be driven by fellow workers. However, we 
need Congress to give us the tools to do it.
    In order to address fatigue in a scientific manner that draws on 
current research, experiences of other transportation modes in the 
United States, and the political realities of the stakeholders, we 
request Congressional leadership to bring us together to achieve the 
worthy goal of eliminating fatigue as a factor in rail accidents. 
Absent satisfactory resolution for the implementation of this proposal 
in a collaborative process, Congress should act to:

   Require the Secretary of Transportation to:

     1) Issue a regulation within 180 days to require that:

         No railroad employee shall operate railroad equipment, and a 
            Railroad shall not require or permit an employee to operate 
            railroad equipment, while the employee's ability or 
            alertness is so impaired, or so likely to become impaired, 
            through fatigue, illness, or any other cause, as to make it 
            unsafe for him/her to begin or continue to operate the 
            railroad equipment. However, in a case of grave emergency 
            where the hazard to rail operations would be increased by 
            compliance with this section, the railroad employee may 
            continue to operate the equipment to the nearest place at 
            which that hazard is removed.

         For the purpose of this regulation, an employee having worked 
            a minimum of 20 starts(equivalent to 2680 miles) of Hours 
            of Service duty in the previous thirty days, or five starts 
            (equivalent to 650 miles) in a seven day period, and 
            requesting relief for fatigue will have met a definition of 
            fatigue. A ``start'' is defined as any work period that 
            requires a corresponding rest period as prescribed by 49 
            CFR Ch.II Part 228 Hours of Service of Railroad Employees.

         For the purpose of this regulation ``illness or any other 
            cause'' may include prescription and/or over the counter 
            medication that may impair the employees ability or 
            alertness.

    This regulation is taken from 49 CFR 392.3, a Federal regulation 
implemented in the 1970's for the commercial trucking industry. The 
approach advocated by the BLE is desirable for the following reasons:

  <bullet>  It builds on the partnership principles between the 
        railroads, labor, and government to develop a real solution to 
        cumulative fatigue--more rest for the individual affected by 
        erratic work scheduling.

  <bullet>  The regulation was modified to incorporate issues and 
        history particular to the railroad industry.

  <bullet>  The suggested process also was effectively used to promote 
        change in the aviation industry.

  <bullet>  The regulation is attainable within the constraints of the 
        Hours of Service and existing FRA authority.

  <bullet>  It incorporates the desire for regulatory change voiced by 
        the NTSB recommendations.

  <bullet>  The regulation builds on the use of education by empowering 
        individuals to apply the knowledge learned from fatigue 
        research. It does no good to know you must take time off, if 
        the system arbitrarily restricts that off duty time.

  <bullet>  From the railroads' perspective, this proposal creates a 
        minimum definition before fatigue is claimed. From this 
        definition, the railroad would be able to project possible 
        manpower shortages with a consistent standard in place. The 
        railroads could plan and schedule both train movements and 
        staffing requirements from the information this regulation 
        would generate.

  <bullet>  The regulation would compliment the existing Hours of 
        Service Law, and make the industry safer.

    For the employee, this regulation empowers the worker to take 
control of his or her own rest and revitalization. For the majority of 
workers, this recommendation would widen the safety net for workers 
suffering from fatigue. BLE has given careful consideration to our 
responsibilities to the carriers, our fellow workers, and the public 
and we believe acceptance of responsibility for fatigue management is 
incumbent on all parties. To that extent the BLE commits to do all 
within our power to educate our members and other railroad employees of 
the provisions of this proposal.
Signalmen, Maintenance of Way Staffing Issues
    Contributing to fatigue among all railroad employees, is the 
problem associated with sufficient staffing to do the work of keeping 
the railroads safe. This absence of rested workers goes to the core of 
the problem of rail safety. There has been a mass exodus of workers 
taking advantage of early retirement legislation, passed in the form of 
the Railroad Retirement and Survivors' Improvement Act of 2001. Members 
of AFL-CIO affiliated unions, including the Brotherhood of Railroad 
Signalmen, will face increased responsibilities until the railroads get 
staffing to adequate, pre-legislation levels--especially in the area of 
signal maintenance. Currently, maintenance levels are stretched to 
their limits. Staffing levels are expected to be reduced by an 
additional 5 to 20 percent while the remaining 80 to 95 percent of the 
employees are required to handle the increased work load. This is 
unsafe and unacceptable.
    My brothers and sisters in another AFL-CIO affiliated union, the 
Brotherhood of Maintenance of Way Employees (BMWE), are facing similar 
problems. Members of the BMWE build, maintain, inspect, and repair the 
tracks, bridges and related railroad infrastructure on Class I 
railroads in the United States and Canada. Over the past several 
decades, there has been a precipitous drop in the number of maintenance 
of way workers nationwide. While some of this manpower decline can be 
attributed to technological advances in track maintenance equipment and 
work processes, and while part of the decline can be attributed to the 
early retirement legislation, a majority of these cuts are attributable 
to lay-offs, furloughs, and lack of hiring. Like I mentioned in regard 
to signal staffing, we strongly believe the industry has cut its track 
maintenance forces too deep and there are not enough track maintenance 
personnel to stay ahead of declining track conditions.
    In the past 15 years, staffing levels in the maintenance of way 
field has declined more than 40 percent on our nation's railroads. BMWE 
records indicate a full 50% reduction in maintenance of way staffing 
over the past 20 years.
    Clearly, this type of precipitous decline in track maintenance 
personnel has a direct and substantial effect on track safety and the 
overall condition of the nation's railroad infrastructure. While, in 
general terms, the roadbed does not deteriorate overnight, we do 
believe that we are beginning to see adverse affects of reduced 
staffing and deferred track maintenance. Rail labor is concerned that 
until we reverse this dangerous trend and put more maintenance 
personnel out on the right-of-way, things will continue to deteriorate 
exponentially.
    We can look to Federal Railroad Administration for data, which 
indicates an alarming trend in track-caused derailments. In 1999, main 
line reportable train accidents numbered 858 and the main line 
normalized accident rate was 1.37. In 2001, main line reportable train 
accidents numbered 1,026 and the normalized main line accident rate 
climbed to 1.64. In 1999, reportable yard train accidents numbered 
1,531 with a normalized yard accident rate of 17.51. In 2001, 
reportable yard accidents numbered 1,517 and the normalized yard 
accident rate increased to 17.72.
    The spike in track caused derailments is not a statistical 
aberration, but rather, it indicates a definite systemic trend. Let's 
compare the overall number of track caused reportable accidents in the 
five year period from 1997 to 2001. In 1997 there were 879 reportable 
track-caused accidents overall(main line, yard and other), in 2001 that 
number increased to 1,115 track-caused accidents. The normalized 
overall track-caused train accident rate increased from 1.3 to 1.57 
during the same five-year period. To break this down further, in 1997 
the main line track-caused reportable accident rate was 0.58. In 2001 
the main line track-caused rate increased to 0.62, the highest rate 
since 1997. In yards, the track-caused reportable accident rate in 1997 
was 4.63, while in 2001 it increased to 6.22.
    Clearly, these alarming statistics prove beyond any doubt that the 
train accident rates and track-caused accident rates are moving in the 
wrong direction and changes have to be implemented now to prevent 
greater deterioration of the roadbed and rail safety in the near-term 
future. The fix to this escalating infrastructure problem is within 
reach. Increase track maintenance staffing levels to facilitate pro-
active track maintenance and repair, improve employee training, develop 
more thorough track inspection and defect repair procedures, and 
improve conditions under which track inspections are conducted. These 
are the steps necessary to reverse the dangerous trend of deteriorating 
track conditions, escalating train accident rates, and track related 
railroad accidents.
Track Inspector Staffing
    With regard to track inspection, responsible modification of track 
inspection processes and procedures is also essential to improving 
track safety. The amount of territory a track inspector is responsible 
to inspect on a weekly basis is overwhelmingly too large. FRA confirmed 
this in its audit report entitled ``CSX Track Audit 2000.'' A pertinent 
excerpt from that report states, in part:

        Recently, CSX management has reduced the number of track 
        inspector positions at a vast majority of their divisions and 
        system wide. At the same time, CSXT has increased the track 
        inspectors' territories at numerous locations. During listening 
        sessions conducted with BMWE employees and first line 
        supervisors, both voiced their concerns relative to the size of 
        the inspection territories and the work requirements placed on 
        the inspectors.

    Track inspectors are highly skilled and dedicated employees on the 
front line of railroad safety. Track inspectors are required by Federal 
law to inspect track at certain frequencies, however, Federal law does 
not place any meaningful limits on the length of an inspector's 
territory or the speed over which the territory may be inspected. This 
problem has been exacerbated in recent years by manpower shortages, 
which places a heavier burden on the track inspector. In years past, 
track inspectors often had local maintenance crews available to correct 
track deficiencies as they were found and reported by the inspector. 
Today, however, the cut-backs in manpower have left many inspectors 
with no maintenance crews to facilitate repairs of identified track 
defects. In these situations, the track inspector is required to stop 
the inspection to effectuate the repair personally. This practice 
severely limits the time an inspector has to dedicate to the 
performance of actual track inspection, and he or she often has no 
other recourse except to make up that time by finishing the inspection 
of the territory at a speed which is not necessarily conducive to 
quality inspections. Thus, as stated previously, we believe that the 
industry must restore the ranks of local track maintenance forces to 
facilitate the timely repair of track defects and provide greater 
attention to problem areas before they become defects which can 
adversely affect railroad safety and the safe passage of trains.
    Additionally, the re-establishment of rail safety user fees to pay 
for additional rail safety inspectors should be on the table. 
Furthermore, we believe that rail safety would benefit if some of those 
inspectors had specific training in computer technology, locomotive 
electronics, and train control.
Enhanced Coverage of the Hours of Service Act
    It has been an unfortunate trend in the railroad industry that 
workers employed by outside contractors perform the same work as 
railroad employees. Although both groups are subject to the same 
hazards and have the same potential impact on public safety, the Hours 
of Service Act applies only to rail workers. The Act, 49 U.S.C. 
Sec. 21101-21108, should be extended to cover contractor's forces and 
certain other groups as follows:

  <bullet>  All employees of a contractor to a railroad, including 
        employees of a sub-contractor to a railroad contractor, 
        performing a covered service, as well as any individual who 
        directly supervises an individual engaged in those activities;

  <bullet>  Power Directors, defined as railroad or contractor 
        employees who affect the movement of trains through control of 
        third rail or pantographic electric power, including persons 
        who otherwise supervise, direct, connect, disconnect, or 
        sectionalize power distribution for the electric propulsion of 
        trains and/or for the protection of persons engaged in work on 
        or in proximity to the power distribution system; and

  <bullet>  Dually Employed Persons, meaning persons at the same time 
        in the employ of two or more railroad carriers, contractors or 
        sub-contractors, or a combination thereof.
Enhance Rail Safety Enforcement
    Rail labor believes rail safety would benefit from changes in law 
to:

  <bullet>  Extend the prohibition against employee harassment, 
        intimidation and job retaliation to include railroad employees 
        who step forward to file a complaint or testify in legal or 
        regulatory action against the railroad;

  <bullet>  Enact new provisions making it unlawful for any person to 
        knowingly interfere with, obstruct or hamper a railroad safety 
        investigation, or knowingly or intentionally to use 
        intimidation, harassment, or threats to influence the testimony 
        of any person or prevent a person from attending such 
        investigation. Both civil and criminal penalties should be 
        imposed for violations;

  <bullet>  To ensure accountability for the safe operation and 
        maintenance of railroad equipment and facilities, create a 
        certification program for personnel with safety 
        responsibilities that would include engineers, carmen, 
        mechanics, signalmen and track inspectors;

  <bullet>  Direct the Department of Transportation to develop model 
        state legislation to penalize drivers who maneuver around grade 
        crossing gates;

  <bullet>  Require establishment of notification systems utilizing 
        toll-free telephone numbers that the public can use to convey 
        to carriers information about malfunctions of automated warning 
        devices or other safety problems at highway-rail grade 
        crossings;

  <bullet>  Amend 49 U.S.C. Sec. 20142 to direct the Secretary to issue 
        rules requiring that no visual track inspection be conducted 
        from a vehicle traveling at a speed of more than 15 miles per 
        hour; and,

  <bullet>  Make provisions requiring all track motor vehicles, self-
        propelled maintenance of way equipment, and other equipment 
        which is designed with permanent or retractable flanged wheels, 
        to be designed and maintained so as to conduct electrical 
        current from one rail of the track to the other. This will 
        activate signal systems designed to detect the presence of 
        locomotives, cars, trains, and other rolling equipment on the 
        track.
Positive Train Control
    The Brotherhood of Locomotive Engineers has long supported positive 
train separation as a major part of railroad safety. Positive Train 
Control can act as a ``guardian angel'' to protect the lives of train 
crews. PTC has been on the National Transportation Safety Board's ``10 
Most Wanted List'' of safety improvements for more than a decade. While 
progress is being made toward the implementation of positive train 
control, the fact of the matter is that several accidents could have 
been prevented and many lives could have been saved had Positive Train 
Control been implemented sooner. Rail Labor recognizes the difficulty 
involved in deploying a sophisticated technology such as PTC and 
therefore, recommends a reasonable approach must be taken to achieve an 
orderly, cost effective implementation of PTC technology.
Conclusion
    On a final note, I want to express Rail Labor's support for Amtrak 
by urging Congress to support its short-term funding and long-term 
survival. As Americans, we need to fund Amtrak to make the promise of 
high-speed rail a reality. Amtrak should be funded to the extent that 
America funds our nation's highways and airports. Make rail passenger 
service a viable alternative.
    I thank you for this opportunity to speak today and welcome any 
questions you may have.

    Senator Breaux. Thank you, Mr. Hahs, and gentlemen, for 
your presentations. Let me start.
    Mr. Gunn, you addressed the suggestion that the 
administration has made in proposing the separation of Amtrak's 
responsibility of operating the trains in the Northeast, with 
their responsibility to maintain the conditions of the right-
of-way, and you said that you believed that this would pose 
serious safety concerns. Mr. Hamberger, what are your thoughts 
on the administration's proposal to separate the maintenance of 
the track operations from the operating responsibility from 
Amtrak?
    Mr. Hamberger. I concur in Mr. Gunn's analysis. The British 
experience where there was separation of ownership was, in 
fact, a disaster. The Transportation Technology Center, Inc., a 
subsidiary of AAR, was in fact brought over to London to do an 
analysis of what happened. What was seen was that the wheel-
rail interface, which is what we are talking about here as far 
as safety, was ignored because the incentives for the operator 
and for the maintainer of the infrastructure to provide that 
interface were not the same. So we believe that it is important 
to have the vertical integration between ownership of right of 
way and the operations.
    Senator Breaux. Mr. Hahs, would you agree with that 
position?
    Mr. Hahs. I am not an expert on that. I would agree we want 
a safe railroad to operate on, and I will defer to the people 
who have more knowledge in that area than I do.
    Senator Breaux. Thank you.
    You heard the discussion that I had with the previous panel 
of witnesses with regard to the administration's proposal on 
reauthorizing the Rail Safety Act. They did not mention two 
items that everybody from NTSB's perspective thinks is very 
important dealing with rail safety, and that is the positive 
train control, the PTC systems, and the fatigue question, and 
Mr. Hahs, you have addressed the fatigue question. It is not 
even mentioned in the reauthorization request from the 
administration.
    I basically got the impression they did not do it because 
it is pretty controversial. I understand from staff that the 
fatigue hours in which rail engineers are required to work, 
that has been around for how long, since 1907, and it has not 
been updated? I mean, would you like to see a recommendation on 
this? Would your brotherhood have recommendations on it, or is 
this something we should just stay the hell out of and let 
labor and management negotiate how long you work? Do we have a 
legitimate concern about how many hours an engineer can work a 
week?
    Mr. Hahs. We would not like to see the hours of service 
opened up. We would like to work with management and with 
Congress to put protections in place and agreements in place, 
or regulations, whatever it takes to provide engineers and 
other operating employees, other people in the rail industry 
with an opportunity to get needed rest when they require it.
    Senator Breaux. Well, I take it you would agree with what 
Mr. Rutter says, Congress has no role in this.
    Mr. Hahs. Congress would have a role insofar as helping us 
reach a consensus on how we might obtain needed rest as far as 
employees are concerned. I mean, only as a mediator, I would 
think.
    Senator Breaux. Thank you. Mr. Gunn, Amtrak has positive 
train control operations on your Northeast Corridor tracks. How 
long have you all had that in operation?
    Mr. Gunn. Well, the positive train control is in effect 
from New Haven to Boston, and that was put in when they 
electrified and rebuilt the old New Haven line, and I do not 
know the exact date, but we are operating with, we call it 
ASCES between New Haven and New York. On the rest of the 
corridor we have cab signals from New York to Washington--and I 
believe we have small stretches of ASCES installed there. We 
want to install ASCES on the entire length of the Northeast 
Corridor, but our cab signal system there enforces speed down 
to, I believe it is 20 miles an hour. At that point, it stops 
enforcing the signals so that you do not have positive stop, 
and that has been there for years. We have cab signals on the 
Springfield line as well that we operate, and that is the same 
as the corridor. It enforces the speed down to, I believe, 20 
miles an hour.
    Senator Breaux. Mr. Hamberger, is it just a question of 
cost? I got the impression from NTSB the positive train control 
system should be part of the administration's recommendation, 
and I got sort of an answer from Mr. Rutter that, well, we are 
still studying it, but it has been around since the 1990's. It 
has been used in Europe. It is on some of the Amtrak lines. Is 
it not a legitimate argument to say we do not know enough about 
this to install it on trains around this country, or is it 
really just because it is going to be costly, and we do not 
want to put it in?
    Mr. Hamberger. Well, I think there are two specific 
answers. One is that, as I understand the technology that is on 
the Northeast Corridor, it is not a full-blown PTC system. It 
is a predictive braking system. It does not provide all of the 
safety benefits that a full-blown system----
    Senator Breaux. But it is 100 percent more than we have got 
any place else.
    Mr. Hamberger. It is also a very expensive system paid for 
by the Federal Government when it was put in. It is a matter of 
cost-benefit. Is that the most effective use, when only 2 
percent of all accidents are, in fact, mainline collisions? Is 
that the most effective use when you take a look at where the 
fatalities and injuries occur? Is that where the resources 
should be placed, or should they be placed on track geometry 
cars, for example?
    Senator Breaux. How about the runaway CSX train that we 
could not stop? Would a positive train control system have been 
able to stop that or not?
    Mr. Hamberger. I do not know the answer to that. I would 
point out that fortunately that did not cause----
    Senator Breaux. Well, we are all thankful that it did not, 
but the potential for a runaway train that we cannot stop, I 
mean, it seems like technology would be available to be able to 
stop a train that is running down the tracks with no engineer.
    Mr. Hamberger. I am told that PTC would not have stopped 
that train, but I would like to provide a more complete answer 
for the record.
    [The information referred to follows:]

    The train in question was actually a yard switching movement. This 
locomotive had operating brakes, but the cars that were being handled 
did not have the brakes engaged. This is a completely normal train 
operation throughout the North American rail industry. The engineer had 
applied the locomotive brakes but mistakenly opened the throttle wide 
open which overcame the braking effect on the locomotive. No system 
currently available anywhere in the world or under design would have 
prevented this unfortunate occurrence.

    Senator Breaux. I would like to know why, because that is 
part of the design, they tell me, if PTC is supposed to be 
positive train control, and that if something happens to the 
train and PTC does not do it, what the heck does it do?
    Mr. Hamberger. With your permission, Chuck Dettmann, our 
senior Executive Vice President for Safety and Operations is 
right behind me. Chuck.
    Senator Breaux. Sure.
    Mr. Dettmann. Mr. Chairman, on any of these type of 
systems, which are computer and communications based systems, 
the system has to know, just like in air traffic control, that 
the airplane, or in this case that the train, is allowed out in 
the system in order to activate all of the safety systems that 
come with positive train control.
    In the particular example of the CSX train south of Toledo, 
there was no authorization. There was no system that was set 
up, because that was a yard movement. It is just like any other 
switch engine moving around in the yards of this country that 
unfortunately got out on the main track, and without the system 
having been activated, PTC would not have stopped it.
    Senator Breaux. I appreciate that, but we have got systems 
that you can install on cars now that if someone steals your 
car, you can push a button and stop the operation of that 
automobile. It seems to me that when we are talking about 
trains, that some type of a system in today's technology ought 
to be available to have some control over a train that is 
running down the track with no one at the controls.
    I mean, positive train control systems are in place in many 
parts of the world, and yet industry seemingly is not doing 
anything, according to NTSB, to promote it. The administration 
does not want to recommend it, and yet other railroads are 
using it, but we are not.
    Mr. Dettmann. Mr. Chairman, if I may, there is no PTC 
system anywhere in this world that is working according to the 
designs that we, FRA, and the IDOT are designing in the State 
of Illinois, especially with Amtrak's help. The first one will 
be put in in Switzerland, in a 40-kilometer stretch, called 
ETCS this year at a cost of $2 million a mile. That is funded 
by the Swiss Government.
    Now, having said that, we have been working diligently--we 
have spent over $250 million of private and Federal money to 
develop a system, and the Illinois project, which will be in a 
demonstrable phase in spring of next year, with Amtrak's help, 
with the State, and with FRA, and $20 million private money put 
in, that will demonstrate the viability of bringing all of the 
communications and computer technologies together, which has 
not been done to this point, sir, and to show that this system 
will work, and then how we can make it cost-effective.
    For example, the Union Pacific, Burlington Northern, and GE 
spent $30 million in the Portland, Oregon area trying out a PTC 
system, and one of the things we found is the new generation of 
alternating current locomotives completely destroyed the 
computer and communications systems abilities to communicate 
because of the EMF that they put out. There are technical 
difficulties, Senator, that we are addressing as fast as we 
can. It is critical. We are working toward it, but there is no 
PTC system you can pick off the shelf and put into play, 
especially today, certainly not since 1990, when NTSB began 
their recommendations.
    Senator Breaux. The chief investigator of accidents is 
recommending it, it does not seem like much is being done to 
try and implement it, and they have been doing it for 12 years.
    Senator Hollings.
    The Chairman. Mr. Dettmann, let me get a fellow that knows 
this about thing. I am not talking about the PTC system. I am 
talking about the highway rail, these regular crossings, which 
at 41 percent is almost half. Now, you do not need a PTC 
system. All you need is that cross arm, and I speak advisedly. 
I made a living on you folks. That is how I got to be able to 
afford to serve in the U.S. Senate.
    Fifty years ago I got the largest rail crossing verdict in 
the history of South Carolina, and I said, all you need to do 
is put up a cross arm, and the railroads absolutely opposed it. 
I went all the way to the Public Service Commission voluntarily 
and set up a hearing, and we ordered it at the Liberty Hill 
crossing in North Charleston, $7,500. That was way cheaper than 
the $300,000. That was 50 years ago. They get millions now.
    But what about regular cross arms, protection at the 
highway crossings? That is not so sophisticated. Instead of the 
bell ringing automatically and the flashing light flashing, the 
cross arm comes down. You have got to break the arm to get up 
onto the track. That would save you a lot of lawyers and a lot 
of verdicts.
    Mr. Dettmann. Senator, if I may, the grade crossing 
protection is for the benefit of the highway population.
    The Chairman. I am talking about for the benefit of the 
railroads. I did not sue the highway. I sued the railroad.
    Mr. Dettmann. I understand that, Senator. It is the State 
authorities that determine where the available money--and we 
certainly believe in the section 130 funds you have provided 
for this work, that it is critical. We at the AAR have on our 
own begun research into new low-cost crossing warning devices 
that, admittedly they are anywhere from $1/4 million to $1 
million per installation now, to see if we can work with the 
suppliers to come up with a less costly grade crossing.
    The Chairman. Mr. Gunn, on this limited time, I am worried, 
since 1996, 27 locomotive engineers have been killed. That is 
more than four a year. That is more than the pilots. What would 
you do, he says more empowerment, but I am running a railroad. 
I do not want all my engineers coming up to me and saying, I 
don't feel well, I don't feel well, I am empowered to say I 
don't feel well. On the other hand, something is wrong with 
work rules. They have got to cut back on their fatigue somehow. 
In your experience, what would you do?
    Mr. Gunn. Well, Amtrak has a different situation to some 
extent from the freight railroads. First of all we operate a 
scheduled service, which means that our employees can, most of 
the time, plan their days off. Our policy is that--and we come 
under the hours of service law, which is now 12 hours, I 
believe, so we cannot have anybody on duty more than 12 hours.
    We have a rule that if the run is more than 6 hours, we put 
a second person in the cab. That is what we do today, and on 
the high speed trains the runs are generally, less than 4 
hours, and then the employee is off duty for a couple of hours 
until they return, so we will get two round-trips, New York to 
Washington.
    I think the most important thing to me would be schedule. 
If you can schedule employees' time so they can plan their 
lives, I think that is important. I think you would not in our 
case want somebody running a passenger train, unless it was an 
absolute emergency, for like, 12 hours, trying to sit there and 
be alert. That is asking for too much, although out West that 
will happen. If you get into a delay it can happen, but I think 
scheduling, being able to schedule your time off is important, 
and that gets to the whole issue of having the railroad in good 
shape, having a minimum number of slow orders, and being able 
to move over the road quickly to do your day's work, so that 
you can have routines and that you can plan your rest.
    The Chairman. Do you agree, Mr. Hahs?
    Mr. Hahs. Well, that is a great concept, and he is exactly 
right. If you had a scheduled operation that is the way it 
would work. You could plan your time off.
    The fact of the matter is, in the early nineties the 
railroads made a major effort to study scheduling trains, and 
they apparently have given up on it because they later in the 
nineties decided to start scheduling time off for employees and 
both have been very limited, with very limited success.
    When I said people should be empowered to mark time off, I 
did not mean you could just walk in any day. I thought you 
would have to meet a criteria where you had been previously 
taxed from service. You had to work so much in a period of 
time, and you ought to be able to request rest if you need it. 
Not everyone is the same. Some people need more rest than 
others, and yet a lot of times employees on the railroad, 
operating employees are treated like a piece of equipment. If 
you are there and you are rested and available under the Hours 
of Service Act they expect you to go to work, and it just does 
not work like that for every individual, and that is all we are 
trying to do, is get some control over our lives, and we 
believe if we could get into a situation where people could 
request rest when they meet a certain criteria, that the 
railroads may get more interested in trying to do a scheduled 
operation like we talked about to give time off.
    The Chairman. Mr. Gunn, you diverted from your prepared 
remarks, and I was impressed with everything you had to point 
out with respect to the operation of Amtrak. Look at S. 1991 
and find out where we are lacking, or wrong, or any criticism 
that you have for the Committee. We would appreciate it, 
because we work hard, and we think we have got the right 
approach, and any amendments or any suggestions that you have 
the Committee would appreciate it.
    Specifically on the contingencies on this $100 million 
loan, I want to make sure that those are eliminated. I have 
seen the comments publicly about those particular requirements 
in order to get the loan, and it looks like more or less you 
are trying to get us out of business rather than in business, 
so make sure that we also take care of those contingencies in 
our measure as we try to pass something and keep it going.
    Thank you, Mr. Chairman.
    Senator Breaux. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Gunn, I thank you for your candor and your honesty, and 
we all have high hopes as to the results of your stewardship of 
Amtrak.
    You wrote a letter dated May 30 and you stated, I quote, 
for the past few years Amtrak pretended it was on a glide path 
to self-sufficiency, and maintained that fiction for too long. 
As a result, decisions that Amtrak made thinking it could 
achieve that mandate were unwise. Too many happy words have 
hidden some very dismal financial results, unquote. Do you not 
think somebody at Amtrak, namely, the board of directors, 
should be held accountable for these decisions?
    Mr. Gunn. Well, first of all, obviously, I was not present. 
I do not know exactly what the interaction between management 
and the board was.
    Senator McCain. Do you know what the interaction is between 
any board of directors and a corporation?
    Mr. Gunn. Let me just say that I think, in fairness, the 
board was given some information which was not clear.
    Should they have realized that the situation was 
deteriorating? I think once they mortgaged Penn Station that 
should have sent alarm bells ringing off in everybody's head. 
When they did that is when I suddenly realized Amtrak was 
obviously in big trouble, but I do not want to characterized 
behavior before the time I got here, but I think people should 
have been aware that something was radically wrong.
    Senator McCain. Well, let me say that you did characterize 
their behavior in your letter to me. Have you closed your books 
for last year?
    Mr. Gunn. We do not have an auditor's letter yet, but we 
have reached the point where our income statement, the draft 
income statement, unaudited, does reflect GAAP, and we had to 
make--I forget the exact number, but including both 2001 and 
2000 almost $200 million of adjustments in the bottom line and, 
of course, it was the wrong way.
    Senator McCain. I do not agree with threatening to shut 
down the entire Amtrak system, including commuter and freight 
operations in the Northeast Corridor and other commuter 
operations performed by Amtrak under contract. Don't you think 
there should be a contingency plan in place to avoid this 
possibility in the future?
    Mr. Gunn. Well, I think what should be available in the 
future is some predictability about Amtrak's survival. The 
problem we had in June is that we were about to run out of 
cash. Had that happened then, all of your employees basically 
are off the payroll. If you want a contingency plan for, let us 
say, the Northeast Corridor, you have to put in place a plan 
that will keep Amtrak, at least in the Corridor, running.
    Senator McCain. That is what I am referring to.
    Mr. Gunn. But that would require a long term plan for how 
you are going to fund Amtrak, and what Amtrak is going to be. I 
mean, it was absolutely an awful period of time. I spent most 
of my time on the other side of the fence being the operator of 
a service that depended on Amtrak like SEPTA, for example, so I 
know what my compatriots were going through a very difficult 
period with us.
    It was not a threat to shut down. It was just a description 
of the reality of what was going to happen, and it was a 
terrible time for them, and I am going to have a real hard 
time, I think, just reestablishing some trust with my fellow 
managers out there. I am going to try to do it, but the 
solution is to fund whatever it is Congress wants Amtrak to be. 
The solution is to put it on a stable fiscal basis so that you 
know that the services you want to continue will continue.
    Senator McCain. I agree totally, and the problem we have 
had in the past, you identified in your letter to me we were 
not given correct information, and without correct information, 
it is impossible for the Congress to act responsibly. We are 
counting on you to give us accurate information no matter how 
bleak that picture might be.
    Last year, Amtrak hired McKinsey & Company to conduct a 
strategic analysis of Amtrak, and made recommendations. As I 
understand it, McKinsey concluded Amtrak should become a 
private for-profit company operating profitable service in 
corridors, providing subsidized long distance service under 
contract, and that Amtrak should prepare for potential 
competition. How much, in total, did McKinsey charge for its 
work, do you know?
    Mr. Gunn. I believe that the total payments to McKinsey was 
over $11 million.
    Senator McCain. And why has Amtrak been reluctant to 
release the reports of this $11 million contract?
    Mr. Gunn. Well, McKinsey came to me before I took the job. 
They obviously were interested in continuing the work. They 
actually came to Nova Scotia, and they promised me at that time 
that I would get the documents of the work that they had 
undertaken, and I am still waiting for that, and so I want to 
see----
    Senator McCain. You never got the report?
    Mr. Gunn. I saw a pile of reports that were not 
synthesized. It was about that high, and in them there were a 
whole series of recommendations. They may have recommended what 
you just said. That I do not remember. We talked more about the 
number of car cleaners, the switch-engine tricks, two three-man 
crews who switch engines, and things like that, but I am 
waiting--I am sure they are going to give it to me, because 
they said they would, but I do not have it.
    Senator McCain. Well, I think we have ways of acting if you 
do not get it. McKinsey does a lot of business with the Federal 
Government, and I hope you will share that. I believe you are 
obliged to share that information with us when you receive it.
    Mr. Gunn. I would. The only reservation I have is, I think 
when they signed the contract with McKinsey there was some sort 
of a confidentiality agreement. That is in the back of my mind, 
and as long as there is nothing to legally interfere with my 
giving you the information, you are more than welcome to it.
    Senator McCain. Thank you. My time has expired, Mr. 
Chairman. Could I ask one further question?
    Senator Breaux. You may.
    Senator McCain. What do you forecast Amtrak's operating 
loss will be for this fiscal year, roughly?
    Mr. Gunn. For this fiscal year it will probably be over $1 
billion. In terms of cash, it will be somewhere around $500 
million. In other words, when you take out depreciation charges 
it will be about $500 million. Our operating subsidy was about 
$200 million, which is why we have a $300-million problem.
    Senator McCain. Finally, I would like to know your view of 
the administration's announced plans for Amtrak and how you 
would like to see Amtrak reformed.
    Mr. Gunn. The administration, if I remember rightly, there 
were five points, and I certainly agree with a couple of them. 
That is, to establish economic standards for Amtrak's services. 
I think that has to be done legislatively. I think it is very 
difficult for the management to do that.
    I agree with running the place in an open and transparent 
way so that you feel comfortable with how we budget and what we 
budgeted for. You may not agree with it, but at least you will 
know what we are doing.
    I disagree with the idea that you turn Amtrak into an 
operating company and put all of the routes up for bid for 
profit. The reason I disagree with that is that the routes are 
not profitable, and so what they are really saying is, you go 
out of business.
    I disagree with separating the corridor infrastructure from 
the operation. I think that is a very, very unwise move, and as 
Mr. Hamberger said, the British have already proven, they have 
experimented for us, and we can thank them for that. We should 
learn from what has happened over there. It has not been a 
success, and I can tell you why, if you are interested, but 
there is a number of reasons why it does not work.
    Senator McCain. Well, maybe you could provide for the 
record some more specifics as to how you would like to see 
Amtrak reformed, Mr. Gunn.
    Mr. Gunn. Well, I think my own view, and this is just my 
view at this point, is that there should be--first of all I 
agree with people who say that at the present time there is a 
certain inequity in the way that we allocate resources. I mean, 
some States pay subsidized services, and pay 105 percent of 
long term variable costs. Other States get a lot of service 
with very little investment, and there should be equity across 
the board.
    We should have a basic understanding of how we fund Amtrak, 
both capital and operating, and I would point to the transit 
model as an example. In transit there is a pool of money, with 
an 80/20 funding arrangement wherein the Federal Government 
puts in 80 percent of a project's cost, but there has to be 20-
percent share of local commitment. I think some sort of 
arrangement where you have a method of allocating resources to 
people who really want service is important.
    I think a number of our services, however, have to be 
funded as a national service, and those costs are relatively 
small, in the scheme of things. Primarily those are your 
transcontinentals, where it is very difficult to get support 
from a given State for a train that is passing through the 
State maybe in the middle of the night. So, I think there are a 
few services, the transcontinentals, the ones that go from 
Chicago West, for example, that need to be funded separately 
from the short haul services, and from the proposed high speed 
corridors.
    I really think we need to decide how, and the split should 
be on funding between the local governments and the Federal 
Government, or Amtrak.
    And on the operating subsidies, I think on the trains other 
than the transcontinentals we should set a very definite, what 
I call cost recovery target, and that is revenue over operating 
costs. In other words, you want to have some rules around where 
we run service and how it is funded, and I think that requires 
legislative action, because I cannot enforce that on my own.
    Senator McCain. Thank you. Thank you, Mr. Chairman.
    Senator Breaux. Thank you very much. I think it has been an 
excellent discussion on not only the safety, but on where we 
are with Amtrak. I think overall on the safety issues, which is 
the subject of this hearing, we have heard some positive things 
both from the freight railroads as far as the record is 
concerned, and also the record of Amtrak.
    With regard to safety, I think there is always more that 
can be done. We are going to work on the safety reauthorization 
bill to see if we cannot improve some of those recommendations 
which I think are not as efficient as they should be. With 
that, this hearing has been very helpful, and I thank the 
witnesses very much for being with us.
    [Whereupon, at 11:25 a.m., the Subcommittee adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Max Cleland, U.S. Senator from Georgia
    Immediately after the terrorists attacks on America, when U.S. 
commercial jetliners were grounded, the only way I could get to my 
state of Georgia was by rail. It was an Amtrak train that took me to 
Atlanta, just as Amtrak safely delivered countless other Americans to 
their destinations during those critical days following September 11th. 
Mr. Chairman, you understood the critical importance of securing not 
just our airports and airways, but all of America's borders and 
transportation corridors. And so after 9-11 you called this 
subcommittee together to hear testimony on securing our national rail 
system.
    At that October hearing George Warrington, then President of 
Amtrak, asked Congress for $3.2 billion to cover the safety, security 
and capacity needs of the national passenger rail system. Congress 
responded to Mr. Warrington's request in the same way we generally 
respond to Amtrak. Once again we treated Amtrak as the little ``red-
headed stepchild'' of the transportation family and gave Amtrak a 
fraction of the amount it asked for. Instead of the $3.2 billion it 
needed, we have so far given Amtrak just $100 million to improve its 
tunnels and $5 million to help keep its passengers out of harm's way.
    For three decades it has been Congress's pattern to short-change 
Amtrak. Since Amtrak was created over 30 years ago, our government has 
invested $25 billion in the system. In contrast, during this same time 
period, we have invested $750 billion in our highway and aviation 
systems. And in recent years, Congress has appropriated less than half 
the money it promised to appropriate in the 1997 Amtrak Reform Act. The 
$100 million loan the Transportation Department has said it would lend 
Amtrak is only about half of what Amtrak said it needed to operate 
until the start of the next fiscal year. As the distinguished chairman 
of the Transportation Appropriations Subcommittee has said, ``proposing 
short-term loan guarantees simply kicks the can down the road and fails 
to face reality.'' This, my friends, is no way to run a railroad. It 
is, in short, a fiscal policy that undermines safety and ensures 
failure.
    I am the proud cosponsor of legislation introduced by the Chairman 
of this Committee, Senator Hollings. We should all take note of the 
particular title of that bill--the National Defense Rail Act. It is 
predicated on the notion that a significant and substantial investment 
in rail infrastructure is an investment in America's economy and long-
term national security. It is a concept not unlike President 
Eisenhower's vision 50 years ago of a system of Interstate and Defense 
Highways. It was a vision made reality only by our willingness to 
invest the nation's dollars in the nation's highways. A viable--and 
safe--national passenger rail system will also require this same kind 
of financial commitment--beginning with our willingness to provide to 
Amtrak $205 million in the Supplemental and an additional $1.2 billion 
in next year's Transportation Appropriations bill. I hope today's 
hearing provides an opportunity to ask some tough questions so that we 
can begin to get the even tougher answers we need to constructively 
move ahead.
                                 ______
                                 
    Response to written questions submitted by Hon. John McCain to 
                            Edward Hamberger
    Question. What did the freight railroads operating on the Northeast 
Corridor plan to do if Amtrak shut down as it threatened?
    Answer. While the Northeast Corridor is principally used for 
intercity passenger and commuter operations, freight railroads have a 
critical need for uninterrupted access to the Corridor to serve a 
variety of customers, including automotive, chemical, electric power, 
and poultry feed operations. In fact, a significant portion of some 
individual railroad's revenues are derived from serving these 
customers.
    Some of the affected customers' facilities are located directly on 
the Corridor, but others are located on freight-owned lines that can be 
reached only via the Corridor. While some of these locations could be 
served by alternative rail service over less efficient routes or by 
intermodal service, many current rail customers would lose service 
entirely if an Amtrak shutdown resulted in freight railroads being 
unable to use the Northeast Corridor.
    When the threat of an Amtrak shutdown arose, freight railroads 
identified which of their customers would be affected and examined the 
options available to permit service to continue. In addition to 
ensuring that the customers were aware that service to their facilities 
could be affected, the railroads made certain that the Surface 
Transportation Board and the Congress were aware of the potential 
impacts. Freight railroads also identified segments of the corridor 
where a freight railroad would be the only remaining operator and were 
exploring whether it might have been possible to arrange continued 
operations temporarily without requiring any services from Amtrak. 
Freight railroads were also prepared to pursue arrangements that would 
give them temporary access to required Amtrak facilities and personnel 
(especially dispatching, maintenance, and security personnel), although 
the uncertainty about Amtrak's future prevented freight railroads from 
fully exploring this possibility. Despite these various efforts, 
however, it is a certainty that some major rail freight customers, 
particularly in the southern tier of the Corridor, would have 
experienced significant disruptions were freight railroads forced to 
embargo their traffic.

    Question. What do you think needs to be done to avoid the 
possibility of a shut-down of freight operations on the Corridor in the 
future?
    Answer. Over the short term, directed service has been proposed as 
an alternative. Amtrak could be directed to keep the Corridor open for 
freight and commuter service by staffing the dispatching and 
maintenance functions. Freight and commuter operations would then take 
place as at present.
    Long term, regardless of ownership, the Corridor must be funded 
sufficiently so that commuter and freight carriers have access to 
sufficient, well-maintained trackage to serve present and future 
markets. Insufficient funding means that passengers and freight will 
increasingly be diverted to cars and trucks on the region's highways. 
If another other than Amtrak acquires and maintains the Corridor, 
access for the freight and commuter carriers are similarly important.

    Question. You noted in your written testimony that the overall 
train accident rate declined 64% from 1980 to 2001. However, the 
accident rate has been creeping up again, from 3.54 accidents per 
million train-miles in 1997 to 4.17 accidents per million train-miles 
in 2001. Is the increase in the accident rate due primarily to track 
failures? What specific actions has the industry taken to address the 
problem?
    Answer. According to FRA statistics track-caused train accidents 
account for about 37% of all train accidents. Since the rate for track-
caused accidents grew slightly faster \1\ that the rate for all 
accidents \2\ between 1997 and 2001, track-caused accidents accounted 
for about 42% of the increase in the overall train accident rate in 
that period. Most of the increase in train accidents in this period 
occurred in yards, where speeds are often slower.
---------------------------------------------------------------------------
    \1\ I.e., from 1.30 to 1.56 per million train miles, up 20%.
    \2\ From 3.54 to 4.17 per million train miles, up 18%.
---------------------------------------------------------------------------
    Specific actions that the industry is taking to address this 
problem include: significant research in better quality track 
components such as rail and ties; more modern track inspection 
technology such as rail defect cars, track geometry cars and gauge 
restraint measurement systems; and cooperative industry-Labor-FRA 
programs such as Rail Safety Advisory Committee (RSAC), Safety 
Assurance and Compliance Programs (SACP), and core competency training.

    Question. There have been many concerns raised about the ability to 
safely transport spent nuclear fuel and high-level radioactive waste 
from locations around the country to the planned repository at Yucca 
Mountain, NV. What special precautions do the railroads take in moving 
such shipments? Has the Department of Energy been willing to pay to 
have the material shipped in special train service?
    The AAR has two programs to reduce the risk of the transportation 
of Spent Nuclear Fuel (SNF). The first is AAR's ``Recommended Railroad 
Operating Practices for Transportation of Hazardous Materials'' or OT-
55. SNF and High Level Radioactive Waste (HLRW) are shipped in 
accordance with OT-55. Some of the provisions of OT-55 include:

  <bullet>  1. Maximum speed of 50 MPH.

  <bullet>  2. Special requirements if a wayside bearing detector finds 
        a hot bearing condition.

  <bullet>  3. Bearing detectors are placed no more than 40 miles apart

  <bullet>  4. Main line track and sidings are inspected for rail 
        defects and track geometry at an increased frequency.

    In addition, AAR has drafted recommend practices governing the 
specifications for the rail cars that will be used for SNF 
transportation. Freight cars meeting these specifications will perform 
at higher standards than current freight cars. An important feature is 
the use of electronic controlled pneumatic (ECP) brakes. ECP brakes 
used in unit train service today, can stop up to 30% faster than 
conventional brakes because the signal is transmitted the length of the 
train electronically instead of by a pneumatic signal. In addition to 
providing superior braking performance, ECP brakes utilize a 
communication system throughout a train that can be used to transmit 
train ``health'' information to the locomotive crew and security 
personnel. The train health information includes monitoring for known 
derailment causes such as truck hunting,\1\ rocking,\2\ wheel flats,\3\ 
defective bearings, vertical and longitudinal acceleration, and, of 
course, braking performance. It is noteworthy that the Private Fuel 
Storage (PFS) consortium, which is seeking to build a temporary storage 
facility for SNF in Utah, is currently designing their system to meet 
AAR's recommended practices for SNF Trains, and intends to use and pay 
for dedicated trains incorporating ECP brakes and a train health 
monitoring system.
---------------------------------------------------------------------------
    \1\ Truck hunting is an instability at high speed of wheel set 
(truck) causing truck to weave down the track, usually with the flange 
of the wheel striking the rail.
    \2\ Excessive lateral rocking of cars and locomotives can occur, 
usually at low speeds. The speed range at which this cyclic phenomenon 
occurs is determined by such factors as the wheel base, height of 
center of gravity of each individual car or locomotive, and the spring 
dampening associated with each vehicle's suspension system.
    \3\ A wheel flat is a flat spot or loss of roundness of the tread 
of a railroad wheel.
---------------------------------------------------------------------------
    While DOE has shipped most of its recent SNF shipments via 
dedicated trains, DOE has not yet committed to their use in their draft 
Request for Proposal (RFP) for Acquisition of Waste Acceptance and 
Transportation Services for the Office of Civilian Radioactive Waste 
Management. In the draft RFP, DOE indicates they will evaluate the 
proposals based upon ``the degree to which the Offeror demonstrates 
that its proposed use of special trains and advanced rail technology 
for shipping SNF is cost effective and lessons the potential for 
adverse railroad equipment incidents, e.g. derailment, cask failure, 
and cask leakage of radioactive contaminants, among others.'' AAR 
believes that DOE should follow the lead of PFS and require the use of 
dedicated trains, and not leave it to the proposal evaluators to decide 
whether or not to use dedicated trains.
                                 ______
                                 
    Response to written questions submitted by Hon. John McCain to 
                         Hon. Marion C. Blakey
    Question. NTSB is investigating at least five of the recent rain 
accidents, including the accidents near Minot, North Dakota, which 
involved the release of anhydrous ammonia and caused one fatality; the 
Auto Train derailment near Crescent City, Florida, which took four 
lives; and the rear-end collision of a BNSF freight train with a 
Metrolink train south of Los Angeles, which involved two fatalities. 
What conclusions have you reached to date? When can we expect the 
NTSB's probable cause of these accidents?
    Answer. NTSB tries to complete major railroad accident 
investigations in approximately one year from the accident's 
occurrence. Each of the 3 accident investigations mentioned is at 
various stages in our process and on that one-year schedule. No 
conclusions have yet been made in these investigations. Below is a 
brief update:

  <bullet>  Minot, North Dakota, January 18, 2002--The NTSB completed a 
        two-day hearing on July 16, 2002, that covered two major 
        issues: track maintenance by the railroad and vulnerability of 
        hazardous materials-carrying tank cars.

  <bullet>  Crescent City, Florida, April 18, 2002--The NTSB, during 
        the week of July 22, 2002, interviewed track maintenance crews 
        and supervisors in Jacksonville, Florida. CSXT track conditions 
        are a focus of our investigation.

  <bullet>  Placentia (Los Angeles), California, April 23, 2002--We 
        have interviewed the train dispatchers, requested cell phone 
        records from the BNSF crew, conducted all signal tests, and are 
        reviewing Federal Railroad Administration compliance records. 
        Human performance of the BNSF train crew is an issue in this 
        investigation.

    Question. In your written testimony, you stated that ``the Safety 
Board believes strong consideration should be given to the installation 
[at grade crossings] of devices that will prevent motorists from 
driving around lowered gates or median barriers.'' My understanding is 
that gates have been intentionally designed to allow emergency vehicles 
to drive around the gates. How would your proposal deal with emergency 
vehicles?
    Answer. We understand the concern that has been expressed regarding 
emergency vehicles at grade crossings, and we are aware that some 
crossings have been intentionally designed to allow emergency vehicles 
to drive around gates. However, we do not believe this situation is 
wise and we do not support the notion that any vehicle, emergency or 
otherwise, should be permitted to traverse a grade crossing when the 
gates are lowered.
    The regulatory minimum warning time for lights to activate at 
actively protected crossings--those with lights and gates--is 20 
seconds, after which the gates begin to lower. The gates are then 
required to be horizontal for only 5 seconds before the arrival of a 
train. Given these short warning times and the inability of a train to 
stop to avoid a collision due to its mass and inertia, the risk of 
collision and death to highway vehicle occupants and train crews or 
passengers when a vehicle tries to circumvent lowered gates is simply 
too great. Our recent investigation of the grade crossing accident at 
Bourbonnais, Illinois, is an example of the risk involved and the 
tragic consequences in such cases.

    Question. Preventing employee fatigue has been on the NTSB's ``most 
wanted'' list since 1990. What recommendations do you have with respect 
to the rail industry and how can this best be accomplished?
    Answer. Fatigue in all transportation modes has been of concern to 
the NTSB for many years. The most recent safety recommendations 
regarding this matter were issued to the Secretary of Transportation 
and the Administrator of the Federal Railroad Administrator on June 1, 
1999. Recommendation I-99-1, which supersedes a 1989 recommendation, 
and recommendation R-99-2, state:
    Require the modal administrations to modify the appropriate Code of 
Federal Regulations to establish scientifically based hours-of-service 
regulations that set limits on hours of service, provide predictable 
work and rest schedules, and consider circadian rhythms and human sleep 
and rest requirements. Seek Congressional authority, if necessary, for 
the modal administrations to establish these regulations. (I-99-1)
    Establish within 2 years scientifically based hours-of-service 
regulations that set limits on hours of service. Provide predictable 
work and rest schedules, and consider circadian rhythms and human sleep 
and rest requirements. (R-99-2)
    We are aware that some individual railroad companies are addressing 
the fatigue problem, and the FRA has told the NTSB that it essentially 
concurs with the Board on the need to adequately address fatigue on the 
Nation's railroads. We believe the current hours-of-service regulations 
are obsolete and need to be revised based on the latest scientific 
findings. While sleep cannot be regulated, the NTSB believes that 
adequate time for sleep can be provided through changes in the hours-
of-service regulations. We understand from the FRA that changes in 
statute are required to alter railroad hours-of-service, and we would 
encourage the Congress to act to address this critical problem.

    Question. Are Amtrak's current procedures adequate for responding 
to a serious train accident and dealing with victims' families? How 
quickly was Amtrak able to provide a manifest following the Crescent 
City, Florida, derailment?
    Answer. Because Amtrak has not been required to provide assistance 
to family members of accident victims, their current procedures are 
probably not adequate. However, Amtrak has advised NTSB staff that it 
is currently working to review and revise its procedures dealing with 
families of victims, and we have provided Amtrak staff with copies of 
the NTSB's federal disaster plan, and samples of aviation family 
assistance plans and emergency procedures.
    Following the Crescent City, Florida, accident, many of the 
uninjured survivors did not receive timely Amtrak assistance or 
direction on how to proceed with their travel, and additional Amtrak 
staff on site would have been useful. In addition, Amtrak employees 
could not handle the volume of inquiries to its 1-800 number following 
the accident, and callers repeatedly received a busy signal for up to 3 
hours.
    Amtrak did not provide the Safety Board with a manifest until 
several days after the accident, even though the train was an all-
reserved train. When we received the manifest, it did not have complete 
information, such as addresses or contact information.
    As we have noted in past accidents, the manifest issue is one that 
will be difficult to resolve. On most passenger trains, advance 
reservations are not necessary or required, and passengers are able to 
board a train without a prior ticket purchase. Even on reserved trains, 
a reservation for a group may only include the name of the person 
purchasing the ticket for the group, and not the name of everyone in 
the group.
                                 ______
                                 
    Response to written questions submitted by Hon. John McCain to 
                            Hon. Alan Rutter
Amtrak Loan
    Question. Why specifically was Amtrak not able to get the full $270 
million from the Department of Transportation through a loan or loan 
guarantee?
    Answer. The Railroad Rehabilitation and Improvement Financing 
(RRIF) program authorizes the Secretary to provide direct loans and 
loan guarantees to eligible applicants for eligible purposes. Those 
purposes include the acquisition, improvement, or rehabilitation of 
rail equipment or facilities. It specifically provides that such loans 
and loan guarantees shall not be used for railroad operating expenses. 
The only eligible purpose that was immediately identifiable was 
Amtrak's capital expenditure program for FY 2002. However, Amtrak has 
already funded much of that program throughout the year. Only the July, 
August, and September portions of that program, which totaled 
approximately $100 million, remained unfunded and were eligible under 
the RRIF program.
Amtrak Operating Expenses
    Question. If Amtrak needs cash for operating expenses, what good is 
a loan for capital projects?

  <bullet>  If Amtrak is using the loan to free up its own capital 
        funds to cover operating loses, doesn't this mean that Amtrak 
        actually had over $100 million available to continue operating? 
        If this is the case, why did you threaten to shut down the 
        system?

    Answer. First, the Administration did not threaten to shut down the 
Amtrak system. Amtrak management did that. Postponing capital 
expenditures was one of the strategies advocated by the Department and 
other members of Amtrak's Board of Directors to help the company get 
through fiscal year 2002. Amtrak's management, however, maintained that 
the $100 million in capital expenditures planned for July, August, and 
September in 2002 were required for the operational integrity of Amtrak 
or were required to meet obligations under existing agreements and 
contracts. Given the limited time available to the Department to 
prevent a shutdown of Amtrak service and commuter service dependent 
upon Amtrak, the Department was required to accept this statement of 
management.
Amtrak Loan Conditions
    Question. The conditions the Administration put on the loan to 
Amtrak are a step in the right direction. Better financial controls and 
accounting transparency have been called for by many different 
interests, including the Amtrak Reform Council and a number of states, 
which often can't understand for what Amtrak is billing them. I am 
especially encouraged that Amtrak is required to develop a plan to 
reduce operating expenses by at least $100 million in fiscal year 2003.

  <bullet>  Please provide a valuation of all Amtrak assets.

  <bullet>  Are the conditions in the agreement only effective for the 
        period the loan is outstanding--in other words, until November 
        15, 2002? Do you recommend that these same conditions be 
        attached to Amtrak's fiscal year 2003 appropriations?

    Answer. As a condition of the loan, Amtrak is required to provide 
the Department with a current inventory and valuation of its assets 
from existing sources of information within 30 days of the loan. FRA's 
work in evaluating Amtrak's loan application, however, showed that 
Amtrak's existing data on its assets are out of date. It is for that 
reason that the Department also intends to assure that an independent 
third party undertakes an updated arms-length valuation of all assets. 
I will keep the Committee informed as this effort progresses.
    Sections 1.3 and 4.12 of the Financing Agreement provide that the 
conditions imposed as Attachments A and B to the ``Loan Commitment 
Letter'' dated June 28, 2002, will survive the termination of the 
Financing Agreement and will remain in effect to the extent provided in 
those conditions.
Service Expansions
    Question. The conditions of the loan require Amtrak to immediately 
stop all work on projects to expand service. But the terms of the loan 
agreement state that this requirement does not apply where Amtrak is 
obligated by an existing contract or law to continue to fund such 
services. It is worthy to note that Amtrak plans to use about $11 
million of its loan on high-speed rail projects and another $5.1 
million for Las Vegas infrastructure improvements even though it 
doesn't currently serve Las Vegas.

  <bullet>  How many commitments has Amtrak made and what is the total 
        exposure?

  <bullet>  Do the commitments include new high-speed rail projects in 
        California, the Midwest, Florida and other areas? How do you 
        defend such expenditures as ``emergency'' needs?

    Answer. The Department of Transportation believes that its 
information on the specific commitments may be incomplete since Amtrak 
does not, as a routine matter, provide the Department with copies of 
these agreements. Amtrak is still working on which of its projects will 
need DOT approval under the terms of the loan agreement. In particular, 
Amtrak has not shared with us any conclusions about the Las Vegas 
project to date. I wish, therefore, to defer the response to this 
question until I have had an opportunity to compare FRA's current 
information with that of Amtrak.
    The high-speed rail project-related activities funded under the 
loan agreement involve a number of existing and well-established 
infrastructure improvements to the Northeast Corridor and do not expand 
the existing scope of Amtrak's high-speed operations. With regard to 
Amtrak's involvement in high-speed rail efforts outside the Northeast 
Corridor, Secretary Mineta was very clear in his statement on the 
future of passenger rail service that there is a need to de-link the 
future of passenger rail currently provided by Amtrak from State-based 
efforts to develop high-speed rail on selected intercity corridors. The 
latter is more appropriately addressed by establishing a long-term 
partnership between the States and the Federal Government to support 
improved intercity passenger rail service.
Consultant Report
    Question. One of the conditions of the loan is that Amtrak turn 
over to DOT all of the work product of Amtrak's third party consultant. 
Does this refer to the work Amtrak hired McKinsey and Company to 
perform? Hasn't the Administration seen this information--after all, 
Secretary Mineta does sit on Amtrak's Board.
    Answer. The third party consultant work referred to in this 
condition is that undertaken by McKinsey and Company. While Amtrak's 
Board of Directors, including Deputy Secretary Jackson and me serving 
as the Secretary's representatives on that Board, have been briefed by 
McKinsey on several occasions, we were not provided with anything 
resembling a final report. That is the reason for the condition.
Report Recommendations
    Question. Could you please summarize some of McKinsey's 
recommendations with respect to the strategic direction Amtrak should 
be pursuing?
    Answer. Amtrak has only just recently submitted a copy of the 
report to the Department's Inspector General, and I have not yet had an 
opportunity to review that material. I will provide the Committee with 
this information as soon as I determine whether there is any material 
difference between the briefings I have received and the report 
provided to the Inspector General.
Additional Amtrak Debt
    Question. The loan agreement suggests Amtrak is prohibited from 
incurring additional debt while the loan is outstanding. Yet, it states 
that Amtrak may incur indebtedness in connection with the purchase of 
assets used in the ordinary course of business. I assume this could 
cover passenger equipment, locomotives and just about anything else 
needed to run trains and stations.

  <bullet>  What protections does this provision really provide? 
        Shouldn't we require that any new indebtedness be approved by 
        the Department of Transportation?

    Answer. Certain types of debt, such as long-term debt to acquire 
capital assets needed for operations and short-term instruments to 
mitigate cyclical swings in cash flow can be viewed as normal to 
conducting business. The Department's intent for this condition was to 
convey to Amtrak that taking on long-term debt to raise cash for 
operations is not an acceptable business practice and would be 
challenged by the Department. I do not believe additional action by 
Congress on this point is needed at this time. Amtrak must now obtain 
the Department's approval for any financing secured by an asset of the 
Corporation.
Shortline Loans
    Question. Shortlines have been trying to access this program for 
several years now, with no success. Yet, Amtrak is able to secure a 
loan in a matter of days.

  <bullet>  What kind of reaction are you getting from shortlines about 
        the RRIF loan?

  <bullet>  What do you plan to do to improve the process for 
        shortlines?

  <bullet>  How did the Administration rationalize not requiring any 
        kind of credit risk premium from Amtrak?

    Answer. The Department has received one letter written before the 
loan was made, from The American Short Line and Regional Railroad 
Association (ASLRRA), expressing concern that Amtrak not be treated 
differently than other applicants for financial assistance. The 
Department required Amtrak to comply with the same statutory and 
regulatory requirements as any other applicant under the RRIF program.
    FRA has completed one loan and is near completion on another loan 
to shortline railroads. Once completed, FRA will conduct a program 
review of RRIF to identify the lessons that can be learned from these 
two agreements and other expressions of interest in the RRIF program 
that have not resulted in financing agreements. The program review will 
examine every step of the process to see where the procedures used by 
FRA can be improved and make us a better, more responsive participant 
in assuring that the essential capital investment needs of the rail 
industry are met. FRA will welcome the input of all interested persons, 
including the Committee, as part of this review.
    Amtrak's loan request was extensively analyzed and was subjected to 
detailed and difficult negotiations before approval was granted. The 
Amtrak loan did not require a credit risk premium because of the 
extremely short-term nature of the loan (only four months) and the high 
amount of collateral pledged ($180 million for a $100 million loan). 
The credit risk premium calculation was performed using FRA's financial 
model in the same way as it is used in all other applications.
Amtrak Short-term Reforms
    Question. Do you support the recommendations for short-term reforms 
that I and thirteen of my Senate colleagues have made to President 
Bush?
    Answer. The Department and Administration share with the authors of 
that letter the view that Federal funding should be provided to Amtrak 
through formal grant agreements; Amtrak should not take on any new 
long-term or secured debt obligations without the approval of the 
Secretary; and, that a contingency plan needs to be developed to ensure 
that commuter and freight rail service can continue if Amtrak ceases 
intercity operation.
    The Department continues to assess the benefits of establishing a 
commission to evaluate Amtrak's route structure and develop standards 
to determine what routes are operated. As you know, the Department sees 
the future of intercity passenger rail service in the context of 
Federal-State partnerships and believes that the States must play a 
strong role in determining which services are operated. So any such 
commission must also allow for State participation. Indeed, such a 
commission might not be needed if States were required to support those 
services that did not cover their net operating expenses. I believe 
that an important first step is to improve Amtrak's accounting systems 
so that decision-makers--be they Amtrak's Board, the States or a 
commission--have confidence that they have an accurate understanding of 
the revenue and expenses of specific routes and services. Development 
of such a transparent accounting system was required by the Department 
as a condition of the loan.
    Finally, the Administration continues to review options concerning 
Amtrak's assets pledged to the Secretary in return for past and future 
investments in Amtrak. Thus, I do not yet have a position on the fifth 
proposal contained in the letter. I would note, however, that the 
independent valuation of Amtrak's assets which will also identify the 
extent to which they are encumbered, is an important first step in 
determining whether there should be a change in the Department's 
existing liens and mortgages on Amtrak's assets.
Track-Related Accidents
    Question. What do you believe is the root cause for the increase in 
track-related accidents? Are the railroads deferring maintenance? Is 
track under more stress due to more train traffic and heavier loads?
    Answer. Track-caused accidents have been on the rise in recent 
years, and track became the leading accident cause in 2001. Reasons for 
this increase and the deterioration in track conditions it reveals are 
not certain, but may include reduced investment in infrastructure, 
reduced maintenance-of-way staffs, insufficient training or monitoring 
of railroad track inspectors, increased traffic, increased axle 
loadings, and/or higher speeds. Of course, conditions vary from 
railroad to railroad.
    FRA recently had great success in working with CSX Transportation, 
Inc. (CSX) to improve its track safety program. In 2000, FRA and state 
inspectors discovered disturbing patterns of noncompliance on CSX 
involving track gage, track inspection, and track repair. Track-caused 
accidents were on the increase. FRA and CSX entered into a unique 
compliance agreement that blended cooperative aspects with strict 
enforcement. Under the agreement, CSX promised to take specific steps 
to improve its use of track geometry vehicles, implement revised 
instructions for track inspections, develop performance standards and 
quality control teams for large scale track work, enhance management 
oversight of track inspections, and provide FRA with its capital 
improvement and maintenance programs for the next three years. CSX also 
agreed that it would pay fines without contesting them if FRA 
discovered any unacceptable track conditions posing an imminent hazard 
to train operations, and that FRA was authorized to issue a compliance 
order or emergency order that CSX would not contest if CSX failed to 
comply with the agreement. CSX took the necessary actions under the 
agreement (although it paid some uncontested fines along the way) and, 
within a year, had reduced its track-caused derailments substantially. 
FRA and CSX renewed the agreement for a second year, although, because 
of CSX's excellent performance, without certain of the original 
agreement's harsher enforcement provisions. The agreement expired on 
May 1 of this year, and the second year's results were also impressive: 
the number of track-caused derailments on CSX in 2001 was 19.8 percent 
lower than the number for 2000, and the number of those derailments on 
CSX declined by 26.2 percent from July 2001 to July 2002. The 
compliance agreement, coupled with CSX's commitment, brought about 
significant safety improvement.
    The trend on track-caused accidents, however, is national in scope. 
To help address the problem, FRA has sought and obtained 12 additional 
track inspector positions in fiscal year 2002, and the President's 
budget for fiscal year 2003 contains a request for an additional 12 
positions.
    In addition to augmenting its track resources, FRA has brought a 
fresh perspective to enforcement in the track area. In January 2002, 
FRA issued a new track enforcement manual that makes focused 
enforcement a reality. The manual provides guidance on how to focus 
inspections on the leading causes of train accidents and strongly 
recommends taking enforcement action every time the most serious 
violations are found. Of course, inspectors are expected to use 
appropriate prosecutorial discretion when other violations are found. 
FRA is making use of its new resources and more focused enforcement 
policy to address the track compliance problem. We will blend 
cooperative measures and tough enforcement to get the job done, as we 
did with CSX in recent years. For those who may be less willing than 
CSX was to meet the challenge head on, we will use whatever level of 
inducement is necessary to ensure improved compliance and safety 
results.
Railroad Bridges
    Question. Many of the nation's railroad bridges are 80 to 100 years 
old. Does FRA have an estimate of how many of these bridges need to be 
replaced in the next five years? Over the next ten years? And what is 
the estimated cost of replacement? In highway terms, what percentage of 
the bridges do you estimate are ``functionally obsolete'' or 
``structurally deficient"?
    Answer. FRA does not have definitive figures or estimates on the 
age of railroad bridges, or the number that might be replaced in the 
next five or ten years. We do not maintain an inventory of bridges, 
because the cost would far outweigh any safety benefit from doing so. 
Bridge replacement decisions are the responsibility of the railroads 
that own the bridges, and FRA is not normally involved in the process.
    Railroads base their bridge maintenance and replacement decisions 
on safety, service, and economic considerations. From the standpoint of 
safety, every bridge requires a level of inspection and regular 
maintenance to ensure its adequacy to safely carry railroad traffic. 
When service levels and equipment weights increase, the expense of 
maintaining an individual bridge in service will also increase until at 
some time the replacement or substantial rehabilitation of the bridge 
will be economically justified.
    FRA foresees future safety concerns as the railroads' cost of 
maintaining the structural integrity of their bridges begins to 
increase significantly. Two years ago, FRA doubled the size of its 
bridge safety staff, from one to two persons. We have managed to deal 
with bridge safety issues as they arise, including complaints with and 
without substance, and to generally monitor the bridge management 
practices of the railroad industry. However, we are beginning to see an 
increase in the number of bridge safety issues that must be properly 
handled by FRA and the railroad industry if the current excellent 
record of bridge safety is to continue.
    Bridge integrity is a unique issue in the field of railroad safety 
because it demands a proactive program. Given the potentially 
disastrous consequences of bridge failure, waiting for such accidents 
to become statistically significant would be an unacceptable course. 
Therefore, FRA plans to intensify its bridge safety program with 
increased staffing in order to enhance its ability to detect and 
resolve problems before they become accidents. We also intend to adhere 
to our policy of non-regulation, for reasons stated in the earlier 
testimony.
    Although we do not maintain a bridge inventory, FRA surveyed the 
railroads in 1992 to compile a rough count of bridges carrying railroad 
tracks in the United States at that time. From that count adjusted for 
time, and current experience, we can make some general statements about 
the continued serviceability of the Nation's railroad bridges.
    We estimate that there exist 100,000 bridges that carry railroad 
tracks in the United States, or approximately one bridge for every 1.4 
miles of track. Approximately 50 percent are steel or iron, 33 percent 
are timber trestles, and the remainder are of reinforced concrete or 
other masonry.
    Railroad bridges are subjected to different loads and outside 
influences than are highway bridges. Railroad bridges carry much 
heavier loads, and they are not subjected to deterioration from the 
application of de-icing chemicals. The most significant factors in the 
serviceability of a railroad bridge are the intensity and the frequency 
of the loads it carries. A majority of the Nation's older railroad 
bridges (pre-1950) were designed to carry the heavy steam locomotives 
of the time, pulling lighter freight cars that normally weighed 177,000 
pounds. Today's diesel locomotives do not impose the high impact 
stresses on bridges that were caused by steam locomotives, but common 
freight car weights have increased to 286,000 or even 315,000 pounds 
per car. It is these heavier cars that greatly affect the serviceable 
life of many existing bridges. The loads affect different classes of 
bridges in different ways. The concrete and masonry structures vary 
widely in age and configuration. The most recent of these, with 
prestressed concrete superstructures, generally are designed to carry 
modern railroad loads, and they are not a major concern for accelerated 
renewal. The older ones--massive stone, brick, and concrete 
structures--are not greatly affected by increased loads provided they 
receive normal maintenance. In fact, the oldest railroad bridge in 
service in the United States is a large stone arch bridge in Baltimore, 
Maryland, which was built in 1828 and continues to carry modern CSX 
freight trains with no weight restriction.
    The most common type of timber bridge found on the Nation's 
railroads is the timber trestle, representing approximately one-third 
of all railroad bridges. These typically consist of a series of short 
spans of ten to fifteen feet on timber piles or posts. They were 
relatively inexpensive to construct, but they require continuous 
maintenance. Although many timber trestles have been in place as such 
for more than 100 years, few if any of their components are more than 
50 years old, having been replaced for maintenance or upgrading of the 
bridge over time.
    These timber trestles are greatly affected by the recent increase 
of car weights to 286,000 pounds. Many are beginning to show 
accelerated deterioration from these increased loads, and they will 
rapidly become very expensive to maintain in service. Because of this, 
and the increasing scarcity of good structural grade timber material, 
it can be expected that they will be replaced with steel or concrete 
structures as they reach the end of their economic lives. Over the next 
ten years, at least one-third of these bridges will probably be 
replaced, a total of 12,000 bridges, or 750 miles of bridge. The larger 
railroads have been progressing this replacement on heavy traffic 
routes for more than a decade. The expense of this renewal will be a 
major problem for many smaller railroads if they are to retain their 
ability to handle the heavier cars that operate in the general railroad 
system.
    Heavier cars are having a significant effect also on the 
serviceability of iron and steel bridges. The great majority of these 
bridges, both large and small, were built during the first two decades 
of the twentieth century to carry the large steam locomotives of the 
time. Steam locomotives impose very high dynamic loads on bridges, and 
these bridges were designed to handle these high impact factors.
    Today's 286,000-pound freight cars are imposing the same stresses 
in some steel bridge components as those developed by steam 
locomotives. However, instead of stressing the bridge member once per 
locomotive passage, the stress cycles are imposed by every loaded car, 
or sometimes 100 times more frequently than during the earlier life of 
the bridge. The effects of these loading cycles accumulate as fatigue, 
and increase the likelihood that some bridge members will develop 
cracks.
    The type of steel bridge most susceptible to this type of fatigue 
is the pin-connected truss. We have a very rough estimate that 300 to 
500 bridges of this type exist in the Nation's railroad network, with a 
common span length of 150 feet. Of that number, probably 100 to 150 
will become uneconomical to maintain in service and will be replaced in 
the next ten to twenty years. Of the remainder, probably 100 more will 
be modified or rehabilitated with the replacement of floor systems or 
some critical components.
    The terms ``functionally obsolete'' or ``structurally deficient,'' 
as applied in highway practice, have little significance when applied 
to railroad bridges. These terms are defined by the Federal Highway 
Administration as follows:
    A functionally obsolete bridge is one that cannot safely service 
the volume or type of traffic using it. These bridges are not unsafe 
for all vehicles, but have older design features that prevent them from 
accommodating current traffic volumes and modern vehicle sizes and 
weights.
    A structurally deficient bridge is closed or restricted to light 
vehicles only because of deteriorated structural components. 
Structurally deficient bridges are not necessarily unsafe. Strict 
observance of signs limiting traffic or speed on bridges will generally 
provide adequate safeguards for those using the bridges.
    These classifications are used to classify bridges as discrete 
components of a highway transportation system. Railroads, however, 
consider bridges as links in a linear route, so that the capability of 
a route to handle cars of a certain weight is normally determined by 
the capacity of all the bridges on that route. The railroad considers 
the bridges on a given route to be suitable for service if they are 
capable of economically handling the traffic moving on that route. 
Bridge and other improvements to permit the movement of heavier or 
larger dimension cars are an economic issue that is internal to the 
railroad.
    For FRA to develop an accurate, detailed, quantified analysis of 
the long-term serviceability of railroad bridges under heavier loads 
would require a major commitment of resources and funding which, up to 
now, has not been justified. We can justify a small increase in the 
safety effort, however, based on the information at hand, which has 
been summarized above. That some bridges are coming close to the end of 
their economical lives calls for more intensive monitoring of the 
safety aspects of railroad bridge management so that safety will 
continue to be the primary governing factor in all decisions related to 
the continued service of railroad bridges.
Employee Fatigue
    Question. What kind of monitoring is FRA doing with respect to 
employee fatigue? Are the railroads required to submit records on how 
many hours individual employees are working on a daily, weekly and 
monthly basis? In other words, how well is this problem being 
documented?
    Answer. FRA monitors fatigue through its efforts to enforce the 
statutory maximum on-duty requirements and minimum off-duty 
requirements of the hours of service law (49 U.S.C. 21101-21108). The 
statute applies to railroad employees who perform any of three types of 
service covered by the statute (``covered service''): train and engine 
service, dispatching service, and signal service. FRA regulations (49 
C.F.R. part 228) require railroads to maintain records of the hours 
worked by all of their covered service employees (i.e., those subject 
to the hours of service law) and to make these records available to FRA 
upon request for inspection and copying. In addition, these FRA 
regulations oblige railroads to submit to FRA reports of their 
employees' excess service on a monthly basis. FRA periodically audits 
railroads' hours of service records to assure that the railroads are 
accurately reporting this information to FRA. Were we to find instances 
of inaccurate hours of service reporting, we would not hesitate to 
initiate corrective measures, including the issuance of civil penalties 
against a railroad, when warranted. Beyond the information provided 
through part 228, FRA receives a number of complaints annually of hours 
of service violations, which it investigates. In summary, by conducting 
field inspections of hours of service records on the railroads' 
premises, by reviewing the monthly reports of excess service submitted 
to the agency, and by investigating alleged hours of service 
violations, FRA has gathered sufficient documentation with which to 
gauge a carrier's compliance with the hours of service law.
    Despite our efforts to ensure the accuracy of hours of service 
reporting, FRA recognizes that more needs to be done to better gage the 
effects of fatigue on safety-sensitive railroad workers. The 
establishment of maximum work shifts and minimum rest periods is but 
one element of the complex set of issues that contribute to fatigue in 
the railroad environment.
    For many years FRA had incorporated the monitoring of fatigue into 
its traditional enforcement and inspection activities. However, past 
monitoring efforts focused primarily on determining compliance with the 
hours of service law and hours of service recordkeeping regulations. 
Beginning in 2001, FRA undertook a much more aggressive approach to 
gauging the causes and effects of fatigue among railroad workers. These 
enhanced fatigue monitoring efforts may be partially attributed to the 
FRA Office of Safety's receiving its initial line-item funding for 
fatigue in its FY 2001 appropriations from Congress.
    Consequently, FRA has embarked on several new initiatives aimed at 
more accurately monitoring fatigue in the railroad environment. These 
new initiatives include the following activities:

  <bullet>  FRA recently awarded a contract to Science Applications 
        International Corporation (SAIC) to analyze selected accidents/
        incidents in order to ascertain the role, if any, played by 
        fatigue. SAIC is utilizing a software model it developed that 
        provides an assessment of the level of crewmembers' fatigue.

  <bullet>  Additionally, FRA has tasked SAIC with developing fatigue 
        protocols to be used during FRA accident investigations. The 
        agency is developing an accident investigation check list for 
        use by safety inspectors to more accurately determine whether 
        fatigue may have been a factor in train accidents where human 
        error was found to be the primary cause. The results generated 
        by the analysis and protocols will provide the foundation for 
        data-driven fatigue initiatives, including recommendations in 
        the area of work/rest scenarios.

  <bullet>  In partnership with The Burlington Northern and Santa Fe 
        Railway Company (BNSF) and the Brotherhood of Locomotive 
        Engineers, a pilot study is underway on the BNSF's Chicago 
        Division, in which railroad employees will use a device called 
        an ``actigraph'' to measure their actual hours of sleep and 
        wakefulness over a several week period. This will provide an 
        accurate measurement of typical work/rest cycles.

  <bullet>  FRA initiated a project at the Volpe Center to test and 
        validate experimental fatigue monitoring devices and alerter 
        technologies for application to the railroad industry. Once 
        validated for practical use in the railroad industry, these 
        devices could monitor and provide real time feedback about an 
        individual's state of fatigue. If used as data-collection 
        devices, they could help monitor the prevalence and incidence 
        of fatigue in the railroad industry.

  <bullet>  FRA is also working collaboratively with other Departmental 
        modal administrations as part of a procurement on fatigue 
        management and assessment technologies. This procurement will 
        lead to validated fatigue modeling and work schedule evaluation 
        tools that may be used to track and help mitigate performance-
        critical levels of fatigue. (The recent award to SAIC to 
        develop software for analyzing accidents/incidents for fatigue 
        grew out of this effort.)

  <bullet>  FRA will soon award a grant to the University of South 
        Australia to work cooperatively with the American railroad 
        industry to identify specific locomotive simulator and event 
        recorder performance measures sensitive to fatigue. Once 
        validated, these measures can be used to help clarify how 
        varying levels of fatigue interact with various operating tasks 
        and environmental factors to impair performance. ``Benchmark'' 
        operating scenarios can then be created to help estimate the 
        risk of fatigue, and quantify what constitutes a ``safe'' level 
        of fatigue, in different operational environments. Results of 
        this project should help monitor some of the transient fatigue 
        risk factors and reduce the risk of fatigue in the rail 
        industry, where more effective interventions can be developed 
        before accidents and incidents actually occur.

  <bullet>  In addition, discussions are underway with the National 
        Institute of Occupational Safety and Health to conduct a 
        collaborative study to monitor the levels of fatigue and stress 
        of yard personnel.

  <bullet>  Beginning in FY 2003, FRA anticipates working with SAIC and 
        a Class I carrier to explore the feasibility of using 
        electronic hours of service documentation to supplement our 
        fatigue data base(s).

  <bullet>  In the future, FRA intends to develop measurement tools to 
        evaluate the success of fatigue initiatives that are currently 
        being developed. As a corollary to efforts in this area, under 
        terms of a cooperative agreement between FRA and the United 
        Transportation Union, the latter will conduct pilot projects of 
        various work/rest schedules to determine the effectiveness of 
        these schedules in reducing employee fatigue.

    FRA also monitors fatigue in the railroad industry through the 
exchange of information provided by the participants of the North 
American Rail Alertness Partnership (NARAP). Established by FRA in late 
1997, NARAP is comprised of representatives from all of the major 
railroads, rail labor organizations, and other concerned parties. NARAP 
provides an open forum for the discussion of fatigue-related issues and 
for the identification of best practices.
Whistle Bans
    Question. With over 400 grade crossing fatalities in 2001, why is 
FRA considering rules that would allow municipalities to enforce 
whistle bans? Won't this be detrimental to the safety program? Will the 
railroads be liable for damages if there is an accident at a crossing 
where a whistle ban is in effect?
    Answer. FRA is considering rules that would allow whistle bans 
because FRA is required by statute to do so.
    Completion of this rulemaking is essential to reconciling highway-
rail crossing safety with the quiet of communities. In response to 1994 
legislation and FRA's own studies showing that local bans on use of 
train horns result in increased crashes and casualties at highway-rail 
crossings, FRA issued a proposed rule in January 2000. While proposing 
to require use of the train horn at public crossings, the notice also 
proposed alternatives that could be implemented by local communities 
that would be equally effective as the train horn in reducing safety 
risk. These ``quiet zones'' will enable communities to reduce noise 
while maintaining safety at highway-rail grade crossings. Increasing 
rail traffic on many rail lines is reducing community tolerance for 
train horn noise. FRA feels that without these proposed regulations 
many of these communities will ban the use of the train horn without 
implementing additional safety measures and thus create a greater risk 
to the motoring public.
    FRA also thinks that the use of the supplemental safety measures to 
create a quiet zone will also increase safety and will have a positive 
impact on the overall crossing safety program. Four-quadrant gates or 
conventional gates with median (just two of the proposed supplemental 
safety measures) will make it much more difficult for motorists to 
disregard the automatic warning devices at the crossings and will 
increase crossing safety even with the horn being silenced. The 
proposed rule will also require corridor reviews that will look at the 
safety conditions at all of the crossings in the quiet zone. FRA's goal 
of closing redundant crossings will also be advanced as a community may 
be willing to close these crossings rather than make the safety 
improvements necessary to have a quiet zone.
    The proposed regulations stated that the establishment of a quiet 
zone does not preclude the sounding of locomotive horns in emergency 
situations, nor does it impose a legal duty to sound the locomotive 
horn in emergency situations. Simply stated, a railroad would not be 
found liable for damages in a collision with a motor vehicle on grounds 
that the railroad failed to sound the train horn in a quiet zone 
established under the proposed rule.
Burlington Northern Santa Fe
    Question. A number of recent accidents have involved head-on and 
rear-end collisions involving Burlington Northern Santa Fe (BNSF). On 
April 23, a BNSF container train rear-ended a Metrolink commuter train 
south of Los Angeles, apparently after the BNSF engineer ran a signal. 
On May 11, two BNSF coal trains collided head-on in the Powder River 
Basin in Wyoming, injuring four crew members. On May 28, two BNSF 
trains collided head-on in Clarendon, TX, killing an engineer. On May 
29, a runaway car from a BNSF work train struck and killed a track 
worker. What are BNSF and FRA doing in response to these accidents?
    Answer. Shortly after the coal train collision on May 11, the FRA 
Office of Safety's Operating Practices Division, our State 
Participation Program partners, and BNSF management began in-depth 
assessments of levels of compliance with BNSF and FRA operating rules 
and the railroad's efficiency testing program in all 13 of the 
railroad's divisions. This project relies heavily on communication of 
risks and results between railroad front line supervisors and managers 
and the operating crews of freight and passenger trains. FRA and State 
Operating Practices Inspectors are accompanying railroad managers in 
the field to observe and assess their competence in conducting the 
efficiency testing program, and to ensure that testing managers are 
accurately detecting rules noncompliance that may result in human-
factor-caused train accidents or incidents.
    Following the BNSF maintenance of way (MOW) employee fatality on 
May 29 and other MOW injuries on other major railroads, our Office of 
Safety's Track Division joined the Operating Practices Division in 
assessing levels of compliance with FRA's roadway worker protection 
regulations (RWP) and railroads' MOW Operating Rules. This initiative 
is similar in design to the Operating Practices Division's program and 
capitalizes on FRA's already-initiated intense inspection activity on 
major railroads nationwide. In this initiative, track safety personnel 
from FRA and our State program partners are working with the rail 
unions and management to conduct systematic evaluations of RWP 
compliance levels and to communicate risks and hazards to railroad MOW 
employees and those who manage them.
    These safety initiatives by both FRA's Operating Practices and 
Track safety personnel will run concurrently through the summer months, 
and they are planned to be completed in September 2002 on BNSF.
Crashworthiness Structural Requirements for Tank Cars
    Question. Several recent train accidents have involved hazardous 
materials releases. In the Minot, North Dakota accident last January, 
the release of anhydrous ammonia killed one and seriously injured 
another 13 people. In the Potterville, Michigan accident on May 2, 200 
people had to be evacuated due to the release of liquid propane gas. It 
certainly seems that today's cars cannot withstand a serious derailment 
without the threat of puncture. Has FRA initiated a rulemaking or other 
action to reevaluate the structural requirements for railroad tank 
cars?
    Answer. While there is no question that train accidents involving 
the release of hazardous materials have the potential for widespread, 
serious harm, the long-term safety trends on the Nation's railroads, as 
judged by most indicators, are very favorable. While even a single 
death or injury is not acceptable, progress is being made in the effort 
to improve railroad safety. Based on preliminary figures, last year 
marked all-time safety records in several important categories. 
Overall, the total number of rail-related accidents and incidents and 
the total accident/incident rate were the lowest on record. In the 
period between 1978 and 2001, the number of train accidents involving a 
release of hazardous material declined from 140 to 31 despite a 
significant increase in the number of hazardous materials shipments 
from approximately 750,000 to nearly two million per year. Since 1990, 
a period in which railroads have transported more than 20 million 
hazardous materials shipments, three persons have died as a result of 
the release of hazardous material lading in a train accident.
    In other words, over the last two decades the number and rate of 
train accidents, and the hazardous materials releases and deaths 
related to those releases, all fell dramatically. At least part of the 
credit for the decline must go to enhanced safety awareness and safety 
program implementation on the part of railroads and their employees, 
and to FRA's safety monitoring and standard setting.
    FRA has been engaged for more than three decades in an active, 
ongoing program to improve the safety of tank cars. This program has 
involved regulation, education, and research and much of its success is 
the direct result of the partnerships FRA has fostered with tank car 
builders, users, and repairers. Many of the specific aspects of this 
program will be detailed later. Right now, FRA is engaged in a recall, 
inspection, and ``repair before next loading'' program affecting some 
7,000 cars built before 1974. This program is an outgrowth of 
regulations requiring tank car facilities to institute quality 
assurance programs as described below. In addition, FRA is developing 
an improved compliance program to ensure that tank cars are maintained 
in a railworthy state throughout their service life.
    Regarding the derailments at Minot, North Dakota and Potterville, 
Michigan, we are not absolutely certain why the cars fractured or 
ruptured in either train derailment; however, based on our knowledge of 
the severe forces involved in each situation, we believe these cars 
encountered such extreme energy that no reasonable tank car design 
could have survived. While it is impossible to prevent every release of 
product as a result of a train derailment, great strides have been 
made, as I will detail later, and the agency is working to reduce the 
impact zone of a hazardous material release should one occur as a 
result of a train derailment. These efforts will help protect the 
public, train crew personnel, and the affected environment should a 
release occur.
    FRA, AAR (the Association of American Railroads), and RPI (the 
Railway Progress Institute) have studied the issue of tank car 
vulnerability in train derailments since the late 1960s. As a result of 
these studies, improvements were made to tank car steels with respect 
to both their chemical make-up and the controls used in processing the 
steel plates. Each of these improvements was the result of 
technological advances in material science and steel-making practice. 
The end product of these studies is significantly improved steel, steel 
that exhibits both increased crashworthiness and puncture resistance in 
train derailments.
    While we continue to quantify the dynamic effects of fracture and 
puncture of tank car steels involved in a train derailment, we have 
realized that more research is needed. In FRA's Five Year Research 
Vision Statement, the agency has targeted research to characterize the 
following phenomena:

  <bullet>  The Impact Energy During Train Derailments. This project 
        would develop a load model to estimate the impact energy into 
        the tank envelope and on appurtenances during a derailment and 
        the effects of those energies on the tank and appurtenances. A 
        combination of computer modeling and analysis, FRA accident 
        data, and detailed tank car damage data contained in the RPI-
        AAR Tank Car Project database would be used to develop the 
        spectrum of loads. The results of the study will help establish 
        quantitative estimates of the risk of using different materials 
        in the construction of tank cars.

  <bullet>  The Dynamic and Static Loadings During In-Train Operations. 
        This project would explore the effects of in-train (non-
        accident) related forces and the pathways of these forces 
        through the tank envelope. This will require over-the-road 
        testing of a representative number of tank cars to determine 
        the dynamic forces acting upon the car structure during normal 
        in-train service. An understanding of these loads is important 
        in the design and material selection stage with respect to 
        fatigue related failures--failures related to cyclic loading.

  <bullet>  Material Behavior. This project would review the results of 
        the above two studies for the development of an ideal steel 
        specification; a steel that has improvements in its ability to 
        resist puncture, rupture, and fatigue. The research would 
        characterize the effect of material behavior on the structural 
        response of tank cars involved in accidents and normal loading. 
        By quantifying this effect, there will exist an understanding 
        of the consequences of structural steel properties with respect 
        to the risks of using different materials in the construction 
        of tank cars.

  <bullet>  In addition to FRA's proposed research, at the July 2002 
        Tank Car Committee meeting, FRA, working in cooperation with 
        the railroad tank car industry, agreed to form two government/
        industry task force groups to characterize the following:

  <bullet>  The risks and consequences of various tank car designs, 
        materials, and service with respect to their (tank shell) 
        vulnerability to fail catastrophically at temperatures below 
        the nil-ductility temperature of the steel.

  <bullet>  The types of tests for determining the nil-ductility 
        temperature of the steel and recommend changes in the Tank Car 
        Manual with respect to quantifying the materials for use in new 
        pressure tank car construction, including the minimum design 
        temperature range of the tank and the minimum grain size of the 
        steel. (Reducing the grain size improves the fracture toughness 
        and crashworthiness of the steel.)

    While much can be said with respect to what the agency is doing to 
reevaluate the structural crashworthiness of tank cars involved in 
train derailments, no story is complete without the context of what has 
already been done to radically improve the crashworthiness of tank cars 
since the 1970s.
Safety Improvements 1970-1990
    From 1970 to 1990, there were five major areas of safety 
improvements:

   (1) Shelf Couplers: Research on accidents showed that a frequent 
        cause of hazardous materials releases was a coupler that 
        vertically disengaged during a derailment or, due to overspeed 
        switching, acted as a battering ram to puncture an adjacent 
        tank car. Top and bottom shelf couplers were found to be 
        effective at keeping couplers engaged during switching and in 
        derailments, thereby preventing this type of release. These 
        double shelf couplers are now required on all tank cars 
        transporting hazardous materials.

   (2) Head Shields: Related to the above problem was the need for 
        extra protection of tank heads, particularly in derailments 
        when a coupler or a rail might puncture the tank head. Head 
        shields are thick steel plates that are mounted on the ends of 
        a tank car used to haul high-risk materials, such as compressed 
        gases and materials poisonous by inhalation. These shields 
        provide extra puncture resistance for the tank heads in 
        accidents.

   (3) Thermal Protection: In the past, when tank cars carrying certain 
        compressed gases, such as liquefied petroleum gas (LPG), were 
        involved in derailments in which the cars were exposed to fire, 
        the LPG was heated, its pressure rose, and it vented through 
        the pressure relief valve. However, as the liquid level inside 
        the tank dropped, the flame could heat and weaken the tank 
        steel in the vapor space. Thermally induced internal pressure 
        acting on the weakened tank steel could cause the tank to fail 
        and rupture violently. The solution was to apply a layer of 
        thermal protection on these tank cars to slow the rate of 
        heating and provide time for the tank to vent its contents, 
        thus greatly reducing the likelihood of a tank failure. 
        Subsequent accidents involving cars with these materials and 
        design modifications have shown them to be highly effective.

   (4) Bottom Outlet Protection: Fittings on the bottoms of tank cars 
        are susceptible to damage when there is a derailment. Tank car 
        companies and valve manufacturers developed valves that were 
        less likely to leak when damaged. These companies also 
        developed skid protection devices that were mounted around the 
        bottom outlet to further protect them as the tank skidded in a 
        derailment. Subsequent analysis by the RPI-AAR Tank Car Safety 
        Project has shown that these devices reduced the frequency of 
        leaks from bottom fittings by 55 percent and also reduced the 
        severity of those leaks that did occur. The AAR Tank Car 
        Committee required that all new tank cars manufactured since 
        1978 have bottom fitting protection and developed a schedule 
        for retrofitting existing tank cars with skid protection based 
        on the hazard posed by the chemicals they carried. This 
        retrofit was completed in the 1990s.

   (5) Quality Assurance: Starting in the 1980s, AAR imposed a rigorous 
        quality assurance certification and auditing program on certain 
        railcar components and, in particular, on the tank car building 
        and repair industries. The program provides a disciplined 
        approach for the examination of contractors' quality management 
        programs and the effectiveness of their implementation. The 
        goal is to ensure that materials, products and services conform 
        to specified requirements. These requirements are now mandatory 
        under Federal law.
Safety Improvements 1990-2000
    From 1990 to 2000, more safety progress was made, as illustrated by 
the following eight initiatives:

   (1) OT-55-D: Based on recommendations of the Inter-Industry Task 
        Force (IITF), a group comprised of senior executives from the 
        rail, chemical and tank car industries, the AAR implemented 
        recommended practices for the rail transportation of hazardous 
        materials. OT-55 designates trains carrying a specified number 
        of cars of hazardous materials as ``Key Trains.'' Key Trains 
        are limited to 50 MPH and hold the main track at meeting and 
        passing points when possible. In the past, when railcars 
        equipped with plain (friction) bearings were still in 
        interchange service, the cars were not permitted in key trains, 
        and currently other operating restrictions are imposed on these 
        trains. Routes carrying more than a designated number of 
        carloads of certain hazardous materials are designated as key 
        routes. Key routes are equipped with wayside bearing-defect 
        detectors at a minimum of every 40 miles and must be inspected 
        by rail-defect detection and track geometry inspection cars (or 
        equivalent) not less than twice a year. Yard coupling speeds 
        are limited to four MPH, and certain cars may not be cut off in 
        motion in more than two-car cuts. Additionally, training 
        recommendations for transportation employees were established.

   (2) More Damage-Resistant Tank Cars for Certain Dangerous Goods: FRA 
        and the railroads were concerned that chemicals classified as 
        poisonous (Poison Inhalation Hazard) or extremely harmful to 
        the environment (Environmentally Sensitive Chemicals) were 
        permitted to be shipped in tank cars that were susceptible to 
        damage in accidents. A risk analysis of stronger tank car 
        designs was conducted using FRA and the RPI-AAR Project 
        statistics together with an assessment of the hazards posed by 
        different chemicals. Based on these results and other factors, 
        railroads, shippers, tank car owners and regulators agreed on 
        requirements that more damage-resistant tank cars be used for 
        these products.

   (3) Tank Car Stub Sill Inspections: In response to the discovery of 
        cracks in tank car stub sills, and at the request of FRA and 
        Transport Canada, the railroads, tank car builders and chemical 
        industry developed a program to inspect tank cars to determine 
        the frequency and seriousness of these cracks. The program was 
        developed to prioritize these inspections based on design-
        related criteria so that cars considered highest risk were 
        inspected first.

   (4) Damage Tolerance Analysis of Tank Car Stub Sills: A follow-up to 
        the stub sill inspection program is Damage Tolerance Analysis 
        (DTA). This investigation has been underway for several years 
        to develop an improved understanding of the structural design 
        requirements for tank cars based on the forces actually exerted 
        on the cars in normal operation. The results of this 
        investigation have helped tank car manufacturers improve the 
        designs of their cars so that they are better able to withstand 
        the railroad operating environment. DTA is ultimately intended 
        to develop inspection intervals for each car design to ensure 
        the safe operation of these cars.

   (5) North American Non-Accident Release Reduction Program: The 
        railroad and chemical industries have been at work for several 
        years on a program patterned after a successful Canadian 
        project to reduce the frequency of non-accident caused releases 
        of hazardous materials. These releases are usually the result 
        of improperly secured fittings on tank cars. The strategy of 
        the program is to inform chemical shippers if they appear to 
        have an inordinate number of releases and to provide them with 
        information and guidelines on how to curtail these leaks.

   (6) Tank Car Safety Vent Surge Reduction Devices: Throughout most of 
        the 1990s, the leading source of hazardous materials releases 
        in rail transportation was from tank car safety vents. FRA and 
        AAR research showed that devices designed to prevent these 
        leaks were effective, and this led the Tank Car Committee (TCC) 
        to require that they be installed on new tank cars built after 
        1995 and equipped with safety vents. Further research 
        identified which devices were most effective. FRA and TCC are 
        in the process of establishing performance requirements for the 
        devices, and a retrofit schedule based on this research is 
        currently underway. Related to this, DOT now requires higher-
        rated frangible discs (165 pounds per square inch) to be used, 
        also reducing the likelihood of a leak from a safety vent.

   (7) Non-destructive Evaluation (NDE): Federal regulations now 
        require the use of non-destructive evaluation processes to 
        determine the fitness for service of tank cars. These methods 
        have replaced the hydrostatic test of tank car tanks as the 
        means to periodically qualify tank cars for continuing service. 
        Whereas the hydrostatic test was a simple test of a tank's 
        ability to hold pressure, the qualification of NDE personnel 
        and the quantification of the NDE procedure are designed and 
        intended to detect cracks and other flaws in tanks and tank 
        structure prior to failure.

   (8) Tank Car Damage Assessment: When a tank car is damaged in an 
        accident, it is important to understand the consequences of the 
        damage and the extent that a car's structural integrity has 
        been compromised. FRA-sponsored research has resulted in an 
        improved scientific and engineering basis for assessing the 
        condition of a tank car and providing emergency responders with 
        an improved basis for safety-critical decisions at an accident 
        scene.
NTSB Recommendation
    Question. The NTSB has recommended that FRA consider the volume of 
hazardous materials shipments in determining the frequency and type of 
track inspections. What is your view on this recommendation?
    Answer. I understand your question to refer to NTSB Recommendation 
No. R-02-13, which reads ``[m]odify your track inspection program to 
incorporate the volume of hazardous materials shipments made over 
tracks in determining the frequency and type of track inspections.'' 
The NTSB preceded this recommendation with the statement that it 
``concluded that the frequency and type of track inspections routinely 
performed by the FRA on the Beaumont Subdivision were inappropriate 
given the fact that this was a key route that carried large volumes of 
hazardous materials.''
    As to FRA's view on this recommendation, the transport of hazardous 
materials has always been a factor that FRA's management must consider 
when establishing priorities necessary to efficiently allocate the 
agency's inspector forces throughout the large territories that FRA 
monitors. This policy is currently defined in Chapter Two of FRA's 
Safety Assurance and Compliance Program Manual under the heading of 
``Allocation of Resources: Prioritization.'' In addition, the volume of 
hazardous materials transported over a particular route is weighted 
heavily in a list of factors used to identify and prioritize routes to 
be surveyed by FRA's Automated Track Inspection Program, utilizing the 
T-2000 vehicle.
    To implement this prioritization policy more effectively, FRA is 
engaged in two improved efforts to identify and describe those routes 
where hazardous materials are hauled, including the type and volume of 
hazardous materials traffic on those routes. First, FRA is using the 
data from its Regional Inspection Points Program to adjust the 
information relative to heavy tonnage routes likely to support large 
volumes of hazardous materials shipments that have been identified by 
FRA's two-percent waybill sampling initiative. Second, FRA is gathering 
information on ``Key Trains'' and ``Key Routes'' from the individual 
railroads. As I discussed earlier, these terms have been defined by the 
Association of American Railroads to characterize the type and volume 
of hazardous materials being transported over particular routes.
                                 ______
                                 
     Response to written question submitted by Hon. John McCain to 
                              Don M. Hahs
                                                      July 19, 2002
Hon. John McCain
Washington, DC.

Dear Senator McCain:

    This is in response to your post-hearing question addressed to me 
in which you asked, ``From an employee's perspective, what is the most 
pressing rail safety concern?''
    Without any doubt, the most pressing rail safety concern of 
railroad employees is fatigue. Fatigue in the railroad industry is 
caused by many factors. Understaffing, not properly relieving employees 
after the hours of service has expired, i.e, limbo time, irregular work 
schedules and the absence of a mandatory right of employees to take 
time off from work when they are exhausted are a few of the 
contributing factors to the problem of fatigue.
    For many years, railroad companies have pressured their employees 
to work more so that they will need fewer employees. They have applied 
this pressure through threats and actual discipline assessed against 
employees who the company feels has not worked enough. As the work 
force decreases the employees are required to work more. Railroad 
companies deny many employees' requests for days off. So you have 
situations existing on a daily basis in which trains are being operated 
across the country by employees that are suffering from fatigue.
    All passenger train engineers have a scheduled time to report to 
work. If a passenger train engineer is expected to work six hours or 
more, there is a requirement for an assistant engineer, who is 
certified to operate the train, to be in the cab of the locomotive with 
the engineer. These are a safety measures. However, on freight trains, 
engineers can operate the locomotive for twelve hours with no assistant 
engineer in the cab of the locomotive and with the additional burden of 
never knowing when they will required to report for work.
    Understaffing in maintenance, signal and dispatching can lead to 
fatigue because all qualified employees are requested to work more 
hours or train new employees, which also can be taxing.
    A few remedies for these very legitimate safety concerns are a 
regulation that empowers employees with the absolute right to take time 
off when they are suffering from fatigue. In addition, railroad 
companies need to be required to maintain sufficient manpower in all 
departments. Giving employees a scheduled time to go to work, instead 
of being ``on call'' twenty-four-seven, not knowing when you are going 
to work, increases the risk of employees coming to work fatigued. 
Empowerment of the employees of the right to take time off after 
working a certain number of runs would provide for a safer industry. 
These are just some of the means that could begin to address fatigue in 
the industry.
    I am hopeful that my response to your post-hearing question has 
provided you with the information you were seeking. We would be glad to 
meet and discuss this issue further at your convenience.
        Very truly yours,
                                                Don M. Hahs
                                                          President

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
